APPENDIX

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 19-1170
————
THE CENTER FOR INVESTIGATIVE REPORTING,
Appellant
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civ. Action No. 2-18-cv-01839)
District Judge: Hon. Michael M. Baylson
————
Argued October 23, 2019
Before: GREENAWAY, JR., PORTER, and GREENBERG,
Circuit Judges.
————
(Filed: September 14, 2020)
————

2a
Molly M. Tack-Hooper [ARGUED]
American Civil Liberties Union of Pennsylvania
P.O. Box 60173
Philadelphia, PA 19106
Brian M. Hauss
American Civil Liberties Union
Speech, Privacy & Technology Project
125 Broad Street 18th Floor
New York, NY 10004
John S. Stapleton
Stapleton Law LLC
Suite 200
3000 Atrium Way
Mount Laurel, NJ 08504
Rebecca S. Melley
Robert A. Wiygul
Hangley Aronchick Segal Pudlin & Schiller
One Logan Square
18th & Cherry Streets, 27th Floor
Philadelphia, PA 19103
Attorneys for Appellant
Stephen G. Harvey
Steve Harvey Law
1880 John F. Kennedy Boulevard
Suite 1715
Philadelphia, PA 19103
James P. Davy
2362 East Harold Street
Philadelphia, PA 19125

3a
Bruce D. Brown
The Reporters Committee for Freedom of the Press
1156 15th Street, N.W.
Suite 1020
Washington, DC 20005
Attorneys for Amicus Appellants
Kendra L. Baisinger
Robert E. Day, III
Maryellen Madden [ARGUED]
John J. Powell
Montgomery McCracken Walker & Rhoads
1735 Market Street
21st Floor
Philadelphia, PA 19103
Attorneys for Appellee
Gregory J. Krock
McGuireWoods LLP
Tower Two-Sixty
260 Forbes Avenue, 18th Floor
Pittsburgh, PA 15222
Attorney for Amicus Appellee
————
OPINION OF THE COURT
————
GREENAWAY, JR., Circuit Judge.
Appellant Center for Investigative Reporting
(“CIR”) seeks a permanent injunction that would
require the Southeastern Pennsylvania Transportation Authority (“SEPTA”) to run an advertisement
on the inside of SEPTA buses. The advertisement
promotes CIR’s research on racial disparities in the
home mortgage lending market. SEPTA rejected
the advertisement under two provisions of its 2015

4a
Advertising Standards, which prohibit advertisements that are political in nature or discuss matters
of public debate (the “Challenged Provisions”). The
question presented is whether the Challenged Provisions violate the First Amendment. Because the
Challenged Provisions are incapable of reasoned
application, we answer that question yes. Accordingly,
we will reverse and instruct the District Court to grant
declaratory relief and issue a permanent injunction
preventing SEPTA from enforcing the Challenged
Provisions to exclude CIR’s advertisement.
I. BACKGROUND
A. The Parties
SEPTA has operated Philadelphia’s mass transit
system, including buses, subways, commuter rail,
light rail, and trolley service, since 1964.1 Like many
other public transportation authorities, SEPTA generates revenue by accepting advertisements that it
displays in its facilities and on its vehicles. The
advertising agency Intersection (formerly Titan
Outdoor, LLC) manages SEPTA’s advertising program, including selling advertising space and
reviewing proposed advertisements. SEPTA’s contract
with Intersection includes the Advertising Standards,
which apply to all the advertising space in or on
SEPTA vehicles and facilities. When Intersection
determines that a proposed advertisement may
violate the Advertising Standards, it sends the advertisement to Gino Benedetti, SEPTA’s General

1

This Court has found, and the parties do not dispute, that
SEPTA is a government actor “constrained by the First . . .
Amendment[.]” Christ’s Bride Ministries, Inc. v. SEPTA, 148 F.3d
242, 247 (3d Cir. 1998).

5a
Counsel, who makes the final decision whether to
accept the advertisement.
CIR is a California-based, nonprofit, investigative
news organization. Its mission is to advance social
justice through the dissemination of verifiable, nonpartisan facts about public issues. CIR publishes its
reporting on various platforms, such as its news
website Reveal (www.revealnews.org), national radio
show, and podcast.
B. SEPTA’s
Rejection
Advertisement

of

the

Proposed

In January 2018, CIR submitted a proposed
advertisement for display on the interior of SEPTA
buses. The proposed advertisement consisted of a
comic strip entitled “A Stacked Deck,” which summarized the findings of a then-forthcoming CIR report
detailing the results of its year-long investigation into
mortgage lending trends throughout the United
States. The report, which CIR published on February
18, 2019, indicated that in 61 metropolitan areas,
applicants of color were more likely to be denied
conventional home purchase mortgages.
The proposed advertisement consists of the following comic strip:

6a

7a

8a

9a

10a

11a
On February 22, 2018, SEPTA rejected CIR’s
proposed advertisement because “[d]isparate lending
is a matter of public debate and litigation.” App. 576.
SEPTA included in its rejection email a copy of the
2015 Advertising Standards, which were operative at
the time. Id. SEPTA later clarified that it rejected the
proposed advertisement “under Standards 9(b)(iv)(a)
and (b)” of the 2015 Advertising Standards. App. 613.
These provisions, both of which CIR challenges, read:
Prohibited Advertising Content. Advertising
is prohibited on transit facilities, products
and vehicles if it or its content falls into one
or more of the following categories –
(a) Advertisements promoting or opposing a
political party, or promoting or opposing the
election of any candidate or group of candidates for federal, state, judicial or local
government offices are prohibited. In addition, advertisements that are political in
nature or contain political messages, including advertisements involving political or
judicial figures and/or advertisements involving an issue that is political in nature in that
it directly or indirectly implicates the action,
inaction, prospective action or policies of a
government entity.
(b) Advertisements expressing or advocating an opinion, position or viewpoint on
matters of public debate about economic,
political, religious, historical or social issues.
App. 616–17.
On August 6, 2018, months after commencing the
instant action, CIR submitted a second proposed
advertisement to SEPTA. As the District Court

12a
explained, the revised advertisement removed two
panels from the original—one showing “a white hand
handing keys and stick of dynamite to a black hand,”
and another showing “African-Americans holding
signs protesting . . . and a white guy not part of the
protest.” Ctr. for Investigative Reporting v. SEPTA,
337 F. Supp. 3d 562, 574 (E.D. Pa. 2018) (alteration in
original). In the letter accompanying this proposed
advertisement, CIR explained that it removed the two
panels because they were ones that SEPTA identified
as particularly concerning.
By letter dated September 21, 2018, SEPTA rejected
this second advertisement, explaining that it violated
the same provisions as the first. SEPTA explained that
the comic “as a whole,” as opposed to isolated
elements, violated the Advertising Standards. Dist.
Ct. Dkt. 2:18-cv-01839, ECF No. 32-1 at 2. Despite its
contention that the entire comic was problematic,
SEPTA highlighted various unchanged, individual
elements of the comic that continued to concern
SEPTA. These include: On panel 1, the phrase “A
STACKED DECK”; on panel 2, the words “regularly,”
“DENIED,” and “dream”; on panel 6, the sentence
“This is just the latest in the United States’ SORDID
HISTORY of unequal access to owning a home” and
the accompanying image; and on panel 10, the phrase
“a deck stacked against them” and the accompanying
image. Id.
C. CIR’s Allegations
On May 2, 2018, CIR filed the Complaint, alleging
that SEPTA violated its First and Fourteenth Amendment rights by rejecting its proposed advertisement.
To vindicate these rights, CIR seeks a declaratory
judgment that the Challenged Provisions are unconstitutional and a permanent injunction prohibiting

13a
SEPTA from enforcing the Challenged Provisions to
exclude CIR’s proposed advertisement.
D. District Court Proceedings
On August 17, 2018, CIR filed a motion for a
preliminary injunction. The Court authorized the
parties to engage in limited discovery, including
depositions, prior to the hearing on that motion. On
September 14, 2018, the District Court held the
preliminary injunction hearing.
On September 25, 2018, the District Court denied
CIR’s motion without prejudice. In reaching this
holding, the District Court applied the familiar test for
preliminary relief: “A party seeking a preliminary
injunction must show: (1) a likelihood of success on the
merits; (2) that it will suffer irreparable harm if the
injunction is denied; (3) that granting preliminary
relief will not result in even greater harm to the
nonmoving party; and (4) that the public interest
favors such relief.” Kos Pharm., Inc. v. Andrx Corp.,
369 F.3d 700, 708 (3d Cir. 2004).
The District Court found that while CIR had shown
that it suffered an irreparable injury, none of the other
factors favored granting preliminary injunctive relief.
The District Court explained that (1) because of the
scant evidence about SEPTA’s reasons for implementing the 2015 Advertising Standards the District Court
could not determine whether CIR was likely to succeed
on the merits, and (2) neither the balance of the
equities nor the public interest clearly supported
either party. Because the bench trial was scheduled
to begin in less than one week, the District Court
determined that it would prioritize bringing the case
to a final disposition. The District Court therefore
declined to enter a preliminary injunction.

14a
On October 1, 2018, the District Court held a bench
trial. At trial, the District Court heard live testimony
from Gino Benedetti, SEPTA’s General Counsel, and
the parties presented exhibits and stipulated facts.
At trial, as to Subsection (a) (i.e., the political
provision), Benedetti testified on direct examination
that the terms “political” and “political in nature” were
“essentially the same to [him].” Ctr. for Investigative
Reporting, 337 F. Supp. 3d at 577. He stated that the
phrase “directly or indirectly implicates the action,
inaction, prospective action or policies of a government
entity . . . defines or connects with what’s political in
nature.” Id. On cross-examination, however, he
testified that the terms “political” and “political in
nature” have distinct and separate meanings and that
“implicate” could mean “advocate[]” or “call[] for.” Id.
As to Subsection (b) (i.e., the public debate provision), Benedetti testified that to determine whether
something is a “matter of public debate” he performs
“a mechanical type of analysis that . . . look[s] to see
what is being argued, debated in society in general.”
Id. He explained that he looks at “the entire ad” and
evaluates “holistically . . . the subject matter of that
ad being debated in society at large.” Id. That process,
according to Benedetti, requires that he use “common
sense” and have discussions to determine what is a
matter of public debate. Id. In addition, he testified
that sometimes advertisements that violate the public
debate provision “could be controversial ads” and that
an advertisement can involve politics and not violate
either provision. Id. at 578.
At trial, as the District Court noted, Benedetti
provided inconsistent testimony regarding his process
for determining whether proposed advertisements
violate the Advertising Standards. Id. at 578–80. He

15a
stated that he did not view certain advertisements for
commercial services as political or touching on matters
of public debate. Id. at 579. For example, he approved
an advertisement by Fusion that depicted people of
color, one of whom was wearing a shirt that read “My
Life Matters,” and displayed the phrase “As American
Ads.” Id. Benedetti testified that he did not view this
advertisement as “implicat[ing] any matters of public
debate on social issues.” Id. (alteration in original).
Yet he also admitted that sometimes a commercial
advertisement could pose a problem under the
Challenged Provisions. For example, he testified that
a hypothetical advertisement that said consumers can
purchase Pepsi cheaper in Norristown (which does not
have a soda tax) than in Philadelphia (which does have
a soda tax) “could still be a problem under substandard (a) or (b) . . . because the notion of the soda
tax and everything that surrounds it is being debated
in the public.” Id. Benedetti testified that he gives
commercial and non-commercial advertisements the
same treatment. That testimony is supported by the
fact that the 2015 Advertising Standards do not draw
such a distinction. The District Court nonetheless
found that Benedetti “apparently considers the
commercial nature of certain advertisements.” Id. at
579–80.
Benedetti also failed to provide clear testimony
about the definition of the phrase “political in nature,”
which appears in the political provision. He testified
that mentioning a law or regulation could be considered political in nature, but he also testified that an
advertisement could be political in nature without
“directly or indirectly implicating the action, inaction,
prospective action or policies of a government entity.”
Id. at 580.

16a
During trial, the District Court also considered
several additional advertisements that CIR submitted
as exhibits to illustrate SEPTA’s allegedly discriminatory application of its advertising restrictions. These
advertisements included examples of both accepted
and rejected applications. The District Court described
each of these exhibits in its decision. See id. at 581–83.
Rejected advertisements include the following: (1)
an advertisement stating “Dear Art Museum: Art is
Expensive! So is constructing new buildings! We
totally get why you can’t pay all your employees a
living wage!”; and (2) an advertisement from Bethany
Christian Services saying, “Unplanned Pregnancy?
Now what? Consider adoption as an option. You don’t
have to make your decision alone.” Id. at Benedetti
testified that these advertisements were rejected
because they involved the issue of a living wage and
abortion, respectively, both of which he considered to
be matters of public debate. Id. at 581 nn.3–4. Other
rejected advertisements included one from the U.S.
Department of Homeland Security, which announced,
“Sex trafficking, Forced labor, Domestic Servitude. It’s
happening in our community. Get informed.” Id. at
581. Benedetti could not explain why this advertisement was rejected, and SEPTA did not offer other
evidence to shed light on this action.
Accepted advertisements include the following: (1)
an advertisement from the Philadelphia Host Committee that stated “Welcome [Democratic National Committee]. We are Philadelphia’s: Union Middle Class
Jobs, office cleaners, community, neighbors, building
service workers, window washers, security officers,
families, school district workers. Road out of poverty”;
(2) an advertisement for an event at the African
American Museum that featured pictures of Martin

17a
Luther King, Jr., Cesar Chavez, and Lucretia Mott
and posed, among other things, the question: “What
will you do for Peace?”; and (3) a Facebook advertisement stating: “Fake news is not your friend,” “Data
misuse is not your friend,” “Clickbait is not your
friend,” “Fake accounts are not your friends.” Id. at
582–83.
Benedetti testified that the Philadelphia Host
Committee advertisement may not actually comply
with the 2015 Advertising Standards. Id. at 582 n.13.
He further testified that the Peace advertisement did
not violate the policy because it did not “tak[e] a
position or ask[] for action.” Id. at 583 n.14.
Other pertinent, accepted advertisements include
those from banks regarding home loans. Several of
these advertisements bear Equal Housing Lender
and/or Member FDIC logos. Id. at 584. Relatedly, CIR
identified an advertisement from the Housing Equality Center which stated, “Housing discrimination is
illegal. Housing Equality Center can help you understand your rights.” Id. Benedetti, however, could not
recall whether SEPTA accepted that advertisement.
After trial, the parties submitted proposed findings
of fact and conclusions of law, and the Court heard oral
argument.
E. District Court Decision
On November 28, 2018, the District Court issued
Findings of Fact and Conclusions of Law holding that
portions of the Challenged Provisions were incapable
of reasoned application. The District Court, however,
struck problematic portions from the 2015 Advertising
Standards and ordered SEPTA to revise the policy

18a
consistent with the District Court’s decision.2 The
District Court then found that with the overly broad
language removed, CIR’s viewpoint discrimination
challenges, both facial and as-applied, fail. The District Court’s decision can be grouped into four principal parts.
First, the District Court determined that the
relevant forum was the inside of SEPTA buses and
that SEPTA had sufficiently “closed the forum to
public speech and debate.” Id. at 602.
Second, having found that the relevant forum was
nonpublic, the District Court then evaluated whether
the Challenged Provisions of the 2015 Advertising
Standards were capable of reasoned application.
Applying the Supreme Court’s decision in Minnesota
Voters Alliance v. Mansky, 138 S. Ct. 1876 (2018), the
District Court found portions of both the political and
2

As revised by the District Court, the Challenged Provisions
read:
(a) Advertisements promoting or opposing a political
party, or promoting or opposing the election of any
candidate or group of candidates for federal, state,
judicial or local government offices are prohibited. In
addition, advertisements that are political in nature or
contain political messages, including advertisements
involving political or judicial figures and/or advertisements involving an issue that is political in nature in
that it directly or indirectly implicates the action,
inaction, prospective action or policies of a government
entity.
(b) Advertisements expressing or advocating an
opinion, position or viewpoint on matters of public
debate about economic, political, religious, historical or
social issues.
Id. 604–05.

19a
public debate provisions to be “too broad to pass
constitutional muster under Mansky.” Ctr. for Investigative Reporting, 337 F. Supp. 3d at 604. Instead of
invalidating the Challenged Provisions in their
entirety, however, the District Court excised portions
of them. In addition to amending the Challenged
Provisions, the Court directed SEPTA to adopt a meetand-confer program under which it would discuss with
advertisers proposed advertisements that SEPTA
deems violative of its standards. Id. at 605.
Third, the District Court applied the two-step test
articulated by this Circuit in NAACP v. City of
Philadelphia, 834 F.3d 435 (3d Cir. 2016) and held
that SEPTA’s Advertising Standards, “with the
stricken language removed, . . . are now facially valid,
reasonable, and constitutional.” Ctr. for Investigative
Reporting, 337 F. Supp. 3d at 612.
Fourth, the District Court found that the Challenged Provisions, as amended by the District Court,
were viewpoint neutral on their face and as applied to
CIR. Id. at 615–18.
II. JURISDICTION AND STANDARD OF REVIEW
The District Court had jurisdiction under 28 U.S.C.
§ 1331. This Court has appellate jurisdiction under 28
U.S.C. § 1291.
“We review a district court’s legal conclusions de
novo, and ordinarily review its factual findings for
clear error.” Pittsburgh League of Young Voters Educ.
Fund v. Port Authority of Allegheny Cnty., 653 F.3d
290, 295 (3d Cir. 2011). Because this case implicates
the First Amendment, however, we “make an independent examination of the whole record.” Bose Corp.
v. Consumers Union, 466 U.S. 485, 499 (1984). Nonetheless, we defer to the District Court to the extent its

20a
factual findings “concern witness credibility.” Fulton
v. City of Philadelphia, 922 F.3d 140, 152 (3d Cir.
2019); Bose, 466 U.S. at 499, 510–11.
III. DISCUSSION
CIR makes two arguments why the Challenged
Provisions of the Advertising Standards, as revised
by the District Court, are unconstitutional: (1) they
discriminate based on viewpoint as applied to CIR and
(2) they impose an impermissible restriction on speech
given the public nature of the forum.3 Although these
arguments implicate several First Amendment doctrines, we need only address whether the Challenged
Provisions are capable of reasoned application.
Because we hold that they are not, we will reverse and
remand the case back to the District Court for further
proceedings consistent with this decision.
A. Applicable Law
The First Amendment prohibits two forms of
content-based discrimination, subject matter discrimination and viewpoint discrimination, which is especially egregious. See Rosenberger v. Rector & Visitors
of Univ. of Va., 515 U.S. 819, 828–29 (1995) (“Discrimination against speech because of its message is presumed to be unconstitutional.”). Subject matter
restrictions may be permissible depending on the
nature of the forum to which the speaker seeks access.
Id. In those cases, “[t]he State may not exclude speech
where its [restriction] is not ‘reasonable in light of the
3

At oral argument, counsel for CIR conceded that on appeal
CIR was not making a facial viewpoint challenge to the Challenged Provisions, as it had below. Counsel for CIR also noted
that it is challenging how the District Court revised the Advertising Standards, not the fact that it revised them.

21a
purpose served by the forum.’” Id. (quoting Cornelius
v. NAACP Legal Def. & Educ. Fund, Inc., 473 U.S. 788,
804–06 (1985)). In contrast, viewpoint restrictions are
impermissible in any forum. Id.
CIR brings both a facial and as-applied challenge to
SEPTA’s current Advertising Standards. CIR’s facial
challenge is that the current Advertising Standards
constitute an impermissible subject matter restriction.
Its as-applied challenge is that the current Advertising Standards discriminate against CIR’s viewpoint.
Because we hold, for the reasons set out below, that
the current Advertising Standards are an impermissible subject matter restriction on speech, we need
not “pause to consider whether [the provision] might
admit some permissible applications.” Iancu v. Brunetti,
139 S. Ct. 2294, 2302 (2019).
In our recent decision Northeastern Pennsylvania
Freethought Society v. County of Lackawanna Transit
System, we explained that district courts must address
whether a particular restriction is a viewpoint or subject matter restriction before conducting the forum
analysis. 938 F.3d 424, 431–32 (3d Cir. 2019). That is
“because the type of forum sheds no light on whether
a policy or decision discriminates against a certain
viewpoint. And viewpoint discrimination is impermissible in any forum.” Id. (citations omitted).
Freethought, however, differs from this case in one
important respect. The Supreme Court’s recent case
Mansky, which held that content-based restrictions
on speech in nonpublic fora are unconstitutional if
they are incapable of reasoned application, squarely
resolves the issues in this case. 138 S. Ct. at 1892.
Mansky sets a baseline requirement that all
forms of content-based restrictions must be capable of

22a
reasoned application. In other words, even if the
content-based restriction is one that merely restricts
certain subjects, as opposed to certain viewpoints, it
must at the very least be capable of reasoned application. Freethought did not foreclose the possibility
that we might find a government restriction on
speech, at the threshold, to be incapable of reasoned
application and therefore impermissible in any forum.
Indeed, such a finding would avoid wading into First
Amendment issues that need not be resolved to
dispose of a case. Accordingly, we are not required to
decide in the first instance whether the policy here is
based on viewpoint or subject matter, just as we are
not required initially to decide whether the forum at
issue is public or nonpublic. At a minimum, SEPTA’s
restrictions on speech must be capable of reasoned
application.4 See NAACP, 834 F.3d at 449 (“No matter
4

In the context of other content-based restrictions on speech,
such as gag orders, at least one other circuit has opined that the
condition that restraints on speech be capable of reasoned
application is a core one and is capable of being resolved before
determining whether a restriction is based on viewpoint or
subject matter. See In re Murphy-Brown, LLC, 907 F.3d 788, 800
(4th Cir. 2018) (holding that a gag order, which petitioner argued
discriminated based on viewpoint, was unconstitutionally vague,
and therefore incapable of reasoned application, because “it
forced individuals to ‘guess at its contours’”). In In re MurphyBrown, the Fourth Circuit helpfully explained:
[t]his core requirement of clarity avoids twin problems.
For one, “[t]he interpretive process itself would create
an inevitable, pervasive, and serious risk of chilling
protected speech pending the drawing of fine distinctions that, in the end, would themselves be questionable.” Vague restraints also pose the risk of discriminatory or arbitrary enforcement.
Id. (citing Citizens United v. FEC, 558 U.S. at 327 & Gentile v.
State Bar of Nevada, 501 U.S. 1030, 1051 (1991)).

23a
the type of forum, restrictions on speech on government property must be reasonable.”). For the following
reasons, we find that they are not, and we conclude our
First Amendment inquiry there.
B. Analysis
The question at the heart of this appeal therefore
is whether the current Advertising Standards, either
in their original form or as revised by the District
Court, are capable of reasoned application. Assuming
without deciding that the restrictions at issue are
content-based and that the relevant forum is nonpublic, the current Advertising Standards only need to be
“reasonable.” Eichenlaub v. Twp. of Ind., 385 F.3d 274,
279 (3d Cir. 2004). In this context, “reasonable” means
that they must be “designed to confine the ‘forum to
the limited and legitimate purposes for which it was
created.’” Id. (quoting Rosenberger, 515 U.S. at 829).
The government actor bears the burden of “tying the
limitation on speech to the forum’s purpose.” NAACP,
834 F.3d at 445.
SEPTA sells advertisements to “raise revenue . . . in
a manner that provides for the safety, efficiency[,] and
comfort of [its] passengers.” App. 1083. Accordingly,
we will discuss whether the current Advertising
Standards are capable of reasoned application given
these goals. Before discussing SEPTA’s arguments
detailing why the current Advertising Standards
satisfy this requirement, a discussion of Mansky,
which we find controlling here, is necessary.
Mansky involved a challenge to a Minnesota law
that prohibited individuals from making certain
statements inside or near a polling location. The
specific provision at issue prohibited individuals from
wearing a “political badge, political button, or other

24a
political insignia . . . at or about the polling place.”
Mansky, 138 S. Ct. at 1883. There, the Court held
first that a polling place in Minnesota qualifies as a
nonpublic forum. Id. at 1886. Because the provision
did not “discriminate[] on the basis of viewpoint on its
face,” the question before the Court was whether the
political apparel ban was “reasonable in light of the
purpose served by the forum.” Id. (citation omitted).
The Court found that the interest of protecting voters
at the polling location from messages that would
distract them from “the important decisions immediately at hand” was sufficient to permit Minnesota to
“choose to prohibit certain apparel . . . because of
the message it conveys.” Id. at 1888. The Court held,
however, that the term “political,” which was not
defined in the statute and which had been interpreted
in various ways in the State’s official guidance
documents, was not “capable of reasoned application.”
Id. at 1892.
In deciding that the term “political” as used in the
Minnesota statute was unconstitutional, the Mansky
Court considered several factors that are relevant
here: whether the terms are “indeterminate,” such as
by being left undefined in the statute or government
policy at issue, and whether they have been or are
susceptible to “erratic application.” Mansky, 138 S. Ct.
at 1889, 1890. According to Mansky, a prohibition on
speech is unreasonable if it fails to “articulate some
sensible basis for distinguishing what may come in
from what must stay out.” Id. at 1888.
CIR contends that the District Court, in attempting
to cure the constitutional deficiencies in the 2015
Advertising Standards, erred in finding that the
revised policy was capable of reasoned application.
That is so, CIR argues, because the current Advertis-

25a
ing Standards continue to prohibit advertisements
that “contain political messages” and those that address
“political . . . issues.” Appellant Br. 49. According to
CIR, both phrases pose the same First Amendment
problems as the portions of the 2015 Advertising
Standards that the District Court had already found
unconstitutional under Mansky.
SEPTA disagrees and argues that the restrictions at
issue here differ from those in Mansky. Because of
those differences, SEPTA contends, we should hold
that the current Advertising Standards are capable of
reasoned application and uphold the decision of the
District Court. As a threshold matter, SEPTA questions CIR’s broad reading of Manksy because of the
Supreme Court’s earlier plurality decision in Lehman
v. City of Shaker Heights, 418 U.S. 298 (1974), in
which the Court upheld a prohibition on political
advertisements on city buses. SEPTA argues that the
continued vitality of Lehman, which the Supreme
Court cites favorably in Mansky, see 138 S. Ct. at
1885–86, means that not all bans on political advertisements are unconstitutional.
SEPTA attempts to distinguish the current Advertising Standards from the political apparel ban in
Manksy in three ways. First, Mansky presented,
according to the Supreme Court, “a particularly difficult reconciliation: the accommodation of the right to
engage in political discourse with the right to vote.” Id.
at 1892 (quoting Burson v. Freeman, 504 U.S. 191, 198
(1992)). Second, SEPTA argues that the ban in Mansky
was especially problematic because Minnesota had
“issued contradictory implementing guidelines.”
Appellee Br. 48. Here, in contrast, SEPTA represents
that it has not issued any such guidelines. Third, the
Minnesota law empowered temporary government

26a
employees (i.e., county election judges) to make quick
decisions about what may or may not be a political
issue. Here, again, SEPTA contends that its practices
are far more robust: SEPTA does not impose a
pressing deadline, and it requires its General Counsel,
and sometimes other lawyers, to determine whether
an advertisement falls within a prohibition.
SEPTA’s arguments, while forceful, are ultimately
unpersuasive. Although the Supreme Court explicitly
stated that its holding in Mansky did not “set the
outer limit of what a State may proscribe,” 138 S. Ct.
at 1891, it did not limit its holding to polling locations.
More to the point, SEPTA does not challenge the
District Court’s holding that portions of the Challenged Provisions were overbroad, but it fails to offer
any reason why the lingering references to advertisements that “contain political messages” and those that
address “political issues” are any more capable of
reasoned application than those that were struck
down. This is an especially important question given
that the District Court broadened the public debate
provision by eliminating the limiting phrase “matters
of public debate about.”
In addition, when asked during oral argument
whether SEPTA would determine a series of hypothetical advertisements to be in violation of the
current Advertising Standards, SEPTA’s counsel’s
answers further highlighted the arbitrariness of the
decision-making process. For example, when we asked
whether an advertisement that depicted three girls of
different races holding hands with a message that
says, “This is how racism ends,” would be political,
counsel for SEPTA responded “no, I don’t think so.”
Oral Argument at 23:33–24:04, Ctr. for Investigative
Reporting v. SEPTA (No. 19-1170), https://www2.

27a
ca3.uscourts.gov/oralargument/audio/19-1170Center
forInvestigativeReportingvSEPTA.mp3. When the
Court adjusted the hypothetical to include the same
picture with a message that says, “This is what
America looks like,” counsel for SEPTA responded by
asking, “Who’s putting the ad on?” Id. at 24:13–24:21.
That response highlights the extent to which the
current Advertising Standards are susceptible to
erratic application.
As the Mansky Court explained, while the First
Amendment does not require “[p]erfect clarity and
precise guidance,” when the “restriction[s] go beyond
close calls on borderline or fanciful cases . . . [,] that is
a serious matter when the whole point of the exercise
is to prohibit the expression of political views.” Id. at
1891 (citation omitted). A policy as ill-defined as
SEPTA’s carries “[t]he opportunity for abuse, especially where [it] has received a virtually open-ended
interpretation.” Bd. of Airport Comm’rs of L.A. v. Jews
for Jesus, Inc., 482 U.S. 569, 576 (1987) (citation
omitted) (first alteration in original) (second alteration
added).
Moreover, far from helping SEPTA’s case, the
absence of guidelines cabining SEPTA’s General
Counsel’s discretion in determining what constitutes a
political advertisement actually suggests that, like the
Minnesota statute in Mansky, the lack of “objective,
workable standards” may allow SEPTA’s General
Counsel’s “own politics [to] shape his views on what
counts as ‘political.’” Mansky, 138 S. Ct. at 1891. That
was precisely the problem at the heart of Mansky and
nothing in the District Court’s revision of the 2015
Advertising Standards helps to ameliorate that
concern here. In fact, in its post-trial brief, SEPTA
conceded that it should have rejected a union

28a
advertisement supporting the DNC. SEPTA also
accepted an advertisement that included a Black
youth wearing a t-shirt that says “My Life Matters.”
Although such a statement arguably should not be
“political,” the phrasing “My Life Matters” clearly
alludes to the Black Lives Matter movement, which
campaigns against violence aimed at Black people
and which has become a lightning rod in the media. To
many, such an advertisement would clearly be prohibited under the Advertising Standards, even as revised
by the District Court. Yet Benedetti determined that
it was not.
To be sure, one or two inconsistencies hardly proves
that SEPTA has arbitrarily applied its Advertising
Standards, but the lack of structure and clear policies
governing the decision-making process creates a real
risk that it may be arbitrarily applied. And CIR has
amply demonstrated that at least on a few occasions
that risk has become a reality. Accordingly, we reverse
the District Court’s holding that the current Advertising Standards are capable of reasoned application.
C. Remedy
Having decided that the Challenged Provisions are
unconstitutional, we must now determine the appropriate remedy. CIR contends that the District Court
should have entered final judgment completely in its
favor and directed SEPTA to run its advertisement.
For the following reasons, we find that the District
Court erred in failing to order SEPTA to run CIR’s
proposed advertisements. We will therefore reverse

29a
the District Court’s judgment and remand the case for
entry of judgment in favor of CIR.5
Because CIR prevails on the merits, it must also
show that “it is entitled to a permanent injunction as
a matter of discretion.” Ne. Pa. Freethought Soc’y, 938
F.3d at 442 (citing Monsanto Co. v. Geertson Seed
Farms, 561 U.S. 139, 157 (2010); eBay Inc. v.
MercExchange, LLC, 547 U.S. 388, 391 (2006)). To do
so, CIR “must show that (1) it has suffered irreparable
injury; (2) there is no adequate remedy at law; (3) the
balance of hardships tips in its favor; and (4) granting
an injunction would not be against the public interest.”
Id. (citation omitted).
Here, each of these elements is satisfied. First, CIR’s
advertisement has already been rejected once under
the 2015 Advertising Standards. As discussed above,
the current Advertising Standards reflect only the
modest revisions imposed by the District Court, which
fail to cure their constitutional deficiencies. Second,
and relatedly, no remedy at law can cure CIR’s First
Amendment injury because “[t]he loss of First Amendment freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.” Elrod
v. Burns, 427 U.S. 347, 373 (1976). The only way for
CIR to get complete relief is for the District Court to
order SEPTA to run the advertisement. Third, the
only hardship to SEPTA is the burden of redrafting
the political and public debate provisions of its
current Advertising Standards, if it chooses to do so.
In contrast, the hardship to CIR is considerable in
that the current Advertising Standards impermissibly
5

SEPTA, of course, is free to revise its Advertising Standards
again to cabin the decisionmaker’s discretion in applying the ban
on “political” advertisements.

30a
deprive it of its, and other potential speakers’, constitutional rights to engage in free speech. Fourth, and
finally, the public interest does not suffer by enforcing
the First Amendment’s protection against restrictions
on speech that are incapable of reasoned application.
*****
The Challenged Provisions of the current Advertising Standards are incapable of reasoned application.
Accordingly, we will reverse the judgment of the
District Court and instruct it to grant declaratory
relief and issue an injunction barring enforcement of
the Challenged Provisions of the current Advertising
Standards against CIR.

31a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 19-1170
————
THE CENTER FOR INVESTIGATIVE REPORTING,
Appellant
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-18-cv-01839)
District Judge: Hon. Michael M. Baylson
————
Argued October 23, 2019
————
Before: GREENAWAY, JR., PORTER, and GREENBERG,
Circuit Judges.
————
JUDGMENT
————
This cause came to be considered from the United
States District Court for the Eastern District of
Pennsylvania and was argued on October 23, 2019.
On consideration whereof, it is now hereby ORDERED
and ADJUDGED by this Court that the judgment of

32a
the District Court entered on December 20, 2018 is
VACATED and REMANDED. Costs shall be taxed
against the appellee. All of the above in accordance
with the Opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: September 14, 2020

33a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CIVIL ACTION NO. 18-1839
————
THE CENTER FOR INVESTIGATIVE REPORTING
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
MEMORANDUM OPINION
Baylson, J.

November 28, 2018

34a
TABLE OF CONTENTS
I.

INTRODUCTION .....................................

1

II.

FACTUAL BACKGROUND .....................

1

A. Initial Proposed CIR Advertisement ..

1

B. SEPTA’s Rejection of the Proposed
Ad .........................................................

4

C. Revised Advertisement and Second
Rejection ..............................................

5

III.

PROCEDURAL BACKGROUND .............

5

IV.

EVIDENCE ...............................................

7

A. Preliminary Injunction Evidence ........

7

B. Benedetti’s Trial Testimony ................

7

1. Impact of AFDI Litigation .............

8

2. SEPTA’s Application of Standards, Including the Challenged
Provisions .......................................

9

3. Interpretation of the Challenged
Provisions .......................................

12

4. Digital Displays/News Feeds .........

13

5. Asserted
Inconsistencies
in
Benedetti’s Testimony and Other
Evidence .........................................

14

C. Other Exhibits and Depositions..........

17

D. Examples of Ads Accepted and
Rejected by SEPTA ..............................

18

E. Advertisements by Banks ...................

22

PARTIES’ CONTENTIONS .....................

23

A. CIR’s Contentions ................................

23

V.

VI.

VII.

35a
1. Standards are Not Capable of
Reasoned Application.....................

24

2. The Challenged Provisions are Not
Viewpoint Neutral on their Face or
As Applied ......................................

25

3. Standards are Not “Reasonable” in
Light of the Purpose of the Forum

25

4. SEPTA’s Advertising Space is a
Designated Public Forum, and the
2015 Advertising Standards Do
Not Satisfy Strict Scrutiny ............

26

B. SEPTA’s Contentions ..........................

27

1. The Advertising Space on Buses is
a Non-Public Forum .......................

27

2. The Advertising Standards are
Reasonable......................................

27

3. The Advertising Standards are
Viewpoint Neutral ..........................

30

FINDINGS OF FACT ...............................

32

A. General ................................................

32

B. SEPTA’S Response to AFDI Ad ..........

34

C. SEPTA’s Process for Reviewing
Proposed Advertising ..........................

36

D. Bank Advertisements ..........................

43

E. SEPTA’s Denial of CIR’s Proposed
Advertisement .....................................

45

DISCUSSION OF LAW ............................

49

A. Forum Analysis ...................................

49

36a
1. Defining the Forum and Type of
Forum .............................................

49

2. The Advertising Space on SEPTA
Buses is a Non-Public Forum ........

54

B. The Standards and Burden Applicable in a Non-Public Forum ..................

57

C. CIR’s Facial Attack on Whether the
Challenged Provisions Are Capable of
Reasoned Application Under Mansky

58

1. Language That Must be Stricken
as
Incapable
of
Reasoned
Application .....................................

59

2. Meet and Confer Requirement ......

61

D. CIR’s Facial Attack on the Restrictions
(as to be Amended) ..............................

62

1. NAACP v. City of Philadelphia .....

62

2. Transit Authorities Advertisements as a Subset of First Amendment Jurisprudence .......................

65

3. The Special Circumstances of a
“Captive Audience” on Transit
Vehicles...........................................

66

4. SEPTA as a Government Actor .....

67

5. Decisions on Transit Authorities’
Speech Regulations in the Third
Circuit .............................................

69

6. Decisions on Transit Authorities’
Speech Regulations Outside of the
Third Circuit .................................

71

37a
7. SEPTA’s Restrictions (as to be
Amended) Are Reasonable in Light
of the Purpose of the Forum ..........

72

E. Content-Based, Viewpoint Neutral
Restrictions of Advertisements in
Transit Vehicles Do Not Offend the
First Amendment ................................

75

1. SEPTA’s Restrictions (as to be
Amended) Are Viewpoint Neutral
on Their Face .................................

78

2. SEPTA’s Restrictions are Viewpoint Neutral as Applied ...............

80

a. SEPTA’ s Acceptance of PublicService Advertisements ........ 81
b. SEPTA’s Acceptance of Bank
Advertisements is Not Accepting Viewpoint Advertisements
and SEPTA’s Rejection of
CIR’s Advertisements was
Reasonable ................................

84

VIII. CONCLUSION..........................................

88

38a
I. INTRODUCTION
Southeastern Pennsylvania Transit Authority
(“SEPTA”) has been operating the mass transit system
in Philadelphia since 1964. It operates bus, subway,
commuter rail, light rail, and trolley service to
Philadelphia and Delaware, Montgomery, Bucks
and Chester counties, with some train service to
Wilmington, Delaware and Trenton, New Jersey.
This case concerns the advertising space on the
inside of SEPTA buses. SEPTA’ s bus network serves
the many neighborhoods of Philadelphia and suburbs.
Many residents of Philadelphia, particularly those for
whom private vehicles, taxis or other forms of
transportation are inaccessible or too expensive, rely
on SEPTA buses, trolleys, and subways for daily
transportation. The viability of this public transit
system is thus of critical importance in a city of over
1.5 million, where more than 25% of residents live
below the poverty rate. QuickFacts: Philadelphia City,
Pennsylvania, U.S . CENSUS BUREAU https://www.cen
sus.gov/quickfacts/philadelphiacitypennsylvania (July
1, 2017)
II. FACTUAL BACKGROUND
A. Initial Proposed CIR Advertisement
Plaintiff, The Center for Investigative Reporting
(“CIR”) is a nonprofit investigative journalism organization based in Emeryville, California. (10/01/18 Trial
Ex. 11.) Its mission notes that “Advances in social
justice, solutions to pressing problems, and greater
accountability in both the public and private sectors
all rely on the availability of credible information.
Verifiable, nonpartisan facts empower the public
to effect positive change, advancing improved outcomes for a broad range of critical issues.” (Id.) CIR’s

39a
reporting is published on its news website Reveal
(www.revealnews.org), as well as on its national radio
show, podcast, video, and live events. (ECF 1, “Compl.”
¶ 11.)
On February 15, 2018, CIR published the results of
a year-long investigation into disparate lending trends
throughout the country. (Trail Ex, 4.) The results of
this investigation showed that in 61 metropolitan
areas, applicants of color were more likely to be denied
conventional home purchase mortgages. (Id.) CIR used
the information from this investigation to create a 10panel comic strip entitled “A Stacked Deck.” (Trial EX.
7.)
In January 2018, a designer from CIR emailed Jon
Roche, Vice President at Intersection, the company
that manages advertising space for SEPTA, seeking to
display the comic on the interior of SEPTA buses.
(Trial Ex. 10, Jan. 17, 2018 Email from G. Hongsdusit
to J. Roche.) The Comic was derived from the following
advertisement from Reveal’s website:

40a

41a

(Compl. ¶ 16.)
B. SEPTA’s Rejection of the Proposed Ad
SEPTA rejected CIR’s proposed advertisement,
noting that “[t]he proposed ad is an issue ad and
cannot be accepted. Disparate lending is a matter of
public debate and litigation.” Ex. 10, Feb. 22, 2018

42a
Email from J. Roche to H. Young.) Included in the
email exchange with CIR was a copy of the SEPTA’s
2015 Advertising Standards. (Id.)
Following SEPTA’s rejection of the ad, Victoria
Baranetsky, Esq., General Counsel for CIR, exchanged
letters with SEPTA’s General Counsel, Gino Benedetti
Esq., regarding the stated reason for the rejection. (See
Trial Exs. 16-19.) Benedetti explained that SEPTA
adopted the 2015 Advertising Standards after previous litigation involving SEPTA’s advertising policies.
See Am. Freedom Defense Initiative v. SEPTA, 92 F.
Supp. 3d 314 (E.D. Pa. 2015) (hereinafter “AFDI”)
(Goldberg, J.). Benedetti stated that SEPTA rejected
CIR’s proposed advertisement “under Standards
9(b)(iv)(a) and (b)” of the 2015 Advertising Standards.
(Trial Ex. 17.) These standards read:
Prohibited Advertising Content. Advertising is prohibited on transit facilities,
products and vehicles if it or its content
falls into one or more of the following
categories —
(a) Advertisements promoting or opposing a
political party, or promoting or opposing
the election of any candidate or group of
candidates for federal, state, judicial or
local government offices are prohibited. In
addition, advertisements that are political
in nature or contain political messages,
including advertisements involving political or judicial figures and/or advertisements involving an issue that is political
in nature in that it directly or indirectly
implicates the action, inaction, prospective action or policies of a government
entity.

43a
(b) Advertisements expressing or advocating
an opinion, position or viewpoint on matters of public debate about economic,
political, religious, historical or social
issues.
(Trial Ex. 22, at ¶¶ II(A)(9)(b)(i)–(ii).)
The second sentence of subparagraph (a) and subparagraph (b) are collectively referred to as the “Challenged Provisions.”1 The 2015 Advertising Standards
also include language stating that SEPTA has
the “express intention . . . that property allocated
for advertising be a non-public forum.” (Id. at ¶
II(A)(9)(b)(ii).)
C. Revised
Advertisement
Rejection

and

Second

Benedetti presented testimony as to his objection to
two panels which he stated were of “particular concern,”—one showing “a white hand handing keys and
stick of dynamite to a black hand,” and one that displayed “African-Americans holding signs protesting . . .
and a white guy not part of the protest.” (Trial Ex. 111,
Benedetti Dep. at 156:9-158:3.) CIR proposed a revised
advertisement which removed these panels, but
SEPTA again rejected that advertisement as being
“barred by the same advertising standards as the
first.” (ECF 32, SEPTA Opp’n to CIR Mot. for Inj. Ex.
A, at 1.)
III. PROCEDURAL BACKGROUND
CIR’s May 1, 2018 complaint asserts a single cause
of action for a violation of the First and Fourteenth
Amendments. (Compl. at 12.) The Complaint sought
1

CIR has no objection to the first sentence of Subsection (a).

44a
declaratory and injunctive relief, as well as costs and
attorneys’ fees, and any other relief that the Court
deems proper. SEPTA answered the Complaint on
June 5, 2018. (ECF 10, Answer.)
On August 17, 2018, CIR moved for a preliminary
injunction seeking to enjoin SEPTA from administering its 2015 Advertising Standards. (ECF 20, “Mot. for
Prelim. Inj.”) SEPTA opposed that motion on August
31, 2018 (ECF 21, SEPTA Opp’n; ECF 23, “SEPTA
Am. Opp’n”), and CIR replied in support on September
10, 2018 (ECF 24, “SEPTA Rep.”). This Court held a
hearing on the motion on September 14, 2018, and
ordered the parties to file supplemental briefing, with
which they complied on September 21, 2018. (ECF 26,
27, 31, 32.) Also on September 14, 2018, while continuing to take the motion for preliminary injunction
under advisement, the Court scheduled a final
hearing/trial on the merits of CIR’s case for October 1,
2018. (ECF 26.) Then, on September 25, 2018, upon
consideration of the hearing transcript and all briefing, this Court denied the motion for preliminary
injunction without prejudice. (ECF 33, “Sept. 25, 2018
Prelim. Inj. Op.”;2 ECF 34, “Sept. 25, 2018 Prelim. Inj.
Order.”)
A bench trial took place as scheduled on October 1,
2018 (ECF 39). The trial involved the testimony of just
one witness—Mr. Gino Benedetti, General Counsel for
SEPTA. By stipulation, SEPTA first questioned
Benedetti on direct, followed by cross-examination
from counsel for CIR. The parties also submitted
2

The Court’s September 25, 2018 Opinion denying CIR’s
Motion for Preliminary Injunction is also available at CIR v.
SEPTA, No. 18-1839, 2018 WL 4627619 (E.D. Pa. Sept. 25, 2018)
(Baylson, J.).

45a
stipulations regarding evidence and certain factual
matters. (ECF 37). The Court then called for post-trial
briefing and sent a letter to all counsel on October 3,
2018, with specific questions for the parties to address.
CIR’s brief, which included proposed findings of fact
and conclusions of law and answers to the Court’s
specific questions, was submitted on October 8, 2018.
(ECF 44, “CIR Post-Trial Br.”) SEPTA responded in
opposition with its own proposed findings of fact and
conclusions of law, as well as its own responses to the
Court’s specific questions on October 15, 2018. (ECF
47, “SEPTA Post-Trial Br.”; ECF 48, Notice of Errata.)
CIR replied on October 22, 2018 (ECF 49), and SEPTA
filed a Sur-Reply on October 29, 2018 (ECF 50).
The Court held post-trial oral argument on
November 1, 2018.
IV. EVIDENCE
A. Preliminary Injunction Evidence
CIR presented evidence in support of its motion for
preliminary injunction, including deposition testimony from Benedetti and Baranetsky. These transcripts were summarized in this Court’s September
25, 2018 Memorandum Opinion denying that motion,
which we incorporate by reference. (See Sept. 25, 2018
Prelim. Inj. Op.)
B. Benedetti’s Trial Testimony
Benedetti testified that he has responsibilities
including “working with counsel and my client in
adopting the amendment to the standards” and “making the final decision about whether or not a proposed
ad satisfies our standards.” (10/01/18 Trial Tr., at 42:2;
43:4-9) (hereinafter “Trial Tr.”) Benedetti testified

46a
that his job responsibilities are not “related to revenue
maximization.” (Id. at 43:10-12.)
Benedetti testified that SEPTA has contracted with
Intersection (formerly Titan) to solicit advertising for
SEPTA vehicles both through the SEPTA website and
the work of local and national salespeople. (Id. at 44:616.) Benedetti stated that Intersection sells advertisements for all of SEPTA rails, buses, and trolleys,
and that the same advertising standards apply to
advertising space on each vehicle. (Id. at 46:16-51:20;
65:19-67:6.) Benedetti confirmed that in total, SEPTA
advertises on the interior and exterior of over 2,500
vehicles and 200-plus stations and facilities. (Id. at
67:7-9.) SEPTA has a $1.2 billion operating budget,
and advertising revenue is “a very small piece of our
revenue.” (Id. 52:2-7.)
Benedetti testified about what he thought was the
purpose of the advertising space. When asked about
the advertisement revenue, Benedetti testified that
“we certainly consider this to be a source of revenue,
not at the expense of happy customers and safe customers.” (Id. at 40:6-8.) According to Benedetti, an
advertiser could “specify where he or she would like
the ads” but that “[m]echanically, I don’t know how
that actually happens.” (Id. at 49:20-22.) On cross
examination, Benedetti stated that the advertisements “are really designed to fit—we want them to fit
within the standards and it’s our belief that that will
keep our riders safe, happy and not detract from our
core mission of moving them around safely.” (Id. at
68:24-69:3.)
1. Impact of AFDI Litigation
Benedetti testified that SEPTA amended its standards after it was sued by AFDI in 2014, and that the

47a
SEPTA board approved the standards in October 2014
and revised them again after the AFDI decision with a
unanimous vote in 2015. (Id. at 45:10-15; 26:2-6.)
These amendments, he said, were made in response
to the “public outcry” from the AFDI advertisement
that “had reporters swarming SEPTA, it had our
employees concerned. We had our customers concerned. So really wanted to avoid that kind of situation
where we had—you know, to run that kind of ad on
our system.” (Id. at 46:24-47:9.) Benedetti additionally
testified that there was vandalism on buses that ran
the AFDI ad, and that SEPTA had “bus operators who
were unwilling to operate the busses on which the ads
were placed and so we honored their objections and
then had to put someone else on those routes.” (Id. at
47:18-48:11.)
In revising the advertisements, Benedetti engaged
the help of counsel and “reviewed the cases, reviewed
memorandum from [counsel], reviewed standards that
other authorities . . . had used, discussed them with
the board, discussed them with the senior executive of
SEPTA and came up with what now is embodied in”
the 2015 Amendments to the standards. (Id. at 46:916.) Benedetti stated that SEPTA wanted to “make
sure that the experience of the customer and the
experience of the employee, our core mission—you
know, safe efficient travel for the public, was maintained and protected.” (Id. at 47:14-17.)
2. SEPTA’S Application of Standards,
Including the Challenged Provisions
When asked about whether SEPTA considered
including the word “commercial” in its advertising
standards, Benedetti stated at trial, “I really don’t
have a recollection of having that specific conversation
with the client,” but also noted that he was “certain

48a
that I debated that with our counsel.” (Id. at 101:2425, 103:1-2.) He testified that he did not think that
they considered using the term “public service” in the
revised standards. (Id. at 103:18-21.)
Benedetti stated that SEPTA has multiple “different lines of defense” when reviewing proposed advertisements for compliance with the 2015 Advertising
Standards. (Id. at 52:17-18.)
Benedetti explained that the first “line of defense”
is through Intersection alerting him to a potentially
violative advertisement. Benedetti had “discussions
with Intersection about what we think are things that
would violate the standard so that they would have
enough information to inform me of an ad that, you
know, could violate the standards.” (Id. at 52:18-21;
54:3-7.)
Benedetti stated that the second “line of defense”
involves the following:
SEPTA advertising personnel—actual SEPTA
employees, Mr. Jim Dellipriscoli being the
primary one—who sees all the ads that before
they go on the bus, after they go on the bus,
and I’ve had conversations with him about
what are the kind of things he needs to look
out for to be able to bring to my attention so I
can make a judgement about them.
(Id. at 52:22-53:3.)
Once Benedetti has been alerted about a proposed
advertisement that potentially violates the 2015
Advertising Standards, Benedetti testified that he
follows the following process.
Well, the first thing I do is I look at the ad and
I would—depending on the nature of the ad, I

49a
may get counsel involved. I also more
recently—very recently actually would confide with one of my colleagues, Billy Smith,
who’s one of the lawyers that works in my
office. We look at the ad, we bring out the
standards—Exhibit 22, and we take a look at
it against those standards.
And then we may, depending on where that
takes us, do an . . . internet search . . . to
understand more about the subject matter of
the ad and whether or not it violates either
(a)—standard (a) or standard (b), the political
standard or the public speech or public debate
standard.
(Id. at 55:5-17.)
If Benedetti is on vacation when an issue comes up
with an advertisement, he is contacted. (Id. at 99:1025.) Benedetti also testified that he may look back at
previous decisions about similar advertisements. (Id.
at 55:22-24.) Benedetti stated that he uses common
sense, and that his common-sense determination is
based upon his life experiences, legal training, and
“discussions with other people about their opinions.”
(Id. at 90:11-21.) He said that he does not consider “the
identity of the proposed advertiser, except to the
extent that I would visit the advertiser’s website.” (Id.
at 114:18-20.)
When asked about prior application of the 2015
Advertising Standards, Benedetti stated that he had a
“shift of some sorts on the public service ads because
of some confusion I had about Judge Goldberg’s ruling”
on the issue of whether public service ads were
considered political speech. (Id. at 70:12-14, 21-23.) He
stated that now he does not “consider them to be

50a
automatically political speech. I just judge them
against the standard like other ads.” (Id. at 71:2-4.)
When asked how many proposed advertisements
SEPTA has rejected since the 2015 Advertising
Standards took effect, Benedetti stated it had rejected
“not many.” (Id. at 55:25-56:2.) Benedetti stated that
he has sought advice from counsel regarding a potential advertisement “maybe a half a dozen times” in a
year. (Id. at 100:15-17.) He does not routinely offer the
opportunity for a rejected advertiser to revise a
rejected advertisement, but that it has happened “a
couple of times.” (Id. at 103:25-105:8.)
Benedetti testified that the process he went through
when reviewing the CIR ad under the Advertising
Standards was that he first “tried to understand the
ad,” then he “went to CIR’s website and I learned
more about what the ad was about, what CIR was
about, and what it was trying to accomplish with the
ad,” and then he did “a more general search beyond
CIR’s website.” (Id. at 118:22-119:6.) While doing this
“more general search,” Benedetti stated that he found
an article from the American Bankers Association
(“ABA”), an editorial in the New York Times, lawsuits
and settlements about discriminatory lending. (Id. at
119:7-12.) He stated that he found the ABA article
“important . . . because it criticized the research upon
which the ad CIR proposed was based,” and determined that there was a “real live debate” between CIR
and the ABA about discriminatory lending. (Id. at
119:13-19.)
3. Interpretation
Provisions

of

the

Challenged

With regard to Subsection (a) of the 2015 Advertising Standards, Benedetti testified that the words

51a
“political” and “political in nature” are “essentially the
same to me.” (Id. at 57:5-8.) Benedetti explained that
the phrase “an issue is political in nature in that it
directly or indirectly implicates the action, inaction,
prospective action or policies of the government entity”
is not separate from the phrase “political in nature,”
but “further defines or connects with what’s political
in nature.” (Id. at 57:11-18.) On cross examination, he
stated that these two phrases have different meanings, and that it is possible for an ad to “violate this
provision without implicating directly or indirectly the
action, inaction, prospective action or policies of a
government entity.” (Id. at 87:15-88:3.) When asked if
the word “‘implicate’ means advocates for or calls for,”
he answered that “it could mean either.” (Id. at 88:1315.)
Regarding Subsection (b), Benedetti testified that a
determination of whether something is within the
prohibition on “matters of public debate” is “kind of a
mechanical type of analysis that we do. We look to see
what is being argued, debated in society in general.”
(Id. at 57:19-22.) Benedetti stated that this evaluation
involves “the entire ad and then we also look at
holistically about what is the subject matter of that ad
being debated in society at large.” (Id. at 58:1-4.)
Benedetti stated that finding information online about
a debate is “not necessarily” enough to make it a public
debate. (Id. at 92:22-24.) When asked about the
difference between issues of public and private debate,
he stated that he uses “common sense and [I] have the
discussion and have the conversations.” (Id. at 92:2021.) Benedetti did clarify that a “dispute about which
football team you prefer is not a matter of public
debate.” (Id. at 92:13-17.)

52a
Benedetti testified that “sometimes” ads that violate
Subsection (b) “could be controversial ads.” (Id. at
58:13-15.) He also stated that an ad can involve politics but not violate the Challenged Provisions, such as
with the “Welcome, DNC” ads. (Id. at 60:13-17; Trial
Ex. 31.)
4. Digital Displays/News Feeds
There was extensive testimony that certain SEPTA
vehicles now have the ability to display “digital”
material, either advertisements or “news feeds,” which
was sometimes referred to as “infotainment” digital
displays on SEPTA vehicles. The news feeds were
displayed on the digital displays through an agreement between Intersection and Screenfeed, a company
that curates information from Reuters and the
Associated Press. (Benedetti Dep. at 30:15-31:5.)
The “infotainment” digital displays on SEPTA vehicles, Benedetti testified that he knew the spaces were
to display advertisements and route information, but
that his office was “not involved in . . . reviewing or
being informed about the news feeds being pushed
through the—digital displays.” (Trial Tr. at 62:5-16.)
He stated that the news feeds were brought to his
attention through this case, and that “I was initially of
the understanding that the news feeds were there
because they added value to the ads and I thought
dollars and cents value so that an ad on a digital
display would cost more . . . than an ad on a panel on
a bus. . . . I learned that that’s not true.” (Id. at 63:1219.) He concluded that SEPTA has “eliminated all the
feeds at this point” when he “learned that there really
wasn’t any value being added in terms of the cost of
the—the ads themselves.” (Id. at 64:5, 12-20.) On cross
examination, Benedetti admitted that the content in a
news feeds “could be” “compatible with the forum

53a
being closed to political speech and speech on matters
of public debate.” (Id. at 80:20-23.)
Regarding the news feeds on the digital “infotainment” displays, Benedetti noted during his deposition
that SEPTA has not given any “guidance or requirements regarding the content of the news items that
Intersection allows to be posted on the infotainment
systems.” (Benedetti Dep. at 32:18-22.) He also stated
that neither Screenfeed nor Intersection can “determine what sorts of news to put out on the infotainment
system” and that he did not know if Intersection
reviewed the news. (Id. at 31:23-32:8.) During trial,
after stating that he did not know whether SEPTA
“had the option to pre-review or remove certain
headlines that would run in the newsfeeds,” Plaintiff s
counsel presented him with a screenshot from the
Screenfeed website permitting review of certain news
items. (Trial Tr. at 79:15-80:19; Trial Ex. 110.)
Benedetti stated that SEPTA had asked Intersection
to look for the contract between itself and Screenfeed
but that Intersection was not able to locate it. (Trial
Tr. at 79:15-80:19.)
5. Asserted Inconsistencies in Benedetti’s
Testimony and Other Evidence
One of CIR’s principal arguments is that Benedetti’s
testimony was contradictory on some points and
inconsistent with other evidence in the case. The
Court agrees that Benedetti’s testimony was not clear
or totally consistent on a few issues. First, Benedetti
seems to walk back his answer regarding the reasons
for SEPTA’s practice of leasing its advertising space.
During his deposition, Benedetti stated that SEPTA’s
purpose for leasing space to advertisers was “[t]o raise
revenue independent of the fare box and taxpayer
subsidies and to do so in a manner that provides for

54a
safety, efficiency and comfort of our passengers.”
(Benedetti Dep. at 17:5-10.) During trial, however, he
notes that “[r]evenue was a consideration” but states
that this was “only in so much as this is a small
percentage of the money that we raise, aside from the
fare box and the taxpayer subsidies, but that
revenue—and I think the standard states this—that
was going to be balanced against the customer’s
experience.” (Trial Tr. at 48:23-49:2.)
Regarding the process by which SEPTA reviews
proposed advertisements, when asked if SEPTA had
“come to any clarification with Intersection regarding
how the term political is to be interpreted for the
purposes of Subsection (a),” Benedetti responded, “We
purposely don’t do that because we want to evaluate
each proposed ad against the standards and then
engage in the process we engage in to determine
whether or not it matches our standards or doesn’t.”
(Benedetti Dep. at 69:3-18.)
During trial, Benedetti stated that Baranetsky conceded that the advertisement was political in a letter
she wrote to SEPTA. (Trial Tr. at 119:23-120:7.) In
that March 21, 2018 letter, Baranetsky stated, “CIR’s
animation including facts and statistics on a political
issue is protected speech.” (Trial Ex. 16, at 2.)
Baranetsky asserted that her March 21, 2018 letter
was not an admission that the CIR ad falls within the
prohibition on political advertisements. (Trial Ex. 18.)
CIR focuses much of its criticism of SEPTA’s
policies, and Benedetti’s practices, on the issue of
what may be “political.” Although CIR has made clear
that it did not object to the first sentence of Subsection
(a) of the Challenged Provisions, relating to advertisements about political parties or political candidates,
CIR asserts that in some ads SEPTA ignores that

55a
prohibition. CIR also objects strongly to the second
sentence of Subsection (a), which has further examples
of political content. On one hand, Benedetti fails to
see certain advertisements as political or touching on
public debate when they are for a commercial service.
For example, the ad by the advertiser Fusion depicted
people of color and displayed the words, “As American
Ads.” (Trial Ex. 34.) The ad featured an impact of an
African American child wearing a shirt that said, “My
Life Matters.” (Id.) When discussing this ad, Benedetti
testified, “I thought this was an ad promoting services
of the sponsor of the ad, which was a television
producer or network, I forget which.” (Trial Tr. at
92:25-94:21.) He stated that he did not think that this
ad was “a message about two things being equally
American,” or “implicat[ing] any matters of public
debate on social issues.” (Id.)
On the other hand, however, Benedetti did not
always draw clear distinctions about certain issues
of public debate when the advertisement covered a
commercial venture. For example, during trial the
undersigned asked Benedetti about a hypothetical
advertisement that “didn’t say anything about for or
against [the Philadelphia soda tax’], but . . . let’s
say this was the Norristown local, which went to
Montgomery County, all right? So suppose the ad said,
do you know you can buy Pepsi Cola cheaper in
Norristown than in Philadelphia?” (Id. at 113:21114:2.) Benedetti responded, “I think that could still
be a problem under sub-standard (a) or (b), because—
particularly (b) because the notion of the soda tax and
everything that surrounds it is being debated in the
public.” (Id. at 114:6-9.) Despite Benedetti’s testimony
that he gives commercial advertisements the same
treatment as non-commercial advertisements, and the
fact that the 2015 Advertising Standards do not draw

56a
this commercial/non-commercial distinction, Benedetti
apparently considers the commercial nature of certain
advertisements.
Benedetti also could not provide clear testimony
about the definition of “political in nature” under
Subsection (a). During his deposition, when Plaintiff’s
counsel asked Benedetti, “Simply involving a political
issue is not in itself diapositive of whether something
violates Substandard (a) or not?” he responded, “It’s
hard for me to abstractly give you an answer to a
question like that.” (Benedetti Dep. at 116:15-20.)
When asked if “mentioning a law or regulation [is]
political,” he responded, “I don’t know. Could be. Could
not be.” (Id. at 116:21-23.) At trial, Benedetti stated
that an advertisement could be “political in nature”
and thus violate the 2015 Advertising Standards without “directly or indirectly implicating the action,
inaction, prospective action or policies of a government
entity.” (Trial Tr. at 86:24-87:2, 24-88:3.)
C. Other Exhibits and Depositions
CIR submitted exhibits in support of its Motion for
a Preliminary Injunction and supplemented those
exhibits at trial. (See Trial Ex. 20.) Among the 114
trial exhibits are deposition transcripts, articles about
CIR’s research, comparator advertisements. The Court
reviews the exhibits briefly below and considers them
in our analysis.
The first set of exhibits can be categorized as CIR’s
financial information and information related to its
report on disparate lending. (Trial Exs. 2-5, 7-9, 11-15,
81, 82.) These documents include, among other things,
a summary of the CIR report that was the basis of the
contested advertisement. (Trial Ex. 4.) This document
stated the findings of the CIR report as being in part:

57a
We found 61 metro areas out of 409 where
applicants of color were more likely to be
denied a conventional home purchase mortgage, even after controlling for nine economic
and social factors, including the applicants
income, the amount of the loan and the
neighborhood where they wanted to buy
property.
(Id. at 2.)
Among the exhibits are emails between CIR representatives and Roche from Intersection. (Trial Exs. 10,
30, 83.) There are also letters that followed SEPTA’s
rejection of the CIR ad, including one from Baranetsky
to Roche (Trial Ex. 16), from Benedetti to Baranetsky
(Trial Ex. 17), and from Baranetsky to Benedetti (Trial
Ex. 18).
The record contains documents that pertain to
SEPTA’s policies—including its prior advertising
standards (Trial Ex. 23), its 2015 revised advertising
standards (Ex. 22), and a screenshot of portion of
SEPTA’s website entitled “advertising opportunities.”
(Trial Ex. 21.) News articles are also included in the
record; there are articles about the new fleet of SEPTA
hybrid-electric buses (Trial Ex. 26), the upcoming
SEPTA video kiosks at bus shelters (Trial Ex. 27), and
the fact that SEPTA is to make at least $150 million
under their contract with Intersection (Trial Ex. 80).
There are also pictures of video “infotainment”
systems on the regional rail line (Trial Ex. 28), as well
as a screenshot from the Screenfeed website addressing “Options to moderate your feeds.” (Trial Ex. 110.)
Information about SEPTA’s advertising billing, revenue, and spending is also in the record. (Trial Exs. 6770.)

58a
The record additionally contains deposition transcripts from Benedetti (Trial Ex. 111), Baranetsky
(Trial Ex. 115), and Thomas Kelly, SEPTA’s Director
of Sales. (Trial Ex. 112.)
D. Examples of Ads Accepted and Rejected by
SEPTA
The bulk of exhibits consist of proposed advertisements, most of which have been accepted by SEPTA,
though some have been rejected. These are reviewed
below. The record contains articles related to what
CIR perceives as the issues addressed by specific
advertisements SEPTA approved. (Trial Exs. 84, 85,
99-109.)
The advertisements in the file that have been
rejected include the following:
Trial Ex. 54: An advertisement stating “Dear
Art Museum: Art is Expensive! So is constructing new buildings! We totally get why
you can’t pay all your employees a living
wage!”3;
Trial Ex. 55: An advertisement from Bethany
Christian Services saying, “Unplanned Pregnancy? Now What? Consider adoption as an

3

Benedetti stated during his deposition that SEPTA rejected
this advertisement, but that Benedetti could not “recall completely” the reasons it was rejected but that “it had something to
do with the issue of living wage being a matter of public debate.”
(Benedetti Dep. at 262:5-9.) He added, “I don’t know if it also had
something to do with the content of the ad, the way it’s aimed at
the Art Museum as violating the law or not. I just don’t remember
that part.” (Id. at 262:11-14.)

59a
option. You don’t have to make your decision
alone.”4;
Trial Ex. 56: An advertisement from the U.S.
Department of Homeland Security stating,
“Sex trafficking, Forced labor, Domestic Servitude. It’s happening in our community. Get
informed.”5;
Trial Ex. 57: An advertisement reading, “Due
to the enormously grave miscarriage of justice, we call for the immediate recusal of
Judge Genece Brinkley from the case of Meek
Mill. Stand with Meek Mill.”6;
Trial Ex. 59: An advertisement from the
Philadelphia Department of Health saying,
“Stop Big Tobacco advertising in our communities. Our children are NOT replacement
smokers! Big Tobacco is targeting our kids.
Get Gigs out of my local stores! Our communi-

4

Benedetti stated that this advertisement was rejected
because “[i]t was taking a position on pro-life, pro choice, pregnancy type issues and one of the options that is available, which
I viewed as a debatable item . . . my view of this ad was Bethany
was presenting the Christian position on the issue of choice
versus abortion, and there was a debate about that.” (Benedetti
Dep. at 263:24264:15.)
5

Benedetti did not have any recollection as to the reason for
this advertisement being rejected. (Benedetti Dep. at 266:11-19.)
6

Benedetti said that this advertisement was rejected because
“I think this was calling for something within the judiciary, some
sort of action to recuse the judge involved with that case. And I
also think this was a matter that was and is being debated in
society about incarceration.” (Benedetti Dep. at 268:11-18.)

60a
ties have 3x more tobacco advertising. Break
the Cycle! Quit or don’t start smoking!”7;
Trial Ex. 60: Another Philadelphia Department of Health ad saying, “Mosquitoes aren’t
the only ones that spread Zika,” and a related
advertisement that added to that message,
“Love your partner. Wear condoms. Wait to
get pregnant. Prevent Zika.”8;
Trial Ex. 61: A set of advertisements from
Planned Parenthood saying, “Everybody
deserves expert care,” “Talk to the Birth
Control Experts,” and “Ask the Women’s

7

Benedetti stated that he had a concern that this advertisement was “stoking, you know, an issue that’s the subject of—was
the subject at the time or just finishing up litigation. You know,
the concern was—is—I just thought it concerned an issue that
was hotly contested among different groups of people.” (Benedetti
Dep. at 271:10-272:3.) Benedetti also said that SEPTA had run
other antismoking ads, and when asked whether there was
anything different about this ad, he stated,
I don’t know if there’s anything different. That’s why
I’m struggling a little bit. If I see those other ads, I—
this one sort of put one side against the other. If you
look at the panel that talks about Don’t be the industry’s next replacement, it was a little more than just
quit smoking, in our estimate. But the other ads, I
think, were—I think they were like University of
Pennsylvania advertising a smoking cessation program. That’s my recollection. That’s how I saw this differently. I’m not so sure that I decided it correctly, now
that I look at it in retrospect.
(Id. at 273:8-21.)
8

Benedetti stated that he and others at SEPTA “thought it
took a side on birth control.” (Benedetti Dep. at 273:16-18.)

61a
Health Care Experts. Birth Control at
Planned Parenthood”9;
Trial Ex. 62: An advertisement from Fairfax
Crybank soliciting sperm bank donors10;
Trial Ex. 64: Advertisements stating, “Fight
for Bean” and “#StormtheHeavens”11; and

9

Benedetti explained that these advertisements were rejected
that they “mention[] birth control, which is a matter of public
debate. And when you go to the Planned Parenthood website,
they are strong advocates for abortion rights. That’s also a matter
of public debate.” (Benedetti Dep. at 278:15-21.)
10

Although this advertisement was originally ran, Benedetti
testified that it was eventually taken down because it “violated I
guess it’s (b), advocating a position that’s a public or societal
issue. It’s pro sperm donation. I ran through the process of the ad
and I determined that that’s an issue that’s a matter of debate at
the public level.” (Benedetti Dep. at 279:23-280:12.) When asked
what issue the advertisement addressed specifically, Benedetti
stated that it was “[w]hether sperm donation itself, whether it’s
something we should be doing as a society. People are on both
sides of it. And I thought it was—it was rejected for that reason.”
(Id. at 9-12.)
11

In the email attached to this proposed advertisement, the
advertiser explained that “I have an 8 year old little girl, named
Philomena Stenardo, she was diagnosed in September, with
grade/stage 4, inoperable, brainstem glioblastoma. She is dying.
We know, her only chance of survival, is a miracle. Our local
professional sports organizations have reached out, and helped
us spread the word, to storm the heavens, and pray for Phil.”
(Trial Ex. 64. at 2.) Benedetti explained that this ad stated that
this advertisement was rejected because “[i]t was advocating
prayer as a means to cure her and get a miracle. . . . This ad was
asking for God’s intervention, in our mind, and that’s why it was
rejected.” (Benedetti Dep. at 283:18-20.)

62a
Trial Ex. 65: An advertisement from an
organization called XQ stating, “Education
isn’t a problem. It’s a solution.”12
Some of the accepted advertisements in the record are
as follows:
Trial Ex. 31: Advertisements from the Democratic National Convention (“DNC”) Host
Committee;
Trial Ex. 32: Advertisements from the PHI
2016 Host Committee regarding the
DNC, including one from the union SEIU
32BJ reading, “Welcome DNC. We are
Philadelphia’s: Union Middle Class Jobs,
office cleaners, community, neighbors, building service workers, window washers, security officers, families, school district workers.
Road out of poverty.”13;

12

Benedetti stated that this advertisement was rejected
because “[i]t was against public education and for school choice.”
(Benedetti Dep. at 285:22-286:3.) He explained “Mr. Roche and I
went back and forth. And I don’t think I talked to the folks at XQ.
I may have read some e-mails they sent to Mr. Roche. But just
their effort to get me to understand their model, this, this and
what the advertisement was trying to do, trying to convince me
that I was wrong. And I came to the conclusion that—you know,
after looking at everything, the website, they were really taking
a position on the school choice issue.” (Id. at 286:6-16.)
13

Benedetti was asked whether he was satisfied that this
advertisement complies with the Advertising Standards, and he
stated “I’m not sure that I am, now that I look at it now . . . . I
just don’t remember the process I went through. But again,
looking at it with you today on the spot, I have some concerns
about the ad . . . . It mentions some issues that are out there. It
shows protestors, who I assume are union workers. And there’s,
you know, union versus nonunion. That’s certainly an issue to

63a
Trial Ex. 33: Advertisements for an event at
the African American Museum from the
American Friends Service Committee featuring pictures of Martin Luther King, Jr., Cesar
Chaves, and Lucretia Mott saying, among
other things, “What will you do for Peace?”14;
Trial Ex. 34: Advertisements from Fusion
showing pictures of diverse people, including
an African American child with a t-shirt
reading “My Life Matters” with the phrase
“As American As” in front of them15; and
Trial Exs. 88, 113: Advertisements from
Facebook stating, “Fake news is not your
friend,” “Data misuse is not your friend,”

me. So I don’t remember my thought process on this one. I could
have been mistaken if I ran it.” (Benedetti Dep. at 175:22-176:22.)
14

Benedetti stated that this complied with the Advertising
Standards because “I don’t think it’s taking a position or asking
for action. I think it’s saying come to the museum to see our
exhibit.” (Benedetti Dep. at 181:17-21.)
15

The Fusion advertisements were the subject of questioning
during Benedetti’s deposition and at trial. Benedetti explained
that an earlier version of these advertisements featured nudity,
drugs, and vulgarity and that these elements were removed from
the proposal. (Benedetti Dep. at 187:9188:19.) He stated that he
did not know what they were trying to communicate but testified
that “this was an ad advertising for this advertiser’s services or
product, whatever it was. I don’t really know. That’s what I
judged it on, the virtue of the product it was advertising.” (Id. at
189:4-190:1.) At trial, when asked whether these advertisements
were “designed to invoke any significant debates happening . . .
in America right now,” Benedetti stated, “I thought this was an
ad promoting the services of the sponsor of the ad, which was a
television producer or a network, I forget which.” (Trial Tr. at
94:16-21.)

64a
“Clickbait is not your friend,” “Fake accounts
are not your friends.”
SEPTA had also accepted many “public service”
advertisements from local, state, and federal agencies,
including the Free Public Library of Philadelphia
(Trial Ex. 41), Healthcare.gov (Trial Ex. 42), the Public
Health Administration (Trial Ex. 43), the Philadelphia
Department of Health (Trial Exs. 44, 50, 58), the
Philadelphia Department of Labor (Trial Ex. 46), the
Montgomery County Health Department (Trial Ex.
46), the Commonwealth of Pennsylvania (Trial Ex.
47), Philadelphia Recycle (Trial Ex. 49), the Mayor’s
Office of Community (Trial Ex. 94), United States
Department of Homeland Security (Trial Ex. 95), the
National Guard (Trial Ex. 89), and the Philadelphia
Water Department (Trial Ex. 96). The record also
included an advertisement from SEPTA itself. (Trial
Ex. 48.)
In addition, there are ads from public service organizations and from private organizations, including
Philadelphia Fight (Trial Ex. 51), Roosevelt Blvd.com
(Trial Ex. 90), the Clean Air Council (Trial Ex. 91), the
Pennsylvania Housing Finance Agency (Trial Ex. 92),
and PA Able (Trial Ex. 93). There are also advertisements for Einstein Healthcare (Trial Ex. 71) and
various educational institutions and organizations.
(Trial Exs. 63, 72-79.)
E. Advertisements by Banks
The record also features advertisements from banks
for home loans. When Benedetti was asked about the
bank advertisements that SEPTA ran, he stated that
he “thought those bank ads were the bank advertising
for their services and products it provides. And not

65a
making any statement about discrimination or not
discriminating.” (Trial Tr. at 121:15-17.)
These are discussed in detail below.
The bank ads that have been submitted in this case
that inform the Court’s conclusions are the following
exhibits:
Trial Ex. 35: First Bank of New Jersey ad
with image of Caucasian couple; stating, “A
bank should . . . feel right at home”; and
bearing the Member FDIC and Equal Housing Lender logos.
Trial Ex. 36: DNB First ad with image of
African-American man and Caucasian woman
standing next to a moving box; stating,
“We’ve Got the Home Loan You Need[]”; and
bearing the Member FDIC and Equal Housing Lender logos.
Trial Ex. 37: Univest Bank and Trust Co. ads
depicting a male, non-Caucasian construction
worker; a female, non-Caucasian chef; a Caucasian couple; an African-American couple
sitting next to moving boxes; and a family
skiing; stating, “Bank here to get there”; and
bearing the Member FDIC logo.
Trial Ex. 38: Tompkins VIST Bank ad with
image of African-American couple and child
in front of a stack of moving boxes; stating,
“Making your dream of home ownership a
reality”; and bearing the Member FDIC and
Equal Housing Lender logos.
Trial Ex. 39: Wells Fargo ad with image of
African-American mother and child at home;
stating, “Up to $7,500 to help you buy a

66a
home . . . See if you qualify at the
NeighborhoodLIFT Event April 1-2, 2016”;
bearing Equal Housing Lender logo.
Finally, there is an advertisement from the Housing
Equality Center stating, “Housing discrimination is
illegal. Housing Equality Center can help you understand your rights.” (Trial Ex. 66.) Benedetti was asked
about this advertisement during his deposition and
stated that he could not remember whether this
advertisement was rejected or accepted. (Benedetti
Dep. at 287:15-24.)
V. PARTIES’ CONTENTIONS
A. CIR’s Contentions
CIR’s case is premised on four arguments:
(1) Subsections (a) and (b) of the 2015 Advertising
Standards are unconstitutionally vague and
not capable of reasoned application;
(2) The 2015 Advertising Standards are not viewpoint neutral;
(3) The 2015 Advertising Standards are not “reasonable” in light of the purpose of the forum;
and
(4) SEPTA’s advertising space is a designated
public forum, and the 2015 Advertising Standards fail strict scrutiny.
Each of these contentions is discussed in more detail
below.
1. Standards are Not Capable of Reasoned
Application
CIR explains that it is settled law that restrictions
on speech will violate the First Amendment “if they

67a
are so vague that they do not meaningfully constrain
officials’ discretion.” (CIR Post-Trial Br., at 26) (citing
Minn. Voters Alliance v. Mansky, 138 S.Ct. 1876
(2018)); Metromedia, Inc. v. City of San Diego, 453 U.S.
490, 537-38 (1981) (Brennan, J., concurring); Se. Promotions, Ltd. v. Conrad, 420 U.S. 546, 553 (1975);
Sypniewski v. Warren Hills Reg’l Bd. of Educ., 307
F.3d 243, 266 (3d Cir. 2002); Kalman v. Cortes, 723 F.
Supp. 2d 766, 803 (E.D. Pa. 2010) (Baylson, J.). CIR
contends that a First Amendment challenge to a law
that vests officials with unbridled discretion to censor
speech may be brought as a facial challenge. (See CIR
Post-Trial Br., at 27.)
According to CIR, the Supreme Court recently
placed the question of whether a restriction confers
unbridled discretion on a governmental decisionmaker
under the umbrella of a First Amendment reasonableness analysis. (Id. at 28) (citing Mansky). Like the
restrictions that were found to be too “expansive” in
Mansky, CIR argues that the Challenged Provisions
are equally, if not more, unconstitutionally vague.
(CIR Post-Trial Br., at 28.)
CIR also argues that, to the extent SEPTA relies on
the government-speech doctrine to shield other
agencies’ advertisements from this Court’s analysis,
that doctrine should not apply. (Id. at 33-34.)
2. The Challenged Provisions are Not
Viewpoint Neutral on their Face or As
Applied
CIR next contends that the Challenged Provisions
are viewpoint discriminatory on their face and as
applied to CIR’s proposed advertisement. (Id. at 34.)
To support its argument, CIR compares bank advertisements previously displayed by SEPTA whereby

68a
the banks purport to be “equal housing lender[s]” with
its own ad reporting on discriminatory lending practices. (Id. at 35.) To allow the bank ads while rejecting
CIR’s ad is an exercise of viewpoint discrimination,
CIR asserts. (Id.)
CIR also explains that, in practice, SEPTA interprets its 2015 Advertising Standards to prohibit ads
that ask for changes to governmental policies, and
simultaneously to allow ads promoting governmental
policies and programs. (Id. at 36.)
Finally, CIR argues that SEPTA’s inclusion of the
phrase “matters of public debate” in the 2015 Advertising Standards is facially viewpoint discriminatory
because the phrase is indistinguishable from a ban on
controversial speech. (Id. at 37.) CIR cites various
cases that have held that restrictions on “controversial” speech are akin to viewpoint discrimination. (Id.)
Likening the word “controversy” to SEPTA’s phrase “a
matter of public debate,” CIR contends the restriction
is facially viewpoint discriminatory. (Id.)
3. Standards are Not “Reasonable” in Light
of the Purpose of the Forum
CIR contends that even if this Court finds SEPTA’s
advertising space to be a non-public forum, the 2015
Advertising Standards do not satisfy the requirements
of the First Amendment. To pass Constitutional
muster, CIR argues that SEPTA has not met its
burden of showing that its standards are reasonable
in light of the purpose of the advertising space. (Id. at
37-38.) SEPTA explained at trial that the purpose
of its advertising space is to generate revenue, and
CIR avers that there is no evidence that the 2015
Advertising Standards were intended to advance that
goal. (Id. at 38-39.) According to CIR, the standards

69a
would actually serve to reduce advertising revenue if
they were enforced as written. (Id. at 39-40.) To the
extent SEPTA has offered “rider comfort” as a purpose
of the advertising space, CIR argues that the standards are not clearly tied to that purpose when SEPTA
regularly exposes riders to political speech and matters of public debate through the newsfeeds on its
infotainment systems. (Id. at 40.) Moreover, CIR
argues that SEPTA does nothing to shield riders from
political/public-debate content outside of its advertising spaces. (Id. at 42.)
4. SEPTA’s Advertising Space is a Designated Public Forum, and the 2015 Advertising Standards Do Not Satisfy Strict
Scrutiny
Finally, although CIR conceded during the preliminary injunction proceedings that SEPTA had a limited
public forum, it withdrew that agreement for purposes
of the trial. CIR argues that SEPTA’s advertising
space is a designated public forum such that this
Court should review the 2015 Advertising Standards
under the rigors of strict scrutiny. (Id. at 43.) SEPTA’s
advertising space has been deemed such a designated
public forum in two prior judicial decisions. CIR
argues that there is not enough evidence in the record
to conclude that SEPTA has successfully closed its
forum since those decisions were made. (Id. at 43-44.)
In a designated public forum, all restrictions on
speech must survive strict scrutiny. In such a case,
SEPTA would have the burden of proving that its
restrictions are “narrowly tailored” to a compelling
government interest that SEPTA could not achieve
through less restrictive means. (Id. at 44.) CIR points
out that SEPTA has not attempted to justify the 2015

70a
Advertising Standards under strict scrutiny, and thus
has not met its burden. (Id. at 45.)
B. SEPTA’s Contentions
1. The Advertising Space on Buses is a NonPublic Forum
SEPTA contends that the relevant forum is the
advertising space on SEPTA buses because that is
the property to which CIR seeks access for its advertisement. (SEPTA Post-Trial Br., at 25.) That forum,
according to SEPTA, is a non-public forum because
the 2015 Advertising Standards expressly state that
SEPTA intended the advertising space to be a nonpublic forum, and since enacting these Standards,
SEPTA has “operat[ed] such venue as a non-public
forum requiring potential advertisers to adhere to
SEPTA’s Advertising Standards and [has] policed
those standards.” (Id. at 27.) In other words, SEPTA’s
policy and practices reflect its intention to close the
forum. (See id.)
2. The
Advertising
Reasonable

Standards

are

Next, SEPTA contends that the restrictions in the
Advertising Standards are reasonable, and that
SEPTA has reasonably applied the Standards, as
required in a non-public forum. (Id. at 29-30.)
First, SEPTA argues that it was within its rights
and reasonable to revise its advertising policy and
close the forum in light of its legitimate interest in
increasing ridership by refraining from offending
customers. (Id. at 29-30)16 SEPTA also refutes CIR’s
16

SEPTA made a similar argument in its Opposition to CIR’s
Motion for Preliminary Injunction, in which SEPTA contended

71a
contention that the Advertising Standards serve no
purpose because riders are exposed to newsfeeds on
SEPTA buses, arguing that newsfeeds do not violate
its Standards because there is a difference between
“hard news” and prohibited political and issue advertising. (Id. at 36)17
Second, SEPTA contends that it has reasonably
and consistently applied the Advertising Standards,
explaining why it was reasonable to accept other ads
that CIR contends were “political” and concerned
“matters of public debate,” including the Philadelphia
FIGHT Community Health Center ads and the ads
about the 2016 DNC in Philadelphia. (Id. at 32.)18

that the Challenged Provisions were reasonable in light of several
additional purposes of the forum, including avoiding public and
employee complaints, vandalism, unrest on buses, and the
administrative burden of “dealing with controversial public issue
advertising.” (SEPTA Opp’n, at 20; SEPTA Am. Opp’n, at 20.)
17

SEPTA contends, in the alternative, that the issue of newsfeeds is moot because SEPTA ordered them to cease operation,
and even if the issue were not moot, newsfeeds are irrelevant to
the Court’s determination because the relevant forum is limited
to advertising space on buses. (Id. at 36-37.)
18

SEPTA’s Opposition also sets out its reasons for finding that
other ads did not violate its Standards, including the American
Friends Service Committee ad and the Fusion ads. (See SEPTA
Opp’n, at 33; SEPTA Am. Opp’n, at 33-34.) SEPTA argues that
that the American Friends Service Committee ad was not “political” and did not reflect a position on a “matter of public debate”
because it only called for people to get involved in bringing about
peace, but did not reference policies, programs, or actions for
doing so. (SEPTA Opp’n, at 33; SEPTA Am. Opp’n, at 33.) With
respect to the Fusion ads, which stated that people of many races,
ethnicities, and religions are “As American As” viewers’ preconceived notions of “Americans,” SEPTA contends that it viewed
the ads as only reflecting Fusion’s intention to sell television
programming. (SEPTA Opp’n, at 33; SEPTA Am. Opp’n, at 33;

72a
With respect to the DNC advertisements, unlike
SEPTA’s Opposition to CIR’s Motion for Preliminary
Injunction, SEPTA’s Post-Trial Brief concedes that
SEPTA made an incorrect determination in allowing
one of the ads about the DNC in Philadelphia—the
ad proposed by a union. (Id.) Although SEPTA’s
Opposition to CIR’s Motion for Preliminary Injunction
acknowledged that the DNC was “political,” SEPTA
argued that it was reasonable to allow all of the DNC
ads. (SEPTA Am. Opp’n, at 31-33.) There, SEPTA contended that the DNC ads did not constitute
political advocacy, but rather welcomed visitors to
Philadelphia. (Id.) SEPTA reasoned that just because
the DNC ads “touch[ed] on politics or a political issue”
did not render them “political in nature.” (Id. at 32.)
SEPTA goes one step further in its Post-Trial Brief
and concedes that it made an incorrect determination
in allowing the union ad supporting DNC. (SEPTA
Post-Trial Br., at 32.) However, SEPTA argues that
its mistake in this “close case” does not render the
Advertising Standards’ policy on “political” advertisements unconstitutional. (Id.) SEPTA distinguishes the
DNC union ad from CIR’s ad, arguing that the CIR ad
did not present such a close case because CIR’s ad
would violate “any reasonable interpretation” of
Subsections (a) or (b). (Id. at 37.)
SEPTA also contends that the Challenged Provisions are not unconstitutionally vague because they
are reasonable and do not allow for arbitrary enforcement. (Id. at 31, 33.) In particular, SEPTA argues that
see also CIR Post-Trial Br., at 17-18.) According to SEPTA, the
fact that the Fusion ads included imagery that touched on a
political issue did not render the ads “political” in violation of the
Advertising Standards. (SEPTA Opp’n, at 33; SEPTA Am. Opp’n,
at 33.)

73a
the reference to “political” ads in Section 9(a) of the
Advertising Standards does not render the Standards
unconstitutionally vague, citing to the Second Circuit.
(Id. at 31) (citing Lebron v. Nat’l R.R. Passenger Corp.
(Amtrak), 69 F.3d 650, 658 (2d Cir. 1995), opinion
amended on denial of reh’g en banc, 89 F.3d 39 (2d Cir.
1995) (“Nor would a policy against ‘political’
advertising . . . be void for vagueness in light of the
Supreme Court’s decision in Lehman.”).)
Similarly, SEPTA argues that Subsection (b), which
prohibits ads on “matters of public debate,” is not
unconstitutionally vague. (SEPTA Post-Trial Br., at
33.) SEPTA contrasts Subsection (b) with a transit
authority advertising policy prohibiting “controversial” ads, which the Sixth Circuit held to be unconstitutional. (Id.) (quoting Am. Freedom Def. Initiative
v. Suburban Mobility Auth. for Reg’l Transp., 698 F.3d
885, 894 (6th Cir. 2012) (hereinafter “SMART”)).
According to SEPTA, because its Advertising Standards do not expressly prohibit “controversial ads,” but
instead ban ads on specific topics, not necessarily
because they are controversial topics, the Standards
are not unconstitutionally vague. (SEPTA Post-Trial
Br., at 33.)
3. The Advertising Standards are Viewpoint Neutral
SEPTA contends that its Advertising Standards are
viewpoint neutral both on their face and as applied in
rejecting CIR’s proposed ad. (Id. at 35.)
First, SEPTA argues that its Standards are
viewpoint neutral on their face because even if they
“incidentally prevent[] certain viewpoints from being
heard in the course of suppressing certain general
topics of speech,” it is not “[SEPTA’s] intent to

74a
intervene in a way that prefers one particular
viewpoint in speech over other perspectives on the
same topic.” (Id.) (quoting Am. Freedom Def. Initiative
v. Mass. Bay Transp. Auth., 781 F.3d 571, 582 (1st Cir.
2015) (hereinafter “MBTA”)). In other words, the
Advertising Standards are viewpoint neutral because
they restrict all viewpoints on “matters of public
debate,” not certain viewpoints. (See SEPTA Post-Trial
Br., at 35.)19
Second, SEPTA contends that it reasonably applied
its Advertising Standards in refusing to run CIR’s
proposed ad. (Id.) SEPTA specifically refutes CIR’s
contention that by approving ads of “equal housing
lender” banks, while rejecting CIR’s ad on the same
topic of “discriminatory lending,” SEPTA engaged in
viewpoint discrimination. (See id. at 35; CIR Post-Trial
Br. at 35.) SEPTA contends that it was reasonable for
SEPTA to conclude that ads from “equal housing
lender” banks did not pertain to the same topic as
CIR’s ad—discriminatory lending—because the bank
ads did not acknowledge a debate or present data on
discriminatory lending, nor did they address the
disposition of loan applications by race, neighborhood,
or otherwise. (SEPTA Post-Trial Br., at 35-36.)
Further, the fact that the bank ads indicated that the
banks were “equal housing lenders” did not mean that
19

In SEPTA’s Opposition to CIR’s Motion for Preliminary
Injunction, SEPTA contends that CIR failed to attribute a particular point of view to SEPTA. (SEPTA Am. Opp’n, at 34.) However, the relevant inquiry is whether SEPTA’s Advertising Standards—either on their face or as applied—reject ads based on the
particular point of view expressed. See Pittsburgh League of
Young Voters Educ. Fund v. Port Auth. of Allegheny Cty., 653
F.3d 290, 296 (3d Cir. 2011) (providing the legal standard for
viewpoint discrimination). SEPTA’s point of view is not relevant
to CIR’s viewpoint discrimination claim.

75a
the ads took a position on discriminatory lending;
rather, banks are required by law to indicate in their
ads that they award loans on a non-discriminatory
basis. (Id. at 35) (citing Nondiscriminatory advertising, 12 C.F.R. § 338.3 (2005)). SEPTA also distinguishes the bank ads from CIR’s proposed ads by
alleging that the bank ads “look forward, not back. The
ads are designed to foster future borrowing; they do
not address lending practices.” (SEPTA Post-Trial Br.,
at 36.) In SEPTA’s Opposition to CIR’s Motion for
Preliminary Injunction, SEPTA added that CIR’s ad
and the bank ads do not represent opposite views on
discriminatory lending because CIR’s ad is based on
aggregate data, not on the lending activity of any
particular bank. (SEPTA Am. Opp’n, at 37.)
VI. FINDINGS OF FACT
A. General
1. SEPTA leases space for conventional print
advertising on the exterior and/or interior of many of
the Authority’s over 2,500 vehicles (including buses,
trolleys, and trains) and in more than 200 stations and
facilities. (Benedetti Dep. at 15:21-16:6, 18:6-10; Trial
Ex. 21; Trial Tr. at 67:7-10.)
2. SEPTA leases its advertising space to generate
revenue, but this purpose has been consistently
balanced with SEPTA’s “core mission” of transporting
passengers safely, efficiently, and comfortably.
(Benedetti Dep. at 17:5-10; Trial Tr. at 49:4-8, 67:1825.)
3. According to SEPTA’s website, it provides “various ways for advertisers to effectively communicate
with the approximately 1 million commuters that ride
SEPTA each day.” (Trial Ex. 21.)

76a
4. SEPTA contracts with Intersection, (formerly
Titan Outdoor LLC), an independent, non-governmental
entity, to sell advertising space on SEPTA vehicles and
in SEPTA stations on SEPTA’s behalf. (Benedetti Dep.
at 20:13-23.)
5. Generally, at some times, some of SEPTA’s
advertisement space is empty or not leased. (Kelly
Dep. at 15:20-16:1.)
6. SEPTA applies the same advertising standards
(the 2015 Advertising Standards) to all of its advertising spaces in and on all SEPTA vehicles and facilities.
(Trial Tr. at 65:19-23.) However, the only request for
advertising in this case was made for bus advertising.
SEPTA agrees that the same SEPTA standards would
apply to advertisements inside subway and trolley
cars. This Court finds that the other advertising
spaces, such as the exterior of a bus or other transit
vehicles, stations, platforms, or bus shelters may raise
other issues and are outside of the scope of this
opinion.
7. Any person or group may seek to advertise on
SEPTA’s advertising spaces, and SEPTA accepts both
commercial and non-commercial advertisements.
(Benedetti Dep. at 19:14—20:9; Trial Tr. at 70:6-8.)
8. The Advertising Standards, which are contained
in the contract between SEPTA and Intersection, currently list twenty-two categories of prohibited advertisements. (Trial Ex. 22, at ¶¶ II(A)(9)(b)(iv)(a)—(v).)
9. The Advertising Standards do not have any
separate rules that define or apply to “public service
ads.” If SEPTA receives a proposal for a PSA, it reviews
that advertisement against the same advertising
standards as all other advertisements. (Trial Tr. at
64:21-24.)

77a
10. If any aspect of a proposed advertisement
violates the Advertising Standards, SEPTA’s policy is
to reject the advertisement. (Trial Tr. at 58:7-10.)
11. There are fifteen members of SEPTA’s board.
(Benedetti Dep. at 45:16-18.) Two members are
appointed from each of the five counties in
Pennsylvania that SEPTA serves: Philadelphia,
Bucks, Montgomery, Chester and Delaware. The
Philadelphia representative is appointed by the Mayor
and approved by the City Council, and the Bucks,
Montgomery, Chester, and Delaware County representatives are appointed by County Commissioners.
The House of Representatives minority and majority
party each appoint one member. The Governor
appoints the final member. (Id. at 45:18-46:1.)
12. Of SEPTA’s current operating budget of $1.2
billion, approximately half is made up of revenue
generating by passenger fares. (Id. at 52:2-5.) SEPTA
generates between $12 and $15 million in net revenue
from advertisements annually, with approximately
$5.2 million from advertisements on buses. (Exs. 68,
69; 11/01/18 Tr. at 6:16-21; 7:12-15; 8:11-14.)
B. SEPTA’S Response to AFDI Ad
13. SEPTA adopted the Advertising Standards in
May 2015, following Judge Goldberg’s decision in
AFDI, which declared that SEPTA’s advertising
spaces were a designated public forum and ordered
SEPTA to allow AFDI’s anti-Islamic advertisement to
run on SEPTA’s buses. 92 F. Supp. 3d 314.
14. In its 2015 amendment, SEPTA added language that stated that the express purpose of the
Advertising Standards was “to accept such forms of
advertising as will enhance the generation of revenues
to support its transit operations without adversely

78a
affecting the patronage of passengers.” (Trial Ex. 22,
at ¶ (II)(A)(9)(b)(ii).) The amendment further stated
that “SEPTA will retain strict control over the nature
of the advertisements accepted for posting on or in its
transit facilities, products, and vehicles and will
maintain its advertising space strictly as a non-public
forum.” (Id.) In addition, the amendment added new
categories of prohibited content, including the Challenged Provisions.
15. By adding the new language, SEPTA intended
to turn its advertising spaces into a nonpublic forum,
subject to lesser judicial scrutiny, so that it could avoid
having to run controversial advertisements like
AFDI’s that might prompt a negative response from
riders, employees, or the media. (Benedetti Dep. at
54:12-55:13 (When asked whether SEPTA analyzed
the impact of the proposed 2015 Advertising Standards on riders’ experiences, Benedetti answered, “I
mean, we were adopting the standards to improve our
riders’ experience.”) (Benedetti Dep. 54:16-18; Trial
Tr. 68:24-69:3 (“[W]e want [ads] to fit within the
standards and it’s our belief that that will keep our
riders safe, happy and not detract from our core
mission of moving them around safely”); id. at 69:8-11
(The 2015 Advertising Standards represent an attempt
to balance SEPTA’s “revenue-generating goals for the
ad space against the customer experience”)); (see also
Benedetti Dep. at 58:2-59:2; Trial Tr. at 45:6-15, 46:2347:17, 68:1-3, 69:12-17.)
16. This Court finds that SEPTA made a specific
effort following the decision in AFDI to promulgate
standards/policies/regulations that would qualify the
advertising space on the interior of its transit vehicles,
including subways, buses, and railroad cars as a nonpublic forum.

79a
17. The record supports a finding that SEPTA has
been successful in closing the forum and that these
advertising spaces are uniquely but correctly designated as non-public.
18. Although CIR has submitted proposed findings
on fact on “SEPTA’s digital displays,” (CIR Post-Trial
Br., at 6-7), the Court finds that SEPTA has effectively
terminated the news feeds on those digital displays
and therefore there is no issue for the Court to decide
concerning this form of media in SEPTA buses. Digital
displays remain showing advertisements and route
information.
19. The Court credits SEPTA’s contentions, as
supported by the record, that it wants its transit
spaces, in buses and subways, to be welcoming and
comfortable for passengers. The Court finds that
SEPTA has good and credible reasons to believe that
advertisements that state any viewpoint on topics
that involve economic, political, religious, historical, or
social issues may deter a significant subset of
passengers from using SEPTA transit facilities.
20. Benedetti’s testimony that buses that ran the
AFDI ad were the subject of vandalism, that “bus
operators . . . were unwilling to operate the busses on
which the ads were placed and so we honored their
objections and then had to put someone else on those
routes,” and that there were “reporters calling about
reactions” “[n]early every day during the course of
litigation” and upon the issuance of Judge Goldberg’s
decision, is credible. (Trial Tr. at 47:18— 20,48:6-17.)
21. The concerns expressed by SEPTA executives
on these points, based upon their experiences with
driver, rider, and public reactions to the AFDI ad, are
credible.

80a
22. In order to test the effectiveness of the advertisements that would arguably be offensive to a certain
subset of transit riders, SEPTA would have to actually
run those advertisements in a transit space over a
significant period of time to determine if ridership
declined. SEPTA did not conduct such an analysis.
(See Kelly Dep. at 8:19-9:3.) SEPTA’s AFDI experience
is very probative to the Court’s finding that SEPTA
had good, rational, and reasonable reasons for its bus
advertisement space to become a non-public forum,
and to help insure that such experience was not
repeated. These reasons, resulting in the Challenged
Provisions, were reasonable and based on SEPTA’s
empirical experience. Under the circumstances, it was
not necessary for SEPTA to conduct any specific new
tests or experiments and doing so would have been
very expensive and of doubtful probative value.
23. SEPTA accepts ads in general to help its revenue generation, but its advertising revenue is a small
portion of its revenue. SEPTA has not submitted any
empirical evidence that accepting ads that tend to be
more controversial would directly impact its “fare box”
revenue, but the Court finds SEPTA’s concerns about
accepting such ads to be credible. And based on its
AFDI experience, SEPTA, with its expertise in transit
matters, is entitled to substantial discretion in how it
runs its business, including what ads it will accept or
reject.
C. SEPTA’s Process for Reviewing Proposed
Advertising
24. All advertisements running on SEPTA’s advertising spaces are reviewed by Intersection and at least
one SEPTA employee, usually Jim Dellispriscoli.
(Benedetti Dep. at 60:5-61:5, 64:13-17.) The Advertising Standards themselves state, “All such advertising

81a
shall be submitted to SEPTA for review and
written approval prior to display.” (Trial Ex. 22, at
¶ II(A)(9)(a).) If Intersection deems an advertisement
acceptable, the advertisement is relayed to at least one
SEPTA employee through a copy receipt. Among other
tasks, the SEPTA employee is supposed to ensure that
the advertisement does not violate the Advertising
Standards. (Benedetti Dep. at 63:24-65:3, 168:12170:5.) Advertisements that Intersection deems
compliant, and that are not rejected or removed by
SEPTA’s employee, run in SEPTA’s advertising
spaces.
25. When Intersection receives a proposed advertisement that it believes may violate the Advertising
Standards, it must alert SEPTA’s advertising
department for review and approval. (Trial Ex. Ex. 22,
at ¶ II(A)(9)(a).) Advertisements that Intersection and
the reviewing SEPTA employee believe fall in a “gray
area” and may not comply with the Advertising
Standards are elevated to SEPTA’s General Counsel,
Benedetti, for further review. (Benedetti Dep. at
168:12-21.)
26. Benedetti is generally the final arbiter regarding whether an advertisement complies with SEPTA’s
Advertising Standards. (Id. at 79:17-21; Trial Tr. at
81:2-5.)
27. The Advertising Standards are the only written guidance SEPTA has published about what advertising content is or is not acceptable. Benedetti testified that “everything related to our measuring whether
or not a particular ad meets or doesn’t meet the
standards and our review of those ads is — comes from
[the Advertising Standards].” ( Benedetti Dep. at 66:1922.) And, “the only standard that SEPTA has in writing

82a
about what constitutes an ad that is political or not is
in [the Advertising Standards].” ( Id. at 116:2-6.)
28. The Advertising Standards are not available
on SEPTA’s website, and SEPTA does not offer the
public any written guidance about how to determine
whether or not an advertisement involves a “political
issue” or a “matter[] of public debate.” ( Id. at 115:17116:6; Trial Tr. 81:6-16.)
29. Benedetti credibly described his own personal
process for determining whether a proposed advertisement elevated to his level of review violates the
Challenged Provisions as follows:
Q. How do you go about determining whether
something is subject to debate?
A. That’s a good question.
What I do, generally speaking, is I look at the
ad first, and I just kind of absorb it, for lack
of a better word. I think about it.
And then I go on the interne and I Google
various phrases about, you know, what the
advertisement is projecting, what message it
is, and I see what comes up, and I see if
there’s a meaningful debate about the issue
that the advertisement is promoting.
(Benedetti Dep. at 102:13-24.)
29. Benedetti’s process also may involve reviewing
case law that he deems relevant. (Id. at 101:12-16,
126:8-12.) SEPTA’s interpretation of its Advertising
Standards may evolve over time because “[c]ase law
can change how those standards are reviewed.” (Id. at
277:1-20; see also Trial Tr. at 70:9-71:4.) There is no
case law interpreting SEPTA’s current Advertising
Standards. (Trial Tr. at 89:21-25.)

83a
30. Benedetti’s process may also include discussing the advertisement with other SEPTA or Intersection employees or in-house or outside counsel.
(Benedetti Dep. at 183:4-185:13 (testifying that he
could not answer questions about whether a particular
ad would be permissible “because I have to consult
with counsel for sure on something like that and I
would have to sit down with [in-house counsel] and
talk it through and do searches and—it’s not something I can do in a couple of minutes with you”); Trial
Tr. at 55:3-17.)
31. Intersection has received and accepted at least
2,736 unique proposals for contracts to advertise in
SEPTA advertising spaces since SEPTA implemented
its 2015 Advertising Standards. SEPTA has identified
only twelve advertisements that it rejected in whole or
in part, as well as two additional advertisements that
SEPTA initially accepted, but which Benedetti then
personally observed on SEPTA vehicles and ordered be
taken down because they did not comply with SEPTA’s
Advertising Standards. (Trial Ex. 53, July 17, 2018
Email from J. Powell to Counsel; Benedetti Dep. at
74:10-20.)
32. At trial, when asked on direct, “How many
proposals has SEPTA actually rejected since the new
standards come into effect in 2015?,” Benedetti
responded, “Not many.” (Trial Tr. at 55:25-56:2.)
33. At trial, Benedetti confirmed that Exhibit 53
and the pretrial stipulated facts erroneously list the
“Safe Sleep” ad campaign (Trial Ex. 58) as having
been rejected, when in fact it was accepted. (Trial Tr.
at 88:20-89:8.) And, he could not say whether the
Department of Homeland Security sex trafficking ad
campaign (Trial Ex. 56) was rejected, but he could not
offer any explanation as to why it would have been

84a
rejected. (Trial Tr. at 89:9-20; Benedetti Dep. at 266:1267:11.)
34. SEPTA also rejected an advertisement for the
Housing Equality Center. (See Trial Ex. 66.) Although
it does not appear on SEPTA’s counsel’s list of rejected
ads, neither does it appear in any of SEPTA’s records
as an ad that was accepted. Benedetti testified that he
remembered the ad submission and could not explain
why SEPTA would have rejected it. (Benedetti Dep. at
287:15-288:12.)
35. SEPTA has no formal appeal process following
SEPTA’s denial of an advertisement. (Benedetti Dep.
at 78:17-79:16.) Sometimes, after deciding that a
proposed advertisement violates the Advertising
Standards, Benedetti will discuss the decision with
the advertiser, and Benedetti might change his mind.
If Benedetti does not change his mind, the advertiser’s
only recourse is to file a lawsuit. (Id.)
36. SEPTA has accepted and run numerous
advertisements for governmental entities promoting
government programs and policy, including the
following:
a. SEPTA ran an advertisement for the federal
Centers for Disease Control proclaiming, “Help
him fight measles with the most powerful
defense. Vaccines.” (Trial Ex. 43.)
b. SEPTA ran an advertisement by the City of
Philadelphia stating, “Your landlord must
ensure your home is safe. . . . If your landlord
has not given you lead paint safety information, Call 311 or Visit Phila.Gov/Lead
HealthyHomes.” (Trial Ex. 44.)

85a
c. SEPTA ran an advertisement for the
Philadelphia Department of Labor stating,
“Employee or Contractor. Knowing the difference benefits you,” and promoting a government website that helps the public learn about
their legal rights. (Trial Ex. 45; Benedetti Dep.
at 236:19-238:2.)
d. SEPTA ran an advertisement for the
Montgomery County Health Department stating, “Employers must provide a reasonable
break time for an employee to express breast
milk for her nursing child for one year after the
child’s birth, as well as a private place to do
so.” (Trial Ex. 46.) The advertisement directed
readers in search of more information to a
government website. (Id.)
e. SEPTA ran an advertisement for the Commonwealth of Pennsylvania stating, “Wanted by
law enforcement? Tired of running? Surrender
& see favorable considerations. Safe Return.”
(Trial Ex. 47.)
f. SEPTA ran an advertisement for the City of
Philadelphia proclaiming the City’s “bold goal
of becoming a 90% zero waste AND litter-free
City by 2035” and prompting residents to take
specific steps to advance those goals. (Trial Ex.
49.)
g. SEPTA ran an advertisement for the City of
Philadelphia Department of Public Health
stating, “Saving a Life Can Be This Easy,”
“Carry Naloxone (Narcan),” and “Prevent
Opioid Overdose.” (Trial Ex. 50.)
h. SEPTA also ran advertisements by the
Philadelphia FIGHT Community Health

86a
Center stating, “Have you or someone you
know been impacted by mass incarceration?
Find out how to fight for your rights, and for
the rights of your family, friends and community members.” (Trial Ex. 51.) The advertisement features drawings of wrists in handcuffs
behind bars, a heart behind bars, and two
people speaking on a telephone in a prison’s
visitation room. (Id.) At deposition, Benedetti
testified that he was unsure whether this
advertisement was consistent with the
Advertising Standards. (Benedetti Dep. at
255:11-257:4.)
37. SEPTA has run ads on other controversial
topics and matters of public debate, including the
following:
a. SEPTA ran an advertising campaign by
Facebook, Inc., with statements such as: “Fake
news is not your friend” and “Clickbait is not
your friend.” (Trial Ex. 113.) This campaign
generated more than $250,000 in revenue for
SEPTA in just three months. (Trial Ex. 70
(showing revenue in May, June, and July 2018
pursuant to contract 21821349).)
b. SEPTA ran an advertisement for the American
Friends Service Committee that asked viewers
to engage themselves in the fight for peace.
The advertisement displayed quotes from
civil rights leaders, Martin Luther King, Jr.,
Cesar Chavez, and Lucretia Mott (all of
whom SEPTA described as “controversial”),
and, expressing the need for the viewer to be
an active participant in fights for justice, asked
rhetorically, “What will you do for peace?”
(Trial Ex. 33; Benedetti Dep. at 182:5-14.)

87a
c. SEPTA ran a series of advertisements for
Fusion media that posited that people of many
races, ethnicities, and religions are “As American As” the viewer’s preconceived notions of
American-ness. (Trial Ex. 34; Benedetti Dep.
at 187:5-11.) Each advertisement stated,
“Calling All Voices” and contained in huge
lettering “As American As.” (Trial Ex. 34.) One
advertisement showed a split-screen image
featuring a woman who appears to be Muslim
on one side, and on the other side, a male
soldier in camouflage fatigues. (Id.) Another
advertisement in the series showed a splitscreen image of a woman of color in boxing
gear, in front of an American flag on half of the
screen, and draped in the Mexican flag on the
other half of the screen. ( Id.) Another showed
a young Black child wearing a T-shirt that says
“My Life Matters.” (Id.) Others in the series
featured children of color standing with their
hands across their hearts (id.) as well as other
images of men and women of color (id.).
38. SEPTA also accepted two ads welcoming members of the Democratic National Committee to the
DNC held in Philadelphia in 2016. (Trial Exs. 31, 32;
Benedetti Dep. at 171:11-174:18.) These ads generated
more than $140,000 in revenue. (Trial Ex. 70, at 37)
(showing revenue in July 2016 pursuant to contract
21629078)). Benedetti testified that, in hindsight, he
thinks some of these ads are acceptable, but that
others violated the Challenged Provisions. (Trial Tr. at
61:4-20; Benedetti Dep. at 170:6-177:18.)
39. The Court finds that Benedetti, and the other
SEPTA witnesses who testified by deposition, are
credible and their testimony deserves substantial

88a
weight. Benedetti impressed the Court as taking his
corporate responsibilities, as the decision maker on
advertisements on behalf of SEPTA, very seriously.
The fact that he was not always consistent, and indeed
was contradictory in some instances and examples,
does not require rejecting his testimony or criticizing
his performance of his job. Absolute consistency is not
the appropriate test. In American corporate life, many
companies depend on their general counsel for legal
advice, and the application of legal principles to
business decision making. Benedetti acted in this role
and the Court believes his approach to his job was
consistent with constitutional and legal standards.
The fact that CIR, and perhaps other SEPTA
advertisers, disagreed with Benedetti’s exercise of
discretion, is not a determinative factor in this case.
40. Plaintiff has shown a number of arguably
inconsistent decisions in the rejection and acceptance
of certain advertisements. Reasonable individuals can
disagree on the decisions made by SEPTA on specific
ads, but this does not require the Court to find that
SEPTA has acted unreasonably, or in violation of
constitutional standards. The Court finds that
SEPTA has acted in good faith, and that arguable
inconsistencies from time to time do not warrant a
finding that SEPTA is unreasonable.
D. Bank Advertisements
41. SEPTA has accepted numerous home loanrelated advertisements identifying each advertiser as
an “Equal Opportunity Lender” or “Equal Housing
Lender.” (See, e.g. Trial Exs. 35, 36, 38, 39.) Pursuant
to federal law, the inclusion of those phrases or the
equal housing lender logo is a representation that
the lender makes home loans “without regard to
race, color, religion, national origin, sex, handicap, or

89a
familial status.” 12 C.F.R. § 338.3(a). Although the
regulation states the advertising regarding home
loans must “prominently” indicate that the lender does
not discriminate on the basis of any of these protected
characteristics, the regulations specifically allow a
showing of the equal opportunity logotype as satisfying this requirement with respect to written and
visual advertisements.20
42. The Court finds that SEPTA adhered to this
requirement and that all of the bank advertisements
in this record carried that logotype, without any
additional representations or explanations.
43. Many of these advertisements feature nonwhite models. (E.g., Trial Exs. 36, 38, 39; see also Trial
Ex. 37 (featuring African-American couple in apparent
20

Section 338.3(a) provides:
(a) Any bank which directly or through third parties
engages in any form of advertising of any loan for
the purpose of purchasing, constructing, improving,
repairing, or maintaining a dwelling or any loan
secured by a dwelling shall prominently indicate in
such advertisement, in a manner appropriate to the
advertising medium and format utilized, that the bank
makes such loans without regard to race, color, religion, national origin, sex, handicap, or familial status.
(1) With respect to written and visual advertisements,
this requirement may be satisfied by including in the
advertisement a copy of the logotype with the Equal
Housing Lender legend contained in the Equal Housing
Lending poster prescribed in § 338.4(b) of the FDIC’s
regulations or a copy of the logotype with the Equal
Housing Opportunity legend contained in the Equal
Housing Opportunity poster prescribed in § 110.25(a)
of the United States Department of Housing and
Urban Development’s regulations (24 CFR 110.25(a)).

(Emphasis added).

90a
new home with slogan “Bank here to get there.
Financial Solutions for Your Life[]”).)
44. For example, an advertisement from Tompkins
VIST Bank shows an image of an African American
couple and child in front of a stack of moving boxes and
says, “Making your dream of home ownership a
reality,” and bears the Equal Housing Lender logo
type. (Trial Ex. 38; Benedetti Dep. at 200:1-7.)
45. A Wells Fargo advertisement proclaims the
virtues of Wells Fargo’s “NeighborhoodLIFT program,” which provides down payment assistance and
financial education to homebuyers of modest income.
(Trial Exs. 39, 40.) Both the advertisement and the
website prominently featured in the advertisement
show various non-white individuals. (Id.)
46. Benedetti testified that Wells Fargo was one of
the parties to litigation concerning discriminatory
lending, but he could not specifically recall if the
litigation he reviewed was the high-profile litigation in
the Eastern District of Pennsylvania. (Benedetti Dep.
a t 12:22–13 :14 .)21
47. One of SEPTA’s letters rejecting CIR’s
advertisement noted, “The subject of the proposed
advertisement is disputed in class action litigation
pending in the courts.” (Trial Ex. 19, Mar. 29, 2018
Ltr. from G. Benedetti to V. Baranetsky).

21

CIR asserts that Wells Fargo is a defendant in litigation
regarding alleged discriminatory lending practices, including
alleged reverse redlining. (CIR Post-Tr. Br., at 19) (citing City of
Phila. v. Wells Fargo & Co., No. 17-02203 (E.D. Pa. 2017)).

91a
E. SEPTA’s Denial
Advertisement

of

CIR’s

Proposed

48. In January 2018, CIR applied to place a paid
advertisement on the interior of SEPTA buses. (Trial
Ex. 30.) CIR wanted to post a journalistic graphic
derived from the ten-panel comic appearing on
Reveal’s website. (See Trial Exs. 81, 10.) The comic and
advertisement arose out of CIR’ s reporting about
racial disparities in mortgage lending—reporting that
was confirmed by the Associated Press. (Trial Ex. 16.)
49. Intersection informed CIR that SEPTA would
not accept CIR’s proposed advertisement because,
according to SEPTA’s legal department, “[d]isparate
lending is a matter of public debate and litigation.”
(Trial Ex. 30.) CIR and SEPTA then exchanged four
letters between March 2, 2018 and March 29, 2018.
(See Trial Exs. 16-19.) Ultimately, SEPTA reiterated
its position that CIR’s proposed advertisement is
prohibited by the Advertising Standards because the
advertisement “takes a position on issues that are
matters of political, economic, and social debate” and
“indirectly implicates the action, inaction, prospective
action or policies of a government entity,” in violation
of the Challenged Provisions. (Trial Exs. 17, 19.)
50. Other than violating the Challenged Provisions, SEPTA has disclaimed any other justification
for rejecting CIR’s ad. (Trial Ex. 24, Def.’s Resps. to
Interrogs. 1, 3, at 5, 7; Benedetti Dep. at 85:8-17.)
51. Prior to this litigation, SEPTA never identified
specific panels or aspects of the proposed advertisement that concerned SEPTA, stating only that, in
SEPTA’s view, CIR’s advertisement addressed the
subject of “disparate lending.” SEPTA did not invite
CIR to amend its proposal in any manner before

92a
rejecting it. (See Trial Exs. 16-19.) However, during his
deposition, Benedetti identified two images in CIR’s
advertisement that personally stood out to him as
violative of SEPTA’s Advertising Standards: an image
showing keys attached to sticks of dynamite handed
from a white hand to a black hand, and an image
Benedetti interpreted as showing protesters yelling at
a white banker. (Benedetti Dep. at 156:9-12, 157:17158:3.)
52. To address Benedetti’s stated concerns, CIR
drafted an additional proposed advertisement without
those design elements, which it submitted to
Intersection and SEPTA on August 6, 2018. (Trial Ex.
83, Aug. 6, 2018 Email from G. Hongsdusit to J. Roche,
Aug. 6, 2018 Ltr. from J. Stapleton to M. Madden, et
al.)
53. On September 21, 2018, after being directed
by the Court to formally respond to CIR’s additional
proposed advertisement, SEPTA rejected the proposal.
(ECF 32, Ex. A, Ltr. from M. Madden to J. Stapleton.)
54. Of great concern is the need for a viable public
transit system in a large city such as Philadelphia,
serving many neighborhoods, some more prosperous
than others. It is a commonly accepted fact in
Philadelphia that many taxicab drivers, and
“transportation network companies,” such as Uber
and Lyft, do not frequent high crime areas, or areas
where there is a significant amount of drug trafficking
or drug addicts. Many residents who live in these
areas are forced to rely on public transportation to get
to and from work, for child care, for school attendance,
and many other reasons. This point was made in
litigation before the undersigned involving taxi cab
drivers alleging the failure of the Philadelphia
Parking Authority to regulate transportation network

93a
companies. See generally Checker Cab Phila. v. Phila.
Parking Auth., No. 16-cv-4669.
55. The obvious facts of operating a transit system
in a big city, as well as specific facts in this record,
warrant giving SEPTA considerable discretion in
adopting advertising standards that may preclude
certain types of advertisements in an effort to avoid
offending any particular passenger segment. The
Court notes, as expressed in a number of judicial
decisions, that passengers on a transit bus or subway
are “captive” in the sense that they cannot avoid
advertising media. This is opposed to consumers
listening to radio or TV stations, or even reading ads
in a newspaper, where the consumer can switch the
station, turn the newspaper page, not buy the newspaper, or turn off the radio/TV. Advertisements in public
transit vehicles are a unique advertising market and
courts should refrain from supervision of rejected ads
or interference with the business decisions of the
transit company managers.
56. The Court nonetheless recognizes its obligations to adhere to First Amendment jurisprudence
and, for these reasons, has determined that certain
phrases within SEPTA regulations are overly broad,
potentially confusing, and unreasonably infringing on
free speech. The Court notes these objectional phrases
in the Conclusions of Law, which follow. With these
deletions, the Court finds SEPTA’ s standards are
consistent with First Amendment principles as interpreted by the United States Supreme Court and the
Third Circuit and provide a workable and reasonable
standard for SEPTA to follow.
57. The deletion of these phrases will not harm
SEPTA or restrict SEPTA from rejecting or accepting
advertisements that it believes are consistent with its

94a
standards. Rather, the Court believes the deletions of
these phrases in the current regulations will make the
regulations more consistent with established First
Amendment jurisprudence.
58. The Court also finds that advertisers seeking
to place advertisements that SEPTA finds violates
its standards have many other outlets in the
Philadelphia area for access to the public for their
views, such as the internet, billboards, leaflets, sound
trucks—in addition to the more obvious advertising
outlets mentioned above such as newspapers, radio
and TV. Thus, the fact that SEPTA, as a non-public
forum, has restrictions, does not deter the public flow
of messaging of all types. In fact, the rejected CIR
advertisement at issue had been accepted by the City
of Philadelphia for placement on their bus shelters and
newsstands. (Trial Ex. 10, Feb. 23, 2018 Email from J.
Roche to H. Young et al.)
VII. DISCUSSION OF LAW
Our analysis proceeds as follows. The Court first
examines whether the advertising space at issue is a
public, designated public, limited public, or non-public
forum. The Court then proceeds to evaluate whether,
under the recent Supreme Court precedent in Mansky,
the Challenged Provisions are so overbroad as to be
incapable of reasoned application. Next, the Court
discusses CIR’s facial attack on the reasonableness of
SEPTA’s regulations and address the particular
circumstances relevant to First Amendment challenges to speech restrictions on public transit. Following this discussion, the Court addresses whether
SEPTA’s content-based restrictions are viewpoint
neutral—both facially and as-applied.

95a
A. Forum Analysis
1. Defining the Forum and Type of Forum
The forum is defined by the “access sought by the
speaker.” Cornelius v. NAACP Legal Def. & Educ.
Fund, Inc., 473 U.S. 788, 801 (1985). In Cornelius, a
group of legal defense funds brought suit against the
federal government after it implemented standards
restricting inclusion in the Combined Federal
Campaign (“CFC”), an annual charitable giving
initiative for federal employees. Id. at 790. The Court
concluded that the CFC, rather than the entire federal
workplace, was the relevant forum. Id. at 801-02.
We conclude that the relevant forum at issue here is
the advertising space on SEPTA buses. Although the
Advertising Standards apply to other SEPTA vehicles,
as we discussed in the findings of fact above, CIR
sought access to the inside of SEPTA buses. In
accordance with Cornelius, we focus our analysis on
that advertising space.
The Supreme Court articulated the standards that
apply to the three different types of free speech forums
in Perry Education Association v. Perry Local
Educators’ Association, 460 U.S. 37,45-47 (1983). In a
traditional or “quintessential” public forum, such as a
street or park, “the government may not prohibit all
communicative activity.” Rather, “[f]or the state to
enforce a content-based exclusion it must show that its
regulation is necessary to serve a compelling state
interest and that it is narrowly drawn to achieve that
end.” Id. at 45. In a designated public forum, defined
by “public property which the state has opened for use
by the public as a place for expressive activity,” the
state “is bound by the same standards as apply in a
traditional public forum.” Id. at 45-46. Finally, in a

96a
limited public or non-public forum, which is characterized by “[p]ublic property which is not by tradition or
designation a forum for public communication,” the
State “may reserve the forum for its intended purposes, communicative or otherwise, as long as the
regulation on speech is reasonable and not an effort
to suppress expression merely because public officials
oppose the speaker’s view.” Id. at 46. The reasonableness of a restriction in a non-public or limited public
forum22 “must be assessed in the light of the purpose
of the forum and all the surrounding circumstances.”
Cornelius, 473 U.S. at 809.
Courts outside this Circuit have explained that
“[t]he past history of characterization of a forum may
well be relevant; but that does not mean a present
characterization about a forum may be disregarded.”
Ridley v. Mass. Bay Transp. Auth., 390 F.3d 65, 77 (1st
22

The Supreme Court has identified limited public forums and
non-public forums as distinct categories. See R.A.V. v. City of St.
Paul, Minn., 505 U.S. 377, 427 (1992) (identifying limited public
and non-public forums as separate “geographic categories of
speech”); but see AFDI v. King Cty., Wash., 136 S.Ct. 1022, 1022
(2016) (Mem.) (Thomas, J., dissenting) (stating that a limited
public forum is also called a non-public forum). A limited public
forum “exists where a government has reserv[ed a forum] for certain groups or for the discussion of certain topics.’ Walker, 135
S.Ct. 2250 (quoting Rosenberger v. Rector Visitors of Univ. of Va.,
515 U.S. 819, 829 (1995)). In contrast, a non-public forum is
created “`[w]here the government is acting as a proprietor, managing its international operations.’ Walker, 135 S.Ct. at 2251
(quoting Int’l Soc’y for Krishna Consciousness v. Lee, 505 U.S.
672, 678-79 (1992) (hereinafter “ISKCON”)). Regardless of whether
a forum is identified as non-public or limited public, the same
level of scrutiny applies. NAACP v. City of Phila., 834 F.3d 435,
452 (3d Cir. 2016). In both types of forums, restrictions on speech
must be reasonable in light of the purpose served by the forum
and viewpoint neutral. Id. (citing Rosenberger, 515 U.S. at 829).

97a
Cir. 2004) (discussing changes to a transportation
authority’s advertising restrictions as if the advertising space had previously been considered a designated
public forum). See also American Freedom Defense
Initiative v. Metropolitan Transp. Auth., 109 F. Supp.
3d 626, 632-33 (S.D.N.Y. 2015) (Koeltl, J.) (noting that
changes made to a transportation authority’s advertising restrictions likely “converted its advertising space
from a designated public forum to a limited public
forum or a nonpublic forum”); Coleman v. Ann Arbor
Transp. Auth., 947 F. Supp. 2d 777, 779-80 (E.D. Mich.
2013) (Goldsmith, J.) (finding that revisions to a
transportation authority’s advertising policy changed
the forum from a designated public forum to a limited
or non-public forum). Thus, “[t]he government is free
to change the nature of any nontraditional forum as it
wishes. . . . [I]t would be free to decide in good faith to
close the forum at any time.” Ridley, 390 F.3d at 77
(emphasis in original).
In prior cases involving SEPTA’s restrictions on
speech, courts in this Circuit have held that SEPTA’s
advertising space is a designated public forum.
Christ’s Bride Ministries, Inc. v. SEPTA, 148 F.3d 242,
252 (3d Cir. 1998); AFDI, 92 F. Supp. 3d at 326.
In Christ’s Bride, the Third Circuit held that
SEPTA’s removal of an advertisement from stations
and transit stops violated the First Amendment. 148
F.3d at 244. The Third Circuit reasoned that SEPTA
had created a public forum in its advertising space and
the removal of the advertisement in question did not
survive strict scrutiny, nor was it reasonable even if
the forum were non-public. Id. at 244. Although
SEPTA originally agreed to display the advertisement
at issue, which stated that “Women Who Choose
Abortion Suffer More & Deadlier Breast Cancer,”

98a
SEPTA removed the ad after receiving a letter from
the U.S. Department of Health and Human Services
calling its accuracy into question. Id. at 245-46.
In coming to its decision, the Third Circuit held that
the relevant forum was all of SEPTA’ s advertising
space because that was the space to which the
advertiser sought access, and that the advertising
space was a designated public forum. Id. at 248, 252.
The Third Circuit focused on SEPTA’s intent by
examining its policies and practices and the nature of
the property. Id. at 247-55. Because SEPTA’s policies
were aimed at generating revenue and promoting
awareness of social issues, the forum was intended to
be partly commercial and partly expressive. Id. at 250.
The fact that SEPTA had discretion to reject advertisements for any reason did not render the forum nonpublic—if anything, the government’s reserved right
to control speech without any particular standards or
goals called for closer scrutiny. Id. at 251. Moreover,
the record did not reveal any policy or practice
demonstrating that SEPTA intended the forum be
closed to speech on the issue of abortion. Id. at 254.
Rather, “[i]n its efforts to generate advertising revenues, SEPTA permitted abortion-related and other
controversial advertisements concerning sexuality.”
Id.
Even if the forum had been closed, the Third Circuit
found SEPTA’s actions unreasonable because SEPTA
did not ask the advertiser to clarify the basis for its
contention after receiving the letter calling the poster
into question, because SEPTA could not explain how
its decision was related to preserving the advertising
space for its intended use, and because SEPTA failed
to implement an official policy governing the display
of advertisements making contested claims. Id. at 257.

99a
In AFDI, Judge Goldberg granted the plaintiff’s
motion for preliminary injunction because SEPTA created a designated public forum through its advertising
space, its restriction on “disparaging” ads was unconstitutionally viewpoint-based, and the restriction was
not necessary to achieve a compelling state interest.
92 F. Supp. 3d at 326, 327-29. SEPTA rejected a
proposed advertisement about “Islamic Jew–Hatred”
because it violated SEPTA’s anti-disparagement
standard, which prohibited “[a]dvertising that tends to
disparage or ridicule any person or group of persons
on the basis of race, religious belief, age, sex, alienage,
national origin, sickness or disability.” Id. at 320-21.
The relevant forum was SEPTA’s advertising space,
the space to which plaintiff sought access. See id. at
327. Despite SEPTA’s testimony that it did not intend
to create a public forum, Judge Goldberg found that it
had done so through policies and practices that
failed to proscribe political or public issue advertising
and did not limit advertisements to commercial or
uncontroversial speech. Id. at 326. Further, SEPTA’s
policy did not survive strict scrutiny because it was
not necessary to serve a compelling state interest—
that is, the policy would have had the same “beneficial
effect” even if it was not limited to specific enumerated
groups. Id. at 328.
In cases involving other transit agencies, however,
many courts have found that advertising spaces in
public transportation systems were non-public
forums. See Lehman v. City of Shaker Heights, 418
U.S. 298, 304 (1974) (plurality) (affirming Ohio
Supreme Court holding that advertising space on
public transit was a non-public forum because “[t]he
city consciously ha[d] limited access to its transit
system advertising space in order to minimize chances
of abuse, the appearance of favoritism, and the risk of

100a
imposing upon a captive audience”)23; Ridley, 390 F.3d
at 81-82 (holding that transit authority advertising
program constituted a non-public forum); SMART, 698
F.3d at 890 (concluding that city bus advertising space
was a non-public forum and that the transit agency’s
rejection of an AFDI advertisement as political was
reasonable and viewpoint neutral); Archdiocese of
Wash. v. Wash. Metro. Area Transit Auth., 897 F.3d
314, 323 (D.C. Cir. 2018) (hereinafter “Archdiocese v.
WMATA”) (holding that a transit authority had created a non-public forum and that its rejection of a
religious advertisement was reasonable because the
policy was consistently enforced and tied to the stated
purpose of providing reliable, inclusive service); Ne.
Pa. Freethought Soc’y v. Cty. of Lackawanna Transit
Sys., 327 F. Supp. 3d 767, 771 (M.D. Pa. 2018) (Mannion,
J.), appeal filed (No. 18-2743) (3d Cir. August 8, 2018)
(finding that advertising space on public transit buses
was a “limited forum,” and the advertising policy was
reasonable in light of the forum and that the plaintiffs
had not established viewpoint discrimination).
2. The Advertising Space on SEPTA Buses
is a Non-Public Forum
To determine whether SEPTA closed the forum of
its advertising spaces on buses, the Court must review
SEPTA’s intent as reflected in its policy and practices.
See Cornelius, 473 U.S. at 802 (“The government does
23

Although Lehman was decided prior to the Supreme Court’s
articulation of the public forum doctrine in Perry, the Court’s
analysis there most closely comports with that of a non-public
forum. This Court also recognizes that although Lehman was a
plurality opinion, it is the only Supreme Court case about advertising restrictions in public transportation systems. Accordingly,
we find it extremely authoritative. For a more fulsome discussion
of this case, see infra Part VII.D.3.

101a
not create a public forum by inaction or by permitting
limited discourse, but only by intentionally opening a
nontraditional forum for public discourse. . . . Accordingly, the Court has looked to the policy and practice
of the government to ascertain whether it intended to
designate a place not traditionally open to assembly
and debate as a public forum.” (citing Perry, 460 U.S.
at 47)).
From the face of the 2015 Advertising Standards, it
is clear that SEPTA’s intent was to create a non-public
forum:
Non-Public Forum Status. It is the express
intention of these Advertising Standards to
further confirm SEPTA’s intention that property allocated for advertising will not provide
or create a general or designated public forum
for expressive activities. In keeping with its
proprietary function as a provider of public
transportation, SEPTA does not intend its
acceptance of transit advertising to permit its
transit facilities, products, or vehicles to be
used as open public forums for public discourse and debate. Rather, SEPTA’s fundamental purpose and intent is to accept such
forms of advertising as will enhance the
generation of revenues to support its transit
operations without adversely affecting the
patronage of passengers. In furtherance of
that discreet and limited objective, SEPTA
will retain strict control over the nature of
the advertisements accepted for posting on or
in its transit facilities, products and vehicles
and will maintain its advertising space
strictly as a non-public forum.

102a
(See Ex. 22.) Benedetti’s testimony at trial explaining
the process by which SEPTA adopted this Policy
affirms the organization’s explicit intent to close the
forum. (Trial Tr. at 46:17-47:17.) (explaining that the
primary objective in adopting the 2015 Advertising
Standards was to become a non-public forum).
This inclusion of an express intent to close the forum
was apparently missing from SEPTA’s earlier
advertising standards. (See Trial Ex. 23.) See also
Christ’s Bride, 148 F.3d at 252; AFDI, 92 F. Supp. 3d
at 326. However, the statement of intent is not
diapositive. See Christ’s Bride, 148 F.3d at 251 (“The
authority’s own statement of its intent . . . does not
resolve the public forum question.”). Thus, the Court
must review SEPTA’s policies and practices to
determine whether the forum has been closed.
SEPTA’s licensee, Intersection, solicits and places
advertisements on SEPTA vehicles. With the assistance of salespeople and managers at Intersection,
advertisements that potentially violate SEPTA’s
Policy are brought to Benedetti’s attention. Benedetti
testified that he has not rejected many advertisements
since the new standards were implemented in 2015.
(Trial Tr. at 55:25-56:2.) Of the nearly 2,736 proposed
advertisements Intersection has received, SEPTA
has rejected or removed between twelve and fourteen
advertisements for noncompliance with the standards.
(Trial Ex. 53, Pl.’s Br. Stip. 49.)
In practice, SEPTA has accepted a number of
advertisements that Benedetti testified it should not
have, including, for example, an advertisement from
a union expressing support for the Democratic
National Convention. (Trial Ex. 32; Trial Tr. at 61:420.) The fact that SEPTA’s process has missed certain
advertisements does not alone demonstrate that

103a
SEPTA has created a public forum. See Ridley, 390
F.3d at 78 (“One or more instances of erratic enforcement of a policy does not itself defeat the government’s
intent not to create a public forum.”). Moreover,
Benedetti testified that SEPTA employee Dellispriscoli
“sees all the ads . . . before they go on the bus[,]” and
that only potentially problematic ads are brought to
Benedetti’s attention. (Trial Tr. at 52:23-25, 54:13-14.)
This Court concludes that SEPTA’s practices and
policies have evolved since AFDI such that SEPTA
effectively closed the forum to public speech and
debate. It is within SEPTA’s power to close the forum,
and it clearly exerts significant control over the
advertising review process.
In finding that SEPTA had failed to create a nonpublic forum in AFDI, Judge Goldberg noted that
SEPTA “does not have an official policy which
prohibits political or public issue advertisements to
those which contain only commercial or uncontroversial speech.” 92 F. Supp. 3d. at 326. As explained at
length above, SEPTA has revised this policy to restrict
these types of speech.
Judge Goldberg also noted that SEPTA has
“accepted a number of concededly public issue advertisements.” Id. Although SEPTA has rejected few ads
since the 2015 Advertising Standards were adopted,
the advertisements that it has accepted and rejected
have demonstrated SEPTA’s control over the forum.
See supra Parts IV.D, E. This is a far cry from SEPTA’s
practice in AFDI, where they accepted “advertisements on such topics as teacher seniority, fracking and
contraceptive use.” 92 F. Supp.3d at 326. Although
Benedetti has admittedly accepted certain advertisements that may have been violative of the policy, we
do not find that these few instances demonstrate an

104a
intent on SEPTA’s part to maintain a designated
public forum. See Ridley, 390 F.3d at 78.
As discussed above, SEPTA had, until midway
through this litigation, permitted Screenfeed to
publish news feed data onto the digital displays on its
buses. Before the news feeds were terminated, SEPTA
reviewed the advertisements it published on the
digital displays in the same fashion as it did other
advertisements. We do not find that the infotainment
systems are relevant to this analysis. Even if they
were, however, we conclude that SEPTA has not
created a public forum by permitting Screenfeed to
publish scrolling news headlines on SEPTA buses.
B. The Standards and Burden Applicable in a
Non-Public Forum
Having decided that SEPTA’s advertising space on
buses is a non-public forum, the Court now moves on
to analyzing whether SEPTA’s restrictions on speech
are constitutional in such a forum. The government
may restrict access to a non-public forum “as long as
the restrictions are ‘reasonable and [are] not an effort
to suppress expression merely because public officials
oppose the speaker’s view.’” Cornelius, 473 U.S. at 800
(quoting Perry, 460 U.S. at 46). The government’s
restrictions must “articulate some sensible basis for
distinguishing what may come in from what must stay
out.” Mansky, 138 S.Ct. at 1888. They must also be
reasonable in light of the purpose of the forum and all
the surrounding circumstances. Cornelius, 473 U.S. at
809. Finally, restrictions in a non-public forum must
be viewpoint neutral. Id. at 800, 806.
SEPTA carries the burden of establishing that its
restrictions meet this criteria. Regardless of the type
of forum, in the face of a First Amendment challenge

105a
where “the Government restricts speech, the Government bears the burden of proving the constitutionality
of its actions.” United States v. Playboy Entm’t Grp.,
Inc., 529 U.S. 803, 816 (2000); see also NAACP v. City
of Phila., 834 F.3d 435, 443-44 (3d Cir. 2016) (“NAACP”)
(cited by both parties) (concluding that even in a
limited public or non-public forum, the government
must still prove that its restrictions on speech are
reasonable in light of the purpose of the forum and all
surrounding circumstances).
C. CIR’s Facial Attack on Whether the Challenged Provisions Are Capable of Reasoned
Application Under Mansky
As an initial matter, we examine whether the Challenged Provisions are capable of reasoned application.
We do so with reliance on Mansky, 138 S.Ct. 1876,
where the Supreme Court held that a restriction on
speech in a non-public forum is unreasonable if it does
not “articulate some sensible basis for distinguishing
what may come in from what must stay out.” Id. at
1888. CIR correctly points out that Mansky is not the
first case to address First Amendment challenges to
restrictions on speech that “do not meaningfully
constrain officials’ discretion.” (CIR Post-Trial Br., at
26.) Indeed, the undersigned previously struck down a
Pennsylvania statute against “blasphemy” as violative
of the First Amendment in part because it gave state
officials “unbridled discretion” to determine which
speech did or did not fall within its proscription. See
Kalman v. Cortes, 723 F. Supp. 2d 766, 803 (E.D. Pa.
2010) (Baylson, J.) (citing City of Lakewood v. Plain
Dealer Publ’g Co., 486 U.S. 750, 763 (1988)). However,
this Court focuses its analysis on Mansky here because
it is the most recent and most robust decision on the
subject.

106a
In Mansky, the Supreme Court held that Minnesota’s
statutory prohibition on any person wearing a political
badge, button, or other form of insignia inside a polling
place on Election Day was not capable of reasoned
application and thus violated the First Amendment.
In evaluating the policy, the Supreme Court first held
that a polling place is a non-public forum. Id. at
1886. The Court then determined that Minnesota’s
restrictions on issue-oriented material and material
promoting a group with recognizable political views
were held to be too broad and thus provided
unreasonable discretion to the state’s actors. Id. at
1891. Although “precise guidance [has] never been
required,” Ward v. Rock Against Racism, 491 U.S. 781,
794 (1989), an “indeterminate prohibition carries
with it ‘the opportunity for abuse, especially where it
has received a virtually open-ended interpretation.’
Mansky, 138 S.Ct. at 1891 (quoting Bd. of Airport
Comm’rs of L.A. v. Jews for Jesus, Inc., 482 U.S. 569,
576 (1987)); see also SMART, 698 F.3d at 893 (explaining that “unbridled discretion” challenges should be
“concerned with the extent of the discretion and not
with decisions made within the bounds of properly
vested discretion”). Thus, the government actor’s “discretion must be guided by objective, workable
standards.” Mansky, 138 S.Ct. at 1891.
1. Language That Must be Stricken as
Incapable of Reasoned Application
CIR has presented a facial challenge to the Challenged Provisions on the basis that the second sentence of Subsection (a) and the entirety of Subsection
(b) are incapable of reasoned application.24
24

CIR has not objected to the first sentence of paragraph (a).
CIR styles its challenge as, in part, a “vagueness” challenge. (See

107a
The first provision, Subsection (a), prohibits “advertisements that are political in nature or contain
political messages, including advertisements involving political or judicial figures and/or advertisements
involving an issue that is political in nature in that it
directly or indirectly implicates the action, inaction,
prospective action or policies of a government entity.”
(Trial Ex. 22, at ¶ II(A)(9)(b)(iv)(a).) Based on the
reasoning employed in Mansky, SEPTA’ s prohibition
on advertisements containing political or judicial
figures can be applied in a reasoned manner. However,
the phrase “political in nature,” as well as the latter
clause of that sentence which prohibits “advertisements involving an issue that is political in nature in
that it directly or indirectly implicates the action,
inaction, prospective action or policies of a government
entity,” are significantly less clear. At oral argument
on November 1, 2018, SEPTA indicated to the Court
that it would object to this Court requiring it to delete
this phrase from its policy. (11/01/18 Hearing Tr. at
29:24-30:6.) This Court overrules SEPTA’ s objection,
and in accordance with Mansky, directs SEPTA to
strike these phrases from its policy.
The second Challenged Provision, Subsection (b)
prohibits “[a]dvertisements expressing or advocating
an opinion, position, or viewpoint on matters of public
debate about economic, political, religious, historical
or social issues.” (Trial Ex. 22, at ¶ II(A)(9)(b)(iv)(b).)
CIR Post-Trial Br., at 26) (“[I]t [i]s settled law that restrictions
on speech violate the First Amendment if they are so vague that
they do not meaningfully constrain officials’ discretion.”)).
Because Mansky examines the breath of a policy’s standards in
order to conclude that the policy was not “capable of reasoned
application,” this Court uses similar language here. Mansky, 138
S.Ct. at 1888-90, 92.

108a
The Court finds that “economic, political, religious,
historical or social issues” are clear and discreet
issues, but that the phrase “matters of public debate”
is overly broad. When asked at oral argument about
this, SEPTA said that it would not object to this Court
requiring it to delete the “matters of public debate”
language. (11/01/18 Hearing Tr. at 29:13-17.) CIR,
however, did object, arguing that the proposed
revision would not render the policy any more capable
of reasoned application. (Id. at 30:14-31:3.) (arguing
that if SEPTA removed the phrase “on matters of
public debate,” the standard would remain “hopelessly
vague and capacious”). The Court likewise overrules
these objections. The phrase “matters of public debate”
is simply too broad to pass constitutional muster
under Mansky. Thus, this Court will require SEPTA
to strike the phrase from its policy.
Accordingly, the revised provisions of what is
prohibited under SEPTA’ s policy will read as follows:
(a) Advertisements promoting or opposing a political
party, or promoting or opposing the election of any
candidate or group of candidates for federal, state,
judicial or local government offices are prohibited.
In addition, advertisements that are political in
nature or contain political messages, including
advertisements involving political or judicial figures and/or advertisements involving an issue that
is political in nature in that it directly or indirectly
implicates the action, inaction, prospective action
or policies of a government entity.
(b) Advertisements expressing or advocating an
opinion, position or viewpoint on matters of public
debate about economic, political, religious, historical or social issues.

109a
For the foregoing reasons, and in light of Mansky,
SEPTA has not met its burden of justifying the continuation of the entirety of its advertising restrictions.
Considering CIR’s facial attack, the overly broad
portions of Subsections (a) and (b) must be stricken to
nullify the threat of unfettered discretion on the part
of SEPTA’s decisionmakers. The Court’s changes still
allow SEPTA to exercise control over its advertising
space because the revised provisions make clear that
any ads on “political” issues will be rejected.
As a result, because SEPTA is required to revise its
overly broad language in the Challenged Provisions,
CIR’s other challenges to SEPTA’s advertising
restrictions—both facial and as-applied—must fail.
2. Meet and Confer Requirement
In the past, SEPTA has engaged in a deliberative
process with certain advertisers whose proposed
advertisements were deemed to violate SEPTA’s
Advertising Standards. Benedetti testified that an
advertiser called Fusion once submitted a proposed
advertisement that violated SEPTA’s Standards.
(Trial Tr. at 59:20-60:9.) In response, Intersection and
SEPTA “talked direct[ly] to the folks at Fusion” and
then “Fusion agreed to eliminate those concerns that
[Benedetti] had raised.” (Id. at 60:5-8.) SEPTA then
ran the finalized advertisement. (Id. at 60:9.)
SEPTA’s advertising policy would benefit from a
formalized meet-and-confer program similar to the
deliberative process it undertook with Fusion. At oral
argument on November 1, 2018, SEPTA agreed to add
a formal “meet and confer” program to its Advertising
Standards. (11/01/18 Hearing Tr. at 27:24-28:8.) Thus,
in addition to striking the language the Court has
found vulnerable, the Court will also require SEPTA

110a
to implement a meet-and-confer program for proposed
advertisements that it deems violative of its
Standards. The Court will further require SEPTA to
post notice of the meet-and-confer program, as well as
the rest of its advertising regulations, on its website.
Subject to the order accompanying this Memorandum
Opinion, the Court will allow time for SEPTA to draft
this addition for SEPTA’s website and, after any
comments by CIR, submit it to this Court along with
CIR’ s comments for final consideration and approval.
D. CIR’s Facial Attack on the Restrictions (as to
be Amended)
CIR also argues that the Challenged Provisions are
not reasonable in light of the purpose of SEPTA’s
advertising space. In a non-public forum, the government satisfies its burden of proof by establishing that
a restriction on speech is reasonable “in the light of the
purpose of the forum and all the surrounding
circumstances.” Cornelius, 473 U.S. at 809. While this
standard is subjected to more “exacting review” than
rational-basis scrutiny, NAACP, 834 F.3d at 443, “a
finding of strict incompatibility between the nature of
the speech or the identity of the speaker and the
functioning of the nonpublic forum is not mandated.”
Cornelius, 473 U.S. at 808. Indeed, a governmental
restriction on speech “need not be the most reasonable
or the only reasonable limitation” to satisfy constitutional requirements in a non-public forum. Id. Rather,
the government’s restriction on speech is reasonable if
it is consistent with the government’s legitimate
interest in “preserv[ing] the property under its control
for the use to which it is lawfully dedicated.” Perry, 460
U.S. at 46 (quoting U.S. Postal Serv. v. Council of
Greenburgh Civic Ass’ns, 453 U.S. 114, 129-30 (1981));
see also ISKCON, 505 U.S. at 691-92 (O’Connor, J.,

111a
concurring) (“Although we do not ‘requir[e] that . . .
proof be present to justify the denial of access to a
nonpublic forum on grounds that the proposed use
may disrupt the property’s intended function,’ we have
required some explanation as to why certain speech is
inconsistent with the intended use of the forum.”
(quoting Perry, 460 U.S. at 52 n.12)).
1. NAACP v. City of Philadelphia
The Third Circuit has discussed this heightened
reasonableness test at length in NAACP, 834 F.3d 435.
There, the Third Circuit affirmed Judge Rufe’s grant
of summary judgment in favor of the NAACP because
the City of Philadelphia’s ban on noncommercial
advertisements at the Philadelphia Airport was
unreasonable and violated the First Amendment.
The NAACP had submitted an advertisement
regarding Philadelphia’s high incarceration rates to be
displayed at the airport. Id. at 438. The City rejected
the advertisement because of an informal practice of
only accepting advertisements that proposed a commercial transaction.25 Id. The NAACP then brought a
facial challenge to that policy, arguing that it violated
the First Amendment. Id. In support of its case, the
NAACP deposed the airport’s Deputy Director of
Aviation and Property Management/Business Development, pursuant to Federal Rule of Civil Procedure
30(b)(6). Id. The Third Circuit heavily relied on that
deposition testimony in its opinion affirming summary
judgment.

25

After this suit was filed, the City adopted written policy
proscribing ads that do not propose a commercial transaction. Id.
at 438.

112a
Before delving into the “reasonableness” of the airport’s advertising policy, the Third Circuit addressed
the nature of the advertising forum. In the District
Court, Judge Rufe concluded that the airport’s
advertising space was a limited or non-public forum.
Assuming that conclusion was correct and applying
the burden of proof to the government as this Court
does here, the Third Circuit moved on to examine the
constitutional requirements for restrictions on speech
in a limited or non-public forum. Id. at 444.
The Third Circuit synthesized three Supreme Court
opinions—Cornelius, 473 U.S. 788, United States v.
Kokinda, 497 U.S. 720 (1990), and ISKCON (O’Connor,
J., concurring)—all written by Justice O’Connor, to
define the City’s burden. NAACP, 834 F.3d at 444-45.
Using record evidence or commonsense inferences, the
City had to satisfy a two-step test: (1) given that
reasonableness “must be assessed in the light of the
purpose of the forum and all the surrounding
circumstances,” id. at 445 (quoting Cornelius, 473 U.S.
at 809), the evidence or inferences must allow the
Court to grasp the purpose to which the City has
devoted the forum; and (2) the evidence or inferences
also must provide a way of tying the limitation on
speech to the forum’s purpose. Id. at 445.
The Third Circuit then applied the two-step test,
noting throughout its analysis the lack of record
evidence from the City and its deponent in justifying
the restrictions. The City claimed that the advertising
space had two purposes: revenue maximization and
controversy avoidance. Id. at 448. But because the
record contained no legitimate evidence that the ban
was related to, or would further the goals of, revenue
maximization or controversy avoidance, and because
commonsense inferences could not be drawn, the

113a
Third Circuit found the policy unreasonable in violation of the First Amendment. Id. at 448. Citing Greer
v. Spock, 424 U.S. 828, 836 (1976), the Third Circuit
explained that “although reasonableness review gives
[the City] the discretion to preserve a forum ‘for the
use to which it is lawfully dedicated,’ this presupposes
that [the City] actually has dedicated the property to
that particular use, and we have no evidence that this
occurred here.” NAACP, 834 F.3d at 446. Moreover,
“[t]he only possible basis for an inference [was] general
testimony about the Airport.” Id. at 447. To the extent
the City wished to justify its advertising restrictions
based on its goals for the entire airport, the Third
Circuit explained that it must consider the forum
outside the airport’s advertising space. Id.
Notable to this case, the Third Circuit expressly
held that Lehman did not help the City’s argument
because the City’s deponent disclaimed each of the
factors relevant to Lehman’s holding—minimizing
abuse, avoiding favoritism, not imposing on a captive
audience, and maximizing revenue. Id. at 448. The
Third Circuit was careful to point out that, while
reasonableness requires a case-by-case inquiry, the
interests served by the advertising restrictions in
Lehman—namely the desire not to impose on a captive
audience—were not implicated by the airport’s ban.
Id. at 448 n.6.
In his dissent, Judge Hardiman said that the record
contained sufficient evidence to find the City’s
restrictions were reasonable. Id. at 449-57. Applying a
different burden,26 Judge Hardiman found that the
26

Judge Hardiman explained that a facial challenge to a
governmental policy “is the most difficult challenge to mount
successfully,” and “affects the burden on [the plaintiff].” Id. at 452
(quoting United States v. Mitchell, 652 F.3d 387, 405 (3d Cir.

114a
City’s ban on nongovernmental noncommercial speech
was reasonable in light of the express purpose of
maintaining the airport as a family-friendly or comfortable environment. Id. at 453. Judge Hardiman
distinguished his position from the Majority by
arguing that the Majority confused the purpose of the
forum with the means of achieving that goal. Id. at 453
n.6. Moreover, Judge Hardiman noted that “many
courts that have considered similar dilemmas have
found prohibitions on public transit like the one here
reasonable attempts to keep the peace.” Id. at 454
(citing Lehman, 418 U.S. at 304; SMART, 698 F.3d at
892-94; and Children of the Rosary v. Phoenix, 154
F.3d 972,975,979 (9th Cir. 1998)). The dissent also
disagreed that the “existence of media unconstrained
by the Policy” in the airport should render the City’s
regulation unreasonable. Id. at 454. Judge Hardiman
went on to explain that the City’s restriction likewise
was not viewpoint discriminatory and said that he
would have reversed and entered summary judgment
for the City. Id. at 455-57.
2. Transit Authorities Advertisements as a
Subset of First Amendment Jurisprudence
As noted in NAACP, cases addressing restrictions on
speech in public transit have made special considerations for the nature of the “captive” transit audience.
See, e.g., Lehman, 418 U.S. at 302; id. at 307-08
(Douglas, J., concurring). Indeed, the reasonableness
of a restriction on speech in a non-public forum must
be analyzed in relation to the purpose of the forum and
2011) (en banc)). To succeed in such a challenge, Judge Hardiman
explained that a plaintiff must show “the law is unconstitutional
in all of its applications.” Id. (quoting Wash. State Grange v.
Wash. State Republican Party, 552 U.S. 442, 449 (2008)).

115a
all the surrounding circumstances. Cornelius, 473 U.S.
at 809. The “surrounding circumstances” are especially important in cases involving advertising
on public transportation. It is fundamental that
the inside of a bus is not the same as the inside of a
polling place or even an airport, and cases analyzing
restrictions on speech in public transit spaces constitute a distinct subset of First Amendment jurisprudence that gives transit authorities some leeway
over their non-public forums. Although this Court’s
analysis is not limited to such cases, this Court finds
them particularly applicable because of their analogous sets of facts. Therefore, a review of such decisions, both precedential and nonprecedential, is warranted before continuing to apply the law to the facts
of this case.
3. The Special Circumstances of a “Captive
Audience” on Transit Vehicles
The plurality opinion in Lehman is the only instance
of the Supreme Court addressing advertising
restrictions on public transit vehicles. Under Lehman,
which continues to be oft-cited authority on speech
restrictions on buses despite having been decided
before the Supreme Court’s articulation of First
Amendment forum analysis, a transit authority may
limit advertising content on city buses in part to
minimize the risk of imposing upon a “captive
audience.” 418 U.S. at 304; id. at 307-08 (Douglas, J.,
concurring). The advertisement at issue, which had
been rejected under the transit authority’s standards,
was a campaign advertisement of a candidate for state
representative. Id. at 299. The plurality affirmed the
decision of the Ohio Supreme Court that the
prohibition on political advertisements on city buses
did not violate the First Amendment, and a plurality

116a
of the Supreme Court affirmed. Id. at 304. The City in
charge of the transit system contended that its policy
was adopted to “minimize abuse, the appearance of
favoritism, and the risk of imposing on a captive
audience.” Id. at 304. Even though the City relied
on its policy to prohibit “political and public issue
advertising” on its vehicles, it had allowed advertisements from “churches, and civic and public-service
oriented groups.” Id. at 300-01.
Focusing on the nature of the contested forum—the
advertising space on a public bus—a plurality of the
Supreme Court held that “a city transit system has
discretion to develop and make reasonable choices
concerning the type of advertising that may be displayed in its vehicles.” Id. at 303. This holding was
premised, at least in part, on the “captive” nature of a
“‘streetcar audience[, which] is there as a matter of
necessity, not of choice,’” id. at 302 (quoting Pub. Utils.
Comm’n v. Pollak, 343 U.S. 451, 468 (1952) (Douglas,
J., dissenting)), and the fact that the commercial space
on a public bus is “part of the [city’s] commercial
venture.” Lehman, 418 U.S. at 303. In his concurrence,
Justice Douglas further emphasized the rights of
captive commuters. Id. at 307-08 (Douglas, J.,
concurring). Importantly, Lehman is cited in Mansky
with approval. See Mansky, 138 S.Ct. at 1886.
4. SEPTA as a Government Actor
The parties do not dispute that SEPTA is a
government actor for purposes of a First Amendment
challenge, as judges within the Third Circuit have held
in previous decisions analyzing SEPTA’s restrictions on
speech. See, e.g., Christ’s Bride, 148 F.3d at 247
(citation omitted) (“SEPTA is an ‘agency and instrumentality’ of the Commonwealth of Pennsylvania. . . .
[T]he parties agree that SEPTA is a state actor, as is

117a
its licensee . . . and that their actions are constrained
by the First and Fourteenth Amendments.”); AFDI, 92
F. Supp. 3d at 323 (“It is undisputed that SEPTA is a
state actor.”).
The Third Circuit has also confirmed SEPTA’s
governmental status in the face of constitutional
challenges outside of the First Amendment. See, e.g.,
Ford v. SEPTA, 374 F. App’x 325, 326 (3d Cir. 2010)
(noting, in a race discrimination suit, that the Third
Circuit “ha[s] previously found that SEPTA is a state
actor”); Dykes v. SEPTA, 68 F.3d 1564, 1567 (3d Cir.
1995) (analyzing Fourth and Fourteenth Amendment
challenges brought against SEPTA as if SEPTA were
a government actor).27
Moreover, the Supreme Court and courts in other
circuits have determined that transit authorities
generally qualify as government actors in the context
of First Amendment claims. See e.g., Lebron v. Nat’l
R.R. Passenger Corp., 513 U.S. 374, 400 (1995)
(holding that Amtrak is a government actor for First
Amendment purposes because when “the Government
creates a corporation by special law, for the furtherance of governmental objectives, and retains for itself
permanent authority to appoint a majority of the
directors of that corporation, the corporation is part
of the Government for purposes of the First Amendment”); Archdiocese v. WMATA, 897 F.3d at 324-31
(treating the WMATA, which was created by compact
between Maryland, Virginia, and the District of
27

While SEPTA qualifies as a government actor for certain
constitutional analyses, the Third Circuit has specifically held
that the protections of Eleventh Amendment immunity do not
extend to SEPTA. See Cooper v. SEPTA, 548 F.3d 296 (3d Cir.
2008); Bolden v. SEPTA, 953 F.2d 807, 832 (3d Cir. 1991) (en
banc).

118a
Columbia and was governed by a Board of Directors,
as a government actor for First Amendment purposes);
MBTA, 781 F.3d 571 (defining the MBTA as a government entity for purposes of a First Amendment
analysis); Ne. Pa. Freethought Soc’y, 327 F. Supp. 3d
at 777-85 (analyzing the County of Lackawanna
Transit System’s advertising policies as government
regulations in the face of a First Amendment
challenge).
The Court is therefore satisfied that SEPTA is a
government actor for purposes of this First Amendment challenge. Still, this Court recognizes that
SEPTA is, in fact, a business that has “bottom line”
concerns, which include passenger comfort, driver
safety, and creating an environment where the public
will want to use SEPTA vehicles as a means of
transportation, rather than indoctrination.
5. Decisions on Transit Authorities’ Speech
Regulations in the Third Circuit
Courts in the Third Circuit have previously issued
opinions in four cases involving First Amendment
challenges to advertising restrictions on public transit.
Two of these decisions—Christ’s Bride, 148 F.3d 242,
and AFDI, 92 F. Supp. 3d 314—involved challenges to
SEPTA’s advertising restrictions.28 See supra Part
V.A.1 for a robust discussion of these two cases. Two
others—Pittsburgh League, 653 F.3d 290, and Ne. Pa.
Freethought Soc’y, 327 F. Supp. 3d 767—involved
similar challenges to other transit authorities’ policies.
As addressed supra in Part V.A.1., the only two
cases that have specifically addressed challenges to
SEPTA’s advertising policies have both found SEPTA’s
28

See supra Part V.A.I. for a robust discussion of these cases.

119a
advertising space to be a designated public forum. See
Christ’s Bride, 148 F.3d at 252; AFDI, 92 F. Supp. 3d
at 326.
Not all opinions in this Circuit have found a transit
authority’s advertising space to be a designated
public forum such that strict scrutiny applies to any
restrictions on speech. A recent decision by Judge
Mannion in the Middle District of Pennsylvania found
the advertising space on the County of Lackawanna
Transit System (“COLTS”) buses to be a limited forum.
Ne. Pa. Freethought Soc’y, 327 F. Supp. 3d. at 778.29
Relying on Lehman, and after a hearing and an
assessment of COLTS’s stated intent, policy, and
practices, Judge Mannion held that COLTS’s advertising space was a limited public forum. Id. at 778-81.
Judge Mannion gave weight to the existence of the
policy, stating that “if COLTS requires potential
advertisers to obtain permission, under pre-established
guidelines that impose speaker-based or subjectmatter limitations, it will generally be found that
COLTS intended to create a limited, rather than
designated, public forum.” Id. at 778.
Ultimately, Judge Mannion upheld COLTS’s
restriction on advertisements that were “political or
religious in nature” because it was reasonable and tied
to the purpose of the forum, and because it was
viewpoint neutral. Id. at 782-84. In so concluding,
Judge Mannion rejected the plaintiff’s arguments that
the restriction was unconstitutionally vague and that
the restriction was viewpoint discriminatory because
it favored non-religious/non-atheist speakers over
religious/atheist speakers. Id. at 783-84. Judge
29

As indicated above, this decision is currently on appeal to
the Third Circuit. See supra Part V.A.I.

120a
Mannion explained that a restriction on all speech
related to religion is a content, not viewpoint, based
restriction. Id.
Where a court finds a speech restriction to be
viewpoint-discriminatory, however, it is unconstitutional regardless of whether the transit authority’s
advertising space is a public or non-public forum. In
Pittsburgh League, the Third Circuit held that the
Defendant Port Authority’s rejection of a bus
advertisement educating former prisoners of their
right to vote resulted from an improper exercise of
viewpoint discrimination. The Third Circuit expressly
refrained from undertaking a forum analysis because
it found sufficient evidence for viewpoint discrimination. 653 F.3d at 296. The Port Authority argued that
the contested message violated its prohibitions on
political and noncommercial advertising. Id. However,
the Third Circuit held that the basis for rejection on
“political” grounds was a post hoc rationalization and
otherwise inapplicable to the advertisement, which
did not call on citizens to vote for a specific candidate
or publicly support a certain cause. Id. The Court
likewise dismissed the Port Authority’s “noncommercial” reasoning because the record showed that various
community groups were previously allowed to post
similar advertisements on the buses. Id. at 297-98.
6. Decisions on Transit Authorities’ Speech
Regulations Outside of the Third Circuit
Other circuit courts have likewise addressed
transit-agency policies limiting access to advertising
spaces within their buses, subways, etc. These cases
have consistently held that public transit advertising
speech is a non-public forum and that restrictions on
speech are reasonable.

121a
Most recently, in Archdiocese v. WMATA, the D.C.
Circuit addressed the WMATA’s rejection of a proposal
from the Archdiocese of Washington to place religious
Christmas advertisements on the exterior of WMATA
buses because it violated a prohibition on religious
advertising. The D.C. Circuit held that the advertising
space on the WMATA buses was a non-public forum,
citing Lehman and Cornelius. 897 F.3d at 322-24. The
D.C. Circuit concluded that the advertisement was not
viewpoint discriminatory, and that it was reasonable
in light of the forum, and affirmed the district court’s
denial of a preliminary injunction. Id. at 322-32.
In addition to Judge Goldberg’s decision in AFDI v.
SEPTA, the Sixth Circuit has also addressed a transit
agency’s rejection of a proposed advertisement from
the organization AFDI. See SMART, 698 F.3d 885. In
SMART, AFDI attempted to place an ad stating
“Fatwa on your head? Is your family or community
threatening you? Leaving Islam? Got Questions? Get
Answers! Refugefromlslam.com,” but it was rejected
by the transit agency under its prohibitions on
advertisements that are “political” and are “clearly
defamatory or likely to hold up to scorn or ridicule any
person or group of persons.” Id. at 888-89. The Sixth
Circuit held that the advertising space was a nonpublic forum, and that the restrictions were reasonable. Id. at 890-94. The court additionally held that
“[biased on recent court cases, legislative actions, and
other political speeches, it was reasonable for
SMART to conclude that the content of AFDI’s
advertisement—the purported threat of violence
against nonconforming Muslims in America—is, in
America today, decidedly political.” Id. at 894. Accordingly, the Circuit Court reversed the District Court’s
grant of a preliminary injunction. Id. at 895.

122a
Similarly, in Ridley, the First Circuit addressed a
consolidated appeal involving two decisions by the
Boston public transit agency—one rejecting advertisements about marijuana laws and the other rejecting
advertisements from a church. 390 F.3d at 77. The
marijuana advertisements were rejected because they
promoted the use of marijuana and were “reform” ads
intended to legalize marijuana, putting them “in
conflict with the MBTA’s policies on drugs and alcohol.” Id. at 73. The church advertisements were at first
accepted, but later rejected after the church revised
their language in a way that the transit agency
deemed contrary to its prohibition on advertisements
denigrating particular religious groups. Id. at 75.
Although the First Circuit did not specifically find
that the relevant forum, the advertising space, was a
limited or non-public forum, the Court did hold that it
was “neither a traditional nor a designated public
forum” and evaluated the restrictions for reasonableness in light of the forum and viewpoint neutrality
consistent with Cornelius. Id. at 82. Further, the First
Circuit held that the regulations were facially valid,
but that the transit agency’s rejection of the marijuana
advertisements was unconstitutionally discriminatory
based on viewpoint. Id. at 86-90, 93-96.
7. SEPTA’s Restrictions (as to be Amended)
Are Reasonable in Light of the Purpose of
the Forum
Having considered NAACP and the vast body of
jurisprudence, both precedential and not, discussing
transit authorities’ abilities to restrict access to advertising space, the Court finds that CIR’s facial attack is
valid as to the portions of the existing language that
we are striking, for the reasons discussed supra Part
VII.C. However, with the stricken language removed,

123a
the Court finds that the Challenged Provisions are
now facially valid, reasonable, and constitutional.
Applying the two-step test enunciated in NAACP,
this Court first finds that SEPTA has shown through
record evidence that the purpose of its advertising
space is to “raise revenue independent of the farebox
and taxpayer subsidies and to do so in a manner that
provides for the safety, efficiency and comfort of [its]
passengers.” (Benedetti Dep. at 17:5-10; Trial Tr. at
48:23-49:8 (testifying that SEPTA considers the
importance of advertising revenue as it is balanced
against customer experience).) In addition to
Benedetti’s express statements on the subject, this
purpose is evident from SEPTA’s efforts to close its
advertising forum following Judge Goldberg’s AFDI
decision. At trial, Benedetti explained that while
SEPTA considers the advertising space to be a source
of revenue, “not at the expense of happy customers and
safe customers.” (Trial Tr. at 49:4-8.) Although on
cross-examination, Benedetti stated that SEPTA runs
advertisements “for revenue reasons,” he qualified
that by expressing a goal of not “decreas[ing] the value
that [SEPTA] bring[s] to the customers in moving
them from one place to another,” (id. 68:16-18, and of
not “detract[ing] from [SEPTA’s] core mission of
moving them around safely.” (Id. at 67:25, 68:16-18,
69:2-3; see also id. at 69: 8-11 (stating on crossexamination that SEPTA was “balancing [its]
revenue-generating goals for the ad space against the
customer experience”).) On this basis, and considering
SEPTA’s very serious post-AFDI experience, as
discussed in this Memorandum, the Court finds
sufficient evidence to ascertain that SEPTA has
dedicated the advertising space in its buses to revenue

124a
generation within important considerations of a safe,
efficient, and comfortable customer experience.30
Turning to the second step of the NAACP test, this
Court finds that SEPTA has sufficiently shown that
the Challenged Provisions (as to be amended) are tied
to the purpose of the advertising space. See NAACP,
834 F.3d at 445. The record here does not suffer from
the same insufficiencies that the Third Circuit focused
on in NAACP. Rather, Benedetti specifically testified
that the Standards were adopted largely due to
“public outcry” about a problematic advertisement31
that ran on its buses in 2014. (Trial Tr. at 46:25.) The
advertisement caused “concern” among SEPTA’s
employees and customers, resulted in vandalism on
buses, and required SEPTA to rearrange bus operators’ schedules after certain drivers objected to
operating buses that displayed the advertisement. (Id.
30

The Court is satisfied that this is a legitimate goal of
SEPTA’s advertising program, especially considering that the
Lehman plurality upheld similar goals of “minimize[ing] chances
of abuse, the appearance of favoritism, and the risk of imposing
upon a captive audience.” 418 U.S. at 304. Even if the Court were
to find—and the Court does not—that SEPTA’s purpose, as
expressed in the record and above, implicates SEPTA’s goals for
the operation of its public buses overall, see NAACP, 834 F.3d at
447, this Court’s reasonableness analysis remains unchanged.
There is no evidence in the record, nor can this Court draw any
commonsense inferences, that SEPTA allows disruptive speech to
go unregulated in the spaces it controls inside its buses.
31

That advertisement stated, in relevant part, “Islamic Jew–
Hatred: It’s in the Quran. Two Thirds of All U.S. Aid Goes to
Islamic Countries. Stop the Hate. End All Aid to Islamic Countries.” AFDI, 92 F. Supp. 3d at 320. “The advertisement also
contain[ed] a picture of Adolf Hitler meeting with Haj Amin alHusseini, with the caption, ‘Adolf Hitler and his staunch ally, the
leader of the Muslim world, Haj Amin al-Husseini.’“ Id. (citation
omitted).

125a
at 47:6-9, 47:18-20, 48:6-11.) That situation clearly
disrupted SEPTA’s ability to provide a safe, comfortable and efficient customer experience, to say nothing
of the commonsense inferences that can be drawn
from how vandalism, plus customer and employee
unrest, could affect SEPTA’s ability to attract passengers, advertising revenues, farebox revenues, and
overall operating expenditures. After the experience,
SEPTA adopted the Challenged Provisions with
advice from counsel and by reference to Judge
Goldberg’s decision in AFDI, 92 F. Supp. 3d 314, as
well as by reference to standards implemented by
other transit authorities. (Trial Tr. at 45:10-15, 46:916.) SEPTA drafted the Standards so as to close the
forum and add “prohibitions on political ads and ads
that sought to seek government action of some sort
and ads that were matters of public debate.” (Id. at
46:19-22.)32
The Challenged Provisions (as to be amended) are
thus not only related to the goal of revenue generation
balanced along with the customer experience, but they
were also implemented for the express purpose of
remedying a former policy that put that goal in
jeopardy. (See Trial Tr. at 48:14-21 (acknowledging
that the advertising restrictions were amended “to
avoid a recurrence of those kinds of episodes”).) The
First Amendment reasonableness inquiry does not
require that SEPTA’s restrictions be “the most reasonable or the only reasonable limitation.” Cornelius,
32

Although the Court has stricken certain language for being
incapable of reasoned application, see supra Part VII.C, the Court
concludes that the remaining language in the Challenged Provisions is tied to SEPTA’s purpose of maintaining its advertising
space for revenue generation as balanced against customer
safety, comfort, and efficiency.

126a
473 U.S. at 808. SEPTA’s experience with the AFDI
advertisement, as shown through record evidence and,
to a lesser extent, commonsense inferences, provides
more than enough justification to tie SEPTA’s
implementation of the Challenged Provisions to the
lawful purpose of its advertising forum. In light of the
“captive” nature of passengers on a public bus and the
narrow body of First Amendment jurisprudence
specific to transit authorities, the Court finds SEPTA’s
Challenged Provisions, as to be amended, reasonable.
E. Content-Based,
Viewpoint
Neutral
Restrictions of Advertisements in Transit
Vehicles Do Not Offend the First
Amendment
The parties do not dispute that the Challenged
Provisions are content-based. The Court must determine whether these content-based restrictions are
viewpoint discriminatory on their face, or as applied
by SEPTA in rejecting CIR’s ad. Based on the foregoing discussion, the Court concludes that SEPTA’s
Challenged Provisions are not viewpoint discriminatory on their face, and that SEPTA did not engage in
viewpoint discrimination in rejecting CIR’s ad.
Content-based restrictions on speech are constitutional so long as they are reasonable in light of the
purpose of the forum and are viewpoint neutral. See
NAACP, 834 F.3d 441 (“Content-based restrictions are
valid as long as they are reasonable and viewpoint
neutral.”); see also Cornelius, 473 U.S. at 806 (1985)
(“[T]he government violates the First Amendment
when it denies access to a speaker solely to suppress
the point of view he espouses on an otherwise
includible subject.”).

127a
A restriction is content-based “if a law applies to
particular speech because of the topic discussed or the
idea or message expressed.” Reed v. Town of Gilbert,
Ariz., 135 S.Ct. 2218, 2227 (2015).33 Accordingly, “a
speech regulation targeted at specific subject matter is
content based even if it does not discriminate among
viewpoints within that subject matter.” Id. at 2230.
“For example, a law banning the use of sound trucks
for political speech . . . would be a content-based
regulation, even if it imposed no limits on the political
viewpoints that could be expressed.” Id. (citing
Cincinnati v. Discovery Network, Inc., 507 U.S. 410,
428 (1993)); see also Ne. Pa. Freethought Soc’y, 327 F.
Supp. 3d at 783-84 (finding that a transit authority’s
advertising policy, which restricted “all speech related
to religion,” “[wa]s a content, not viewpoint, based
restriction.”).
Content-based restrictions must be viewpoint neutral even in a non-public forum, as is the case here. See
Pittsburgh League, 653 F.3d at 296 (“Viewpoint
discrimination is anathema to free expression and is
impermissible in both public and nonpublic fora”
(citing R.A.V. v. City of St. Paul, 505 U.S. 377, 382
(1992))); see also Cornelius, 473 U.S. at 811 (“The
existence of reasonable grounds for limiting access to
a nonpublic forum . . . will not save a regulation

33

This Court notes that Reed clarified the scope of contentbased restrictions and the strict scrutiny that applies to such
restrictions in a public forum. 135 S.Ct. at 2227. The Court
further notes that the Third Circuit has applied that clarification
in a previous case before the undersigned. See Free Speech Coal.,
Inc. v. Att’y Gen. U.S., 825 F.3d 149, 160 (3d Cir. 2016). Because
the Court has determined that strict scrutiny is not the appropriate test in SEPTA’ s non-public forum, the Court does not find
these cases applicable here.

128a
that is in reality a facade for viewpoint-based
discrimination.”).
A content-based restriction is viewpoint discriminatory, or not viewpoint neutral, when the government
“targets . . . particular views taken by speakers on a
subject.” Pittsburgh League, 653 F.3d at 296 (quoting
Rosenberger, 515 U.S. at 829). In other words,
although the government may restrict speech to a
particular subject matter, “[t]he First Amendment forbids the government to regulate speech in ways that
favor some viewpoints or ideas at the expense of
others.” Matal v. Tam, 137 S.Ct. 1744, 1757 (2017)
(quoting Lamb’s Chapel v. Ctr. Moriches Union Free
School Dist., 508 U.S. 384, 394 (1993)). In all forums,
including non-public forums, the protections of the
First Amendment apply. NAACP, 834 F.3d at 443.
Content-based restrictions are distinct from
viewpoint-based restrictions, which are impermissible
in any forum. See Rosenberger, 515 U.S. at 829-30
(“[W]e have observed a distinction between, on the one
hand, content discrimination, which may be permissible if it preserves the purposes of that limited forum,
and, on the other hand, viewpoint discrimination,
which is presumed impermissible when directed
against speech otherwise within the forum’s limitations.”); AFDI, 92 F. Supp. 3d at 324, 328 (distinguishing between content-based and viewpoint-based
restrictions and concluding that “regardless of the
forum’s classification, viewpoint based restrictions are
unconstitutional”). The level of scrutiny applicable to
content-based restrictions depends on the forum.
Content-based restrictions in a traditional or designated public forum are presumptively invalid and are
subject to strict scrutiny. Id. at 328. However, in a
non-public forum, as is the case here, content-based

129a
restrictions are permissible “so long as the distinctions
drawn are reasonable in light of the purpose served by
the forum and are viewpoint neutral.” Cornelius,
473 U.S. at 806. The government bears the burden of
demonstrating that the distinctions drawn in a
content-based regulation are viewpoint neutral and
reasonable in light of the purpose of the forum. See
Id.34
As the Court has concluded that the advertising
space on SEPTA buses is a non-public forum, the
Challenged Provisions are constitutional if the
restrictions are reasonable in light of the purpose of
the forum and are applied in a viewpoint neutral
manner. The Court addresses CIR’s arguments that
the Challenged Provisions are viewpoint discriminatory on their face and as applied in turn.
1. SEPTA’s Restrictions (as to be Amended)
Are Viewpoint Neutral on Their Face
CIR contends that the Challenged Provisions, even
as to be amended, are viewpoint discriminatory on
their face. (See 11/01/18 Hearing Tr. at 10:11-12.)
CIR’s arguments do not account for the Court’s determination, as discussed above, that parts of the Challenged provisions violate Mansky and must be
amended. See supra Part V.C.1.
SEPTA contends that the Challenged Provisions are
viewpoint neutral, arguing that even if its regulations
“incidentally prevent[] certain viewpoints from being
34

The Court notes, as discussed supra Part VII.B, that SEPTA
bears the burden of proving the constitutionality of the Challenged Provisions both on their face and as applied regardless of
the forum. See Playboy Entm’t Grp., 529 U.S. at 806 (“When the
Government restricts speech, the Government bears the burden
of proving the constitutionality of its actions.”).

130a
heard in the course of suppressing certain general
topics of speech,” they are not unconstitutional
because it is not “[SEPTA’s] intent to intervene in a
way that prefers one particular viewpoint in speech
over other perspectives on the same topic.” (SEPTA
Post-Trial Br. at 35) (quoting MBTA, 781 F.3d at 587.)
SEPTA has shown that the Challenged Provisions
do not prohibit ads taking a position on “matters of
public debate” because of the viewpoint expressed.
Rather, SEPTA restricts all “political” ads as well as
ads expressing any viewpoint on “economic, political,
religious, historical, or social issues.” Just as in
Northeastern Pennsylvania Freethought Society,
where Judge Mannion found that a transit system
ad policy that restricted all speech related to religion
was a viewpoint-neutral, content-based restriction,
SEPTA’s policies are similarly content-based and
viewpoint neutral. See Ne. Pa. Freethought Soc’y, 327
F. Supp. 3d at 783 (citing Rosenberger, 515 U.S. at 82930).
Further, with respect to CIR’s contention that
“matters of public debate” is akin to “controversy,” the
Third Circuit has stated that the Government, “under
the right circumstances,” may “dedicate a limited
public or nonpublic forum to controversy avoidance.”
NAACP, 834 F.3d at 446. In the transit context, the
Supreme Court has concluded that a ban on political
ads is permissible if it is a “managerial decision” aimed
at increasing revenue by limiting ad space “to
innocuous and less controversial commercial and service oriented advertising.” Lehman, 418 U.S. at 304.
The fact that the Challenged Provisions, by rejecting
ads that are “political” or express or advocate
an “opinion, position, or viewpoint on economic,
religious, historical, or social issues,” inevitably

131a
exclude arguably more controversial ads, does not
mean that SEPTA seeks to avoid controversy. Further,
as the Court has stricken language from Subsection (a)
and the phrase “matters of public debate” from
Subsection (b), the Court need not address whether
the Challenged Provisions, in their original form,
improperly prohibited controversial speech. Even if
SEPTA sought to avoid controversy by enforcing the
Challenged Provisions in the past, that fact is not
determinative.
2. SEPTA’s Restrictions
Neutral as Applied

are

Viewpoint

The only challenges CIR brings against the Challenged Provisions as applied pertain to viewpoint
discrimination. CIR contends that SEPTA has applied
the Challenged Provisions in a viewpoint discriminatory manner in two ways: (1) SEPTA has applied
subpart (a) to prohibit ads seeking to change government programs/policies, while permitting ads
promoting government programs/policies; and (2)
SEPTA approved ads from “equal housing lender”
banks, but rejected CIR’s ad on the same topic of
“discriminatory lending” because of the ad’s viewpoint.
(CIR Post-Trial Br., at 35-36.)
In response, SEPTA contends that it did not view
the bank ads as addressing the same subject matter as
CIR’s proposed ad. (SEPTA Post-Trial Br., at 35.)
Rather, SEPTA avers that the proposed bank ads
“appeared only to serve the promotional objective of
generating business from persons who read the ad.”
(Id.) According to SEPTA, it was reasonable for
SEPTA to conclude that ads from “equal housing
lender” banks did not pertain to discriminatory
lending because the ads did not acknowledge a debate
or present data on discriminatory lending, and they

132a
did not address the disposition of loan applications
by race, neighborhood, or otherwise. (Id. at 35-36.)
SEPTA further distinguishes these bank ads from
CIR’s proposed ad by contending that the bank ads
“look forward, not back. The ads are designed to foster
future borrowing; they do not address past lending
practices.” (Id. at 36.)
The Court agrees with SEPTA and concludes that
SEPTA did not apply the Challenged Provisions in a
viewpoint discriminatory manner. SEPTA reasonably
viewed CIR’ s ad as falling within the prohibition
against ads expressing a viewpoint about economic,
political, religious, historical or social issues. Further,
SEPTA has shown that it does not reject certain
“political” ads or ads taking a position on “matters of
public debate” because of the viewpoints expressed.
The Court concludes that SEPTA did not reject
CIR’s ad because of its viewpoint, but because it fell
into one of the content categories that SEPTA determined it would not accept—either political, economic,
or social—or all of them. In other words, SEPTA has
demonstrated that it rejected CIR’s ad because it was
related to an impermissible topic.
a. SEPTA’s Acceptance of Public-Service
Advertisements
CIR contends that SEPTA has accepted several ads
from governmental entities that are also “political in
nature” and “involv[e] an issue that . . . directly
or indirectly implicates the action, inaction, prospective action or policies of a government entity,” and
that SEPTA rejected CIR’s ad because of its “political”
viewpoint. (CIR Post-Trial Br., at 15-16.) The “public
service” ads that SEPTA accepted have been submit-

133a
ted in this case by CIR or SEPTA include the following
exhibits:
Trial Ex. 43: Center for Disease Control ad
stating, “Help him fight measles with the
most powerful defense. Vaccines.”
Trial Ex. 44: City of Philadelphia ad stating,
“Your landlord must ensure your home is
safe. . . . If your landlord has not given you
lead paint safety information, Call 311 or
Visit Phila.Gov/LeadHealthyHomes.”
Trial Ex. 45: Philadelphia Department of
Labor ad stating, “Employee or Contractor.
Knowing the difference benefits you[,]” and
promoting a government website informing
the public about their legal rights.
Trial Ex. 46: Montgomery County Health
Department ad stating, “Employers must provide a reasonable break time for an employee
to express breast milk for her nursing child
for one year after the child’s birth, as well as
a private place to do so[,]” and directing
viewers to visit a government website for
more information.
Trial Ex. 47: Commonwealth of Pennsylvania
ad stating, “Wanted by law enforcement?
Tired of running? Surrender & see favorable
considerations. SAFE RETURN.”
Trial Ex. 49: City of Philadelphia ad including
the City’s “bold goal of becoming a 90% zero
waste AND litter-free City by 2035[,]” and
stating that “[t]he vision for a zero waste and
litter-free City starts with one” and “it starts
with you.”

134a
Trial Ex. 50: City of Philadelphia Department
of Public Health ad stating, “Saving a Life
Can Be this Easy,” “Carry Naloxone (Narcan),”
and “Prevent Opioid Overdose.”
Trial Ex. 51: Philadelphia FIGHT Community Health Center ads stating, “Have you or
someone you know been impacted by mass
incarceration? Find out how to fight for your
rights, and for the rights of your family,
friends and community members.” The ads
depict wrists in handcuffs behind bars, a
heart behind bars, and two people speaking
on a telephone in a prison visitation room.
Trial Ex. 58: Philadelphia Department of
Health ad stating, “Same Room. Different
Beds. Better Rest for All[,]” and directing
viewers to a website, “SafeSleepPhilly.org.”
The Court disagrees that these ads are analogous to
CIR’s ad. SEPTA reasonably concluded CIR’s ad, by
suggesting that lending practices are discriminatory
in violation of the law, was content about one of the
issues that SEPTA has prohibited. Unlike CIR’s ad,
which promotes CIR’s research and informs viewers
that the banks that issued their home mortgages may
be charging some borrowers more interest than others,
because of race, the comparator ads are public service
ads that merely inform views of their rights, the
services available to them, or the City’s objectives.
This is true even of the FIGHT ads, which CIR
highlights. (See Mot. for Prelim. Inj., at 29; CIR PostTrial Br., at 15.) The FIGHT ads inform viewers
of their rights with respect to so-called “massincarceration.” SEPTA is entitled to discretion in such
borderline cases. See SMART, 698 F.3d at 893 (holding
that a transit authority’s advertising policy that

135a
prohibited “[p]olitical or political campaign advertising” was viewpoint neutral, and noting that “merely
because it is sometimes unclear whether an ad is
political does not mean the distinction cannot be
drawn in the case of a nonpublic forum. The holding in
Lehman demands that fine lines be drawn. Otherwise,
as a practical matter, a nonpublic forum could never
categorically exclude political speech.”).
This Court’s conclusion is consistent with Lehman,
where a plurality of the Supreme Court upheld an
advertising policy that permitted ads from publicservice oriented groups and prohibited political advertising. 418 U.S. at 304. Though Lehman did not
expressly address viewpoint discrimination, the
Supreme Court did conclude that “the managerial
decision” to limit ad space “to innocuous and less
commercial and service oriented advertising does not
rise to the dignity of a First Amendment violation.” Id.
Just as in Lehman, where the Supreme Court held
that it was constitutional for a city transit system to
prohibit political ads and permit public-service ads,
this Court concludes that SEPTA’s rejection of CIR’s
ad and accepting the public-service ads was
constitutional.
CIR also contends that the public service ads above
reflect a viewpoint on a matter of public debate in
violation of Subsection (b) such that SEPTA’s
acceptance of these ads and rejection of CIR’s ad
amounts to viewpoint discrimination. (CIR Post-Trial
Br., at 16.) However, the Court finds that these ads are
similarly distinguishable from CIR’s ad under Subsection (b). Though these ads may address “matters of
public debate,” unlike CIR’s ad, they do not “express[]
or advocat[e] an opinion, position, or viewpoint on
matters of public debate.” See ACLU v. WMATA, 303

136a
F. Supp. 3d 11,26-27 (D.D.C. 2018) (concluding that a
transit authority’s removal of ads promoting a political
book because they violated a policy banning ads
“intended to influence members of the public regarding issues on which there are varying opinions” or
“intended to influence public policy” was not viewpoint
discrimination, and noting that “[t]he fact that the
content of an advertisement touches on matters of
public prominence does not establish that the
advertisement is intended to persuade or influence
members of the public regarding those matters”).
b. SEPTA’s Acceptance of Bank Advertisements is Not Accepting Viewpoint
Advertisements and SEPTA’s Rejection of CIR’s Advertisements was
Reasonable
The Court concludes that SEPTA has shown that it
did not reject CIR’s ad and accept the bank ads based
on the viewpoints the ads expressed on discriminatory
lending. SEPTA has shown that it reasonably rejected
CIR’s ad under Subsection (b) because of the viewpoint
it expressed on a prohibited topic. Therefore, SEPTA
did not violate the First Amendment by rejecting CIR’s
ad.
CIR contends that because each bank ad35 identified
the bank as an “Equal Opportunity Lender” or “Equal
Housing Lender,” they expressed a viewpoint on
discriminatory lending. (See CIR Post-Trial Br., at 1819.) However, the banks ads that CIR cites were
required by law to indicate by a logotype that the
banks were equal opportunity lenders or equal

35

The Court refers to the description of the bank ads set forth
earlier in this Opinion. See supra Part VII.E.2.a.

137a
housing lenders. The Code of Federal Regulations
governing Nondiscriminatory Advertising, 12 C.F.R.
§ 338.3(a) (2005), requires banks to include in their
ads a “logotype” to this effect.36
Although CIR does not dispute that its ad reflects
a viewpoint on discriminatory lending, the Court
concludes that the bank ads do not. Just because the
bank ads, as required by law, contain a logotype that
the banks are equal opportunity lenders, and
depict both Caucasian and non-Caucasian customers,
does not mean that the ads are expressing a viewpoint
on discriminatory lending practices. Accordingly,
although CIR’s ad reflects a viewpoint on discriminatory lending, SEPTA’s acceptance of the bank ads and
rejection of CIR’s ad do not amount to contradicting
decisions. The bank ads did not advocate any
viewpoint on discriminatory lending.
Neither party, nor the Court, has identified any
Third Circuit or Supreme Court opinions holding that
an advertiser states a “viewpoint” on a topic, such as
discriminatory lending, by indicating in the ad, as
required by law, that it complies with the law.
However, other courts have distinguished ads that
promote goods or services, like the bank ads, from ads
like CIR’ s, which “focus on convincing the reader to
take sides in a[] moral or public debate.” See ACLU v.
WMATA, 303 F. Supp. 3d at 26 (distinguishing ads
promoting the availability of goods or services
advertised from Milo Yiannopoulous ads promoting a
political book, which violated transit authority prohibition on ads “intended to influence members of the
public regarding issues on which there are varying
opinions” or “intended to influence public policy”).
36

See supra note 20.

138a
The Court finds that SEPTA’s bank ads are, as is
obvious from their language, designed to secure loan
business from a number of banks that do business in
the Philadelphia area. No party introduced any direct
evidence from a representative of any of these banks,
but the Court can make certain inferences and findings from the content of the ads, other testimony
introduced in the trial record as to SEPTA’s practices
with regard to ads, and the type of advertisers who
advertise on the interior of SEPTA buses. These bank
ads are commercial—they were placed by business
entities, the banks, to promote their lending businesses. They do not state any viewpoint on any matter
pertaining to politics or economics or social issues.
Each bank ad is simply a straightforward invitation to
SEPTA bus passengers to inquire about the bank’s
loan rates in the hope that a passenger will use that
bank to provide the mortgages which most people need
to purchase a home.
Philadelphia is one of the largest cities in the United
States and is blessed with many hardworking, law
abiding families who contribute to the economic
welfare of the entire city and related areas. Many of
them are interested in buying a home and can
afford to do so. Philadelphia has a strong middle class,
with a large percentage of homeowners, who live in
many demographically diverse neighborhoods. There
are many more racially diverse neighborhoods in
Philadelphia at the present time than in the prior fifty
to sixty years, and this is a trend that is continuing.37
37

The city of Philadelphia has experienced an increase in
home sales, and homeownership rates for the Philadelphia metropolitan region are stable with approximately 65% of residents
occupying a home they own. A map published by the Urban
Institute shows that Philadelphia has a higher rate of black

139a
Many people ride buses to work, for school, social
life, or sports events. For some, a bus is the most
convenient. There is nothing in the record to detract
from the concept that although a bus passenger is
voluntarily riding on a bus, it may realistically be their
only way of getting to a particular place, whether it is
work, education, sporting events, etc. Banks have
concluded, by advertising on SEPTA, that SEPTA
passengers are overall a good loan risk, and by these
ads the banks are soliciting their business. SEPTA has
reasonably concluded the bank ads do not contain
content which SEPTA prohibited in subparagraph (b).
The Court cannot criticize SEPTA’s business policy
of accepting ads from banks that promote bank
services. The Court therefore will not force on SEPTA
the additional “cost” of requiring it to take ads from
CIR which attack lending practices of banks as
racially discriminatory. By accepting these bank ads,
SEPTA has not “opened the door” to an ad that
undisputedly expresses a viewpoint on discriminatory
homeownership than other parts of the country. See Mapping
Philly’s black homeownership gap, PLANPHILLY WHYY (March 6,
2018) http://planphilly.com/articles/2018/03/06/mapping-philly-sblack-homeownership-gap. This information may explain, in
part, the reason for local banks advertising their mortgage
lending services to SEPTA riders, who we can logically assume
are a fair cross section of the city’s racially diverse population.
See Philadelphia 2018: The State of the City, PEW CHARITABLE
TRUSTS at https://www.pewtrusts.org/-/media/assets/2018/04/
philly_sotc_2018.pdf (last visited November 26, 2018); see also
Housing Vacancies and Homeownership (CPS/HVS) Annual
Statistics: 2017 (Including Historical Data by State and MSA)
(Table 16), UNITED STATES CENSUS BUREAU https://www.census.
gov/housing/hvs/data/annl7ind.html (last visited November 26,
2018). It is, of course, true that some of the SEPTA buses in which
the ads appear serve suburban areas which are not as racially
diverse.

140a
lending, such as the ad proposed by CIR. SEPTA has
not endorsed or permitted a forum to address
discriminatory lending by accepting the bank ads.
Racial discrimination in lending by banks subject to
federal or state law is illegal and abhorrent. However,
there is no evidence supporting CIR’s contention that
SEPTA must consider these bank ads as expressing
a viewpoint on discriminatory lending such that
SEPTA’s acceptance of these ads required SEPTA to
also accept the proposed CIR ad. If CIR’s argument
were valid, SEPTA’s acceptance of ads from frequent
commercial advertisers such as educational institutions and social service agencies, which regularly
appear on SEPTA buses, would require SEPTA to
accept all ads accusing these advertisers of racial
discrimination, thus turning its advertising space into
a “traveling arena” for combative attacks on SEPTA’s
commercial advertisers.
The Court considers SEPTA acted reasonably in
rejecting the CIR ad because it stated a viewpoint on
an impermissible topic and was not responding to any
other ad reflecting a viewpoint on the same topic.
In considering available advertising space, in our
contemporary times, one must also consider the vast
“digital solar system” that is open to virtually anyone
who sets up their own internet site or “domain” and,
within very broad bounds, advertises on social media
outlets.
As noted above, a number of precedents in courts
around the country have approved transit regulations
that limit permissible ads to “commercial” ads—but
SEPTA has good reason for not using the term
“commercial.”

141a
VIII. CONCLUSION
For reasons discussed above, the Court finds that
CIR has succeeded in arguing that certain portions of
the Challenged Provisions are incapable of reasoned
application. Because this Court has ordered SEPTA to
revise the overly broad language, CIR’s other
challenges to SEPTA’s advertising restrictions—both
facial and as-applied—must fail.
Perfection in the exercise of judgment is a human
goal that few humans, including very few if any
judges, will ever achieve. The Court concludes that
SEPTA’s policy, as to be amended, effectively permitting advertisements that are commercial or that
promote public services, but rejecting ads on political,
economic, historical, religious, or social issues, is
constitutional.

142a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CIVIL ACTION NO. 18-1839
————
THE CENTER FOR INVESTIGATIVE REPORTING
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
ORDER
AND NOW this 28th day of November, 2018,
based on the foregoing Memorandum, it is hereby
ORDERED:
Before entering a final judgment, the Court will
require SEPTA to propose specific language, adding a
“meet and confer” provision to its advertising standards, and agreeing to post the standards on its website. SEPTA shall draft and forward to Plaintiff’s counsel, within ten (10) days, its proposal. CIR shall
serve any comments to SEPTA within seven (7) days,
and no later than December 19, 2018, the parties shall
file either a joint proposed final judgment, or separate
proposals for the Court’s consideration.
BY THE COURT:
/s/ Michael M. Baylson
MICHAEL M. BAYLSON, U.S.D.J.

143a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
Civil Action No. 18-1839
————
THE CENTER FOR INVESTIGATIVE REPORTING
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
FINAL JUDGMENT AND DECREE
AND NOW, this 20th day of December, 2018, for the
reasons set forth in the Court’s Memorandum Opinion
of November 28, 2018 (ECF 55), this Court finds that
Defendant Southeastern Pennsylvania Transportation Authority (“SEPTA”) acted reasonably in the
application of its Advertising Standards and in rejecting the advertisement submitted by Plaintiff The
Center for Investigative Reporting (“CIR”). This Court
further holds that portions of SEPTA’s Advertising
Standards are overbroad and must be stricken to nullify the threat of unfettered discretion on the part of
SEPTA and that SEPTA’s policy in its Advertising
Standards, as revised, effectively permitting advertisements that are commercial or that promote public
services, but rejecting ads on political, economic,
historical, religious, or social issues, is constitutional.
Accordingly, it is hereby ORDERED that:

144a
1. Defendant SEPTA is directed to revise its
Advertising Standards (Trial Ex. 22, at II(A)(9)(b)(iv)(a)
& (b)) as follows:
(a) Advertisements promoting or opposing a
political party, or promoting or opposing
the election of any candidate or group of
candidates for federal, state, judicial or
local government offices are prohibited. In
addition, advertisements that are political
in nature or contain political messages,
including advertisements involving political or judicial figures and/or advertisements involving an issue that is political
in nature in that it directly or indirectly
implicates the action, inaction, prospective action or policies of a government
entity.
(b) Advertisements expressing or advocating
an opinion, position or viewpoint on
matters of public debate about economic,
political, religious, historical or social
issues.
2. SEPTA is directed to include or append a
formalized meet-and-confer program in or to its
Advertising Standards as follows:
If SEPTA determines that a proposed
advertisement is prohibited under one or
more of the categories in subsection 9(b)(iv),
the party or parties proposing the advertisement may request that SEPTA reconsider its
determination. Upon receiving such request,
SEPTA’s General Counsel or his or her
designee will offer to meet and confer with the
party or parties proposing the advertisement,

145a
to be conducted by telephone or as SEPTA
and the proposing party may otherwise
agree, in a reasonable effort to revise the
proposed advertisement to make it comply
with SEPTA’s Advertising Standards.
The Court further directs that SEPTA’s Advertising
Standards, as revised, be posted on its website.
3. With respect to the facial First Amendment
challenge of plaintiff , the court enters judgment for
plaintiff, in part, and for defendant, in part. With
respect to the as-applied First Amendment challenge
of plaintiff, the Court enters judgment for defendant.
4. CIR shall submit any application for fees and
costs pursuant to 42 U.S.C. § 1988 or any other
provision of law or any motion for extension of time to
file such an application within fourteen (14) days of
entry of this Order.
5. The Plaintiff’s Motion to Compel (ECF 30) is
hereby DENIED as MOOT.
BY THE COURT:
/s/ Michael M. Baylson
MICHAEL M. BAYLSON
United States District Court Judge

146a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
[Filed September 25th, 2018]
————
CIVIL ACTION NO. 18-1839
————
THE CENTER FOR INVESTIGATIVE REPORTING
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
MEMORANDUM RE: MOTION FOR
PRELIMINARY INJUNCTION
I. Introduction
Plaintiff, The Center for Investigative Reporting
(“CIR”), has moved for a preliminary injunction to
enjoin Defendant, the Southeastern Pennsylvania
Transportation Authority (“SEPTA”), from enforcing
two specific advertising standards. CIR sought to
purchase advertising space in and on SEPTA buses to
display its journalistic comic strip about disparate
lending practices. The advertisement was rejected on
the basis of SEPTA’s standards at issue—specifically,
because it constituted a “political” advertisement and
expressed a position on a “matter[] of public debate.”
For the following reasons, the motion is denied
without prejudice.

147a
II. Summary of CIR’s position
a. Facts alleged in the Complaint and/or
Motion for a Preliminary Injunction
CIR is a nonprofit investigative news organization
that, through its division called “Reveal,” investigated
and published a report about racial disparities in the
conventional home mortgage market. (Pl.’s Memo in
Support of Mot., ECF 20-1 at 5, 14) (hereinafter
“Mot.”). CIR created a ten-panel comic strip based on
that report and, in January 2018, applied to have an
advertisement derived from the comic placed on the
interior advertising spaces of SEPTA buses. (Id. at 14–
15). CIR states that it “believed that advertising
on SEPTA’s vehicles, which move through many
neighborhoods, offered a rare opportunity to reach
interested readers all across the city, including but
not limited to those affected by the lending disparities
its investigation had uncovered.” (Id. at 15). After
reviewing the comic strip, SEPTA’s licensee, Intersection (formerly Titan Outdoor, LLC), which manages
SEPTA’s advertising program, informed CIR that
SEPTA would not accept the advertisement because
“disparate lending is a matter of public debate and
litigation.” (Id. at 8–9, 15; id. Ex. 30, at 1). On
February 21, 2018, SEPTA rejected CIR’s advertisement under its “2015 Advertising Standards,” which
read in relevant part:
Prohibited Advertising Content. Advertising
is prohibited on transit facilities, products
and vehicles if it or its content falls into one
or more of the following categories –
(a) Advertisements promoting or opposing a
political party, or promoting or opposing
the election of any candidate or group of

148a
candidates for federal, state, judicial or
local government offices are prohibited. In
addition, advertisements that are political
in nature or contain political messages,
including advertisements involving political or judicial figures and/or advertisements involving an issue that is political
in nature in that it directly or indirectly
implicates the action, inaction, prospective action or policies of a government
entity.
(b) Advertisements expressing or advocating
an opinion, position or viewpoint on
matters of public debate about economic,
political, religious, historical or social
issues.1
CIR filed its Complaint for a violation of the First
Amendment right to freedom of speech on May 2,
2018. (Compl., ECF 1). The Motion for Preliminary
Injunction was filed on August 17, 2018. (Pl. Mot. for
Prelim. Inj., ECF 20). The Court allowed limited
discovery prior to the hearing on the Motion for
Preliminary Injunction. During the deposition of
Gino Benedetti, Esq., SEPTA’s General Counsel and
30(b)(6) witness, Benedetti stated that he had “particular concern” about two of the panels—one that
displayed “a white hand handing keys and a stick of
dynamite to a black hand,” and one that displayed
“African-Americans holding signs protesting . . . and a
white guy not part of the protest.” (Benedetti Dep.
1

Plaintiff’s counsel stipulated that CIR has no objection to the
first sentence of Subsection (a). (9/14/18 Hearing Tr. at 72:13-15).
Plaintiff’s counsel has not accepted the Court’s invitation to
propose alternative language for the remainder of the challenged
standard.

149a
156:9-158:3). CIR claims that in response to these
statements, it “drafted an additional proposed advertisement without these design elements,” but that
SEPTA would not consider this proposal because of
pending litigation. (Mot. at 17).
b. Gino Benedetti, Esq. Deposition
In support of its motion, CIR attached the July 18,
2018 deposition of Gino Benedetti, Esq. Benedetti
stated that SEPTA has a license with an advertising
company, “Intersection,” “to go out and get the advertising for us, to submit advertising to our advertising
department, to—if approved, to install the advertising
wherever it needs to be and interact with the
customers that it’s serving.” (Benedetti Dep. at 20:1323). Intersection is the “predominant” way SEPTA
obtains advertisements. (Id. at 60:14-61:5). The purposes for leasing advertising space are “to raise
revenue independent of the farebox and taxpayer
subsidies and to do so in a manner that provides
for the safety, efficiency and comfort of our passengers.” (Id. at 17:5-10). Benedetti stated that SEPTA
“generally” does not own bus shelters, but that at
transportation hubs such as 69th Street Station and
Frankford Transportation Center, SEPTA does lease
space for newsstands. (Id. at 39:4-42:16). The newsstands, according to Benedetti, are not able to sell
“some risqué-type periodicals” but otherwise, the
content of materials sold or programs shown on
televisions within those stands is unrestricted. (Id.).
Benedetti described the digital displays or “infotainment systems” on the new fleet of city buses as
including advertisements, news headlines,2 and infor2

In its supplemental brief, SEPTA represents that, as of
September 21, 2018, SEPTA has directed Intersection to termi-

150a
mation about the time and location of the stops on each
bus route. (Id. at 24:20-30:12). According to Benedetti,
Intersection subscribes to a service provided by
Screenfeed, a company which curates news information from Reuters and the Associated Press. (Id. at
30:13-22). This information is then “pushed” onto
SEPTA’s panels and digital displays in two different
formats—90 or 180 second loops. (Id.). Benedetti
explained that neither Screenfeed nor Intersection
determines what news to put onto the system, but
rather “Reuters and Associated Press puts out
whatever they put out.” (Id. at 31:23-32:17). Although
he could not say whether Intersection reviews the
content before it is posted, Benedetti did state that
SEPTA had not given any direction or guidance to
Intersection regarding the content of the news feed.
(Id. at 32:18-22). Benedetti explained that the purpose
of the newsfeed on the infotainment system is “[t]o
keep eyes on the screens, because that enhances the
value of the advertising, and it draws people’s
attention to the system information as well.” (Id. at
42:21-24).
Benedetti spoke at length about SEPTA’s reasoning
for amending its Advertising Standards in 2015. He
stated:
After the American Freedom Defense Initiative [“AFDI”] sued us sometime in 2014, I
don’t remember when the complaint was
filed, we made an initial amendment to the
advertising standards that was designed to
address the concerns that were raised by that
lawsuit.
nate newsfeeds on buses “as soon as possible.” (Def.’s Suppl. Br.,
ECF 32 at 2).

151a
And really what we’re trying to do was state
very clearly our intention to be a nonpublic
forum, and that’s what that amendment did.
We went through the lawsuit. We lost the
lawsuit. Judge Goldberg wrote a decision
about why he gave the relief to AFDI that he
gave.
And we then studied that decision and made
further changes to the policy . . . . That was a
process that included legal counsel. I certainly was at the center of that process.
(Id. at 47:14-48:10). Benedetti proceeded to explain
the process by which SEPTA’s board adopted the
2015 Advertising Standards. (Id. at 48:11-52:16). In
formulating these standards, Benedetti said that he
reviewed transit authority policies in other cities,
including Seattle. (Id. at 52:20-53:13). Benedetti also
explained that he considered riders’ experiences when
adopting the 2015 Advertising Standards, and that he
was concerned about “public outcry,” discontent from
employees, and potential vandalism. (Id. at 54:21-6).
Benedetti described the process by which SEPTA
determines that an advertisement violates its 2015
Advertising Standards as follows. (Id. at 61:6-68:5).
Intersection’s sales representatives, with direction
from Intersection employee Jon Roche, identify
advertisements that they believe might violate the
2015 Advertising Standards. Roche then sends that
advertisement via email to Benedetti. (Id.). Jim
Dellispriscolli, a SEPTA employee, also reviews
potential advertisements for compliance with the 2015
Advertising Standards. Benedetti provides an additional review as he rides SEPTA every day on his
way in to work. (Id.). Aside from these three rounds of

152a
review, Benedetti stated that there is no written
guidance aside from the 2015 Advertising Standards
themselves. (Id.). Benedetti did not know if SEPTA
posted its 2015 Advertising Standards to its website,
and although he provided his own interpretation of the
language used in the standards,3 it is unclear whether
the public has access to any guidelines regarding their
application. (Id. at 19:11-13.).
When asked about the contents of the proposed
SEPTA advertisement specifically, Benedetti stated
that he and his team had “particular concern” about
two images—one of “a white hand handing keys and
a stick of dynamite to a black hand” and another of
“African-Americans holding signs protesting against—
the white—and a white guy not being part of the
protest.” (Id. at 156:9-258:3).
Benedetti also discussed many other advertisements, some of which were run by SEPTA and some of
which were hypotheticals proposed by CIR’s attorney.
c. Victoria Baranetsky, Esq. Deposition

3

Benedetti explained that he interprets the terminology in the
standards as follows: “political in nature” means “of politics . . .
anything that deals with things that are political in nature . . .
[a]nything that one party may support and another doesn’t. I
don’t mean any political party, but I mean individuals or groups.
You know, things that are subject to debate; elections of officials,
those kinds of things . . . .” (Id. at 100:20-101:7); “opinion,
position, or viewpoint” describe “express[ing] an opinion about
something or . . . advocat[ing] an opinion about something . . .”
(Id. at 119:2-18); “action, inaction, prospective action or policies
of a government entity” means “the ad is pushing some view on
the government to take some action or no action” (Id. at 110:1721); and “matter of public debate” means “something that’s being
debated about in the public arena” (Id. at 119:19-22).

153a
The parties’ briefing also cites to the deposition
transcript of Victoria Baranetsky, Esq., General
Counsel of CIR, who was deposed as CIR’s 30(b)(6)
designee on July 12, 2018. Baranetsky testified that
the comic strip advertisement at issue was based on
an investigation and report by two journalists
employed by CIR, supported by an entire “data team”
with extensive training in statistical analysis.
(Baranetsky Dep. at 11:8-12:11).4 Baranetsky
explained that there was no final artwork created for
the bus advertisement because SEPTA would need
to “spend significant time editing and finalizing the
advertisement.” (Id. at 33:4-34:18). Although CIR
never submitted a hard copy of the comic to SEPTA, it
did send a hyperlink through which SEPTA could view
it. (Id. at 35:8-23). Baranetsky testified that CIR was
drawn to advertising on SEPTA buses because each
comic strip panel could be placed on a separate
advertising panel, filling the ten total advertising
panels on each bus. (Id. at 49:4-23). Despite testifying
about CIR’s desire to advertise on SEPTA buses,
Baranetsky did not know which bus routes CIR aimed
to target, how many buses CIR wished to advertise
on, or what the budget was for CIR’s advertising
campaign. (Id. at 77:13-22).
CIR had planned outreach events in Camden and
Philadelphia to “kick off” its advertising campaign
4

A good portion of Baranetsky’s deposition was spent questioning the methods and sources CIR relied on in its investigation. Baranetsky did not testify about the reason CIR took on this
investigation, nor did she identify with specificity the types of
information, sources, or statistical analysis the report relied on.
(Id. at 13:1-27:14, 44:10-19). She did, however, explain that the
report was not created through any “specific funding” stream, and
that credit scores were not included in CIR’s analysis. (Id. at
15:11-15, 20:11-21:16, 26:23-27:14, 30:7-31:20).

154a
about the disparate lending report. (Id. at 61:23-62:3).
Baranetsky explained that the event in Camden
already took place, but the event in Philadelphia
had to be moved to the fall. (Id. at 62:5-63:9).
Baranetsky did not testify about the details of the
outreach events. (Id. at 63:10-69:17).5 Although the
proposed advertisement was rejected by SEPTA,
Baranetsky testified that the City of Philadelphia
agreed to post the comic strip on bus shelters and
newsstands. (Id. at 77:23-78:22). At the time of her
deposition, Baranetsky stated that the advertisements
had yet to be posted by the City, and she did not know
how many advertisements would be posted. (Id.). It is
unclear whether the City imposes restrictions on those
advertising spaces, and neither party has addressed
why the advertisement has yet to run in those spaces.
d. Oral Argument and Supplemental Briefing
We held oral argument on September 14, 2018, and
counsel was asked a series of questions regarding
outstanding factual and legal issues. CIR stated that
there were no outstanding factual issues with respect
to the motion for preliminary injunction. (9/14/18
Hearing Tr. at 6:11-14). CIR explained that it accepts
Benedetti’s testimony regarding his decision-making
process, but that it challenges whether his interpretation and application of SEPTA’s 2015 Advertising
Standards are constitutional and consistent. (Id. at
9:24-10:4). CIR asserted that it had met all the
5

CIR purports to have experienced immediate and irreparable
harm because the comic advertisement has not been allowed to
run on SEPTA buses prior to its panel discussion, “Unpacking the
Trap,” on October 1, 2018. (See Pl.’s Suppl. Br., ECF 31 at 1 n.1).
It is unclear whether this event, which is to take place at “421
North 7th Street” in Philadelphia, is the same event that
Baranetsky testified about rescheduling for “the fall.”

155a
requirements for a preliminary injunction in its written submissions and that no further testimony was
necessary.
SEPTA disagreed that there were no factual disputes at issue. According to SEPTA, questions remain
about whether CIR’s advertisement is an advocacy
piece or “just straight news”; whether CIR is an advocacy or reporting agency; what reasons SEPTA had to
amend its standards; and how SEPTA controls
information on its infotainment systems.6 (Id. at
12:21-13:22).
In addition to—and more concerning than—the
outstanding factual issues identified by SEPTA,
SEPTA’s purposes for and administration of its
amended standards deserve, or require, additional
explanation. CIR contends that SEPTA’s reasoning for
implementing its policies prohibiting speech on
“matters of public debate” is “just a euphemism for a
ban on speech that SEPTA deems ‘controversial.’”
(Pl.’s Suppl. Br. at 4). SEPTA countered at oral argument that it has “a list of reasons” for adopting the
2015 Advertising Standards, but we are unable to
glean anything further from the evidence presented by
SEPTA, including Benedetti’s deposition.
There was a question discussed at oral argument as
to whether CIR submitted a final advertisement to
SEPTA for approval, and whether the second proposal
submitted by CIR had been reviewed and responded to
by SEPTA. Counsel for CIR asserted at the hearing
6

As explained above, SEPTA has represented to this Court
that it “directed Intersection to terminate the newsfeeds on the
SEPTA buses as soon as possible.” (Def.’s Suppl. Br. at 4). Accordingly, SEPTA’s control or lack of control over the newsfeeds on
these systems may no longer be relevant to this Court’s analysis.

156a
that its Motion would cover both advertisements, and
that “if SEPTA would prefer the second rather than
the first, as we believe it would, the Center would be
happy to just go along with the second one.” (9/14/18
Hearing Tr. at 19:19-25). The Court directed SEPTA
to include in its supplemental briefing a response to
this second advertisement, and SEPTA did so, concluding that “the second ad submission is also barred
by the same advertising standards as the first.” (Def.’s
Suppl. Br., Ex. A at 2). This exchange, coupled with
Benedetti’s deposition testimony, has illuminated for
the Court a discrepancy in the manner in which
SEPTA reviews proposed advertisements. Although
Benedetti has testified that he and his colleagues at
Intersection and SEPTA considered particular factors,
the reasoning SEPTA employed to reject CIR’s
advertisement and the process it employs generally to
accept or reject advertisements remain unclear.7
Relatedly, SEPTA states in its supplemental memorandum that it does not consider whether advertisements are “controversial.” (Def.’s Suppl. Br. at 7). But
Benedetti testified specifically that he “research[ed]
the controversy” surrounding Narcan when reviewing
that ad for its compliance with the advertising
standards. (Benedetti Dep. at 252:15-253:5). As
noted above, Benedetti explained that he considers
something as being “debated in the public arena” if

7

For example, are all proposed advertisements reviewed in a
piecemeal or “holistic” manner? What percentage of the material
in a particular ad must be violative of the policy? Are proposals
permitted to be reviewed? Are the same standards applied to
revised proposed advertisements? Is any guidance generally
provided for how violative advertisements may come into
compliance?

157a
“it’s something that’s sort of got society’s attention.”
(Id. at 120:2-3).
Moreover, it is worth noting that although the 2015
Advertising Standards prohibit advertising that
“express[es] or advocate[es] an opinion, position, or
viewpoint on matters of public debate,” when Benedetti
was asked whether an advertisement “merely involving the matter of public debate without expressing or
advocating an opinion” would violate Substandard (b),
Benedetti responded “I don’t know without seeing it.”
(Id. at 120:13-16).
Given these various discrepancies, it remains
unclear whether SEPTA’s policy is in fact targeted
toward controversial speech and, if not, how SEPTA
could explain the difference between controversial
speech and matters of public debate. Similarly, we
question whether SEPTA prohibits advertisements
that have as their subject issues of public debate, or
rather prohibits only those advertisements that
express opinions. We expect these issues to be
clarified at trial.
III. Previous litigation involving limitations on
SEPTA’s advertising space
This is not the first time SEPTA’s advertising
policies have been the subject of a lawsuit before this
Court. Although SEPTA contends that the previous
decisions involved outdated policies, no longer in effect
since the adoption of the 2015 Advertising Standards,
a brief review of the prior cases is relevant to the
Court’s analysis here.
In Christ’s Bride Ministries v. SEPTA, 148 F.3d 242,
245 (3d Cir. 1998), the Third Circuit held that
SEPTA’s removal of an advertisement violated the
First Amendment because SEPTA had created a

158a
public forum in its advertising space and the removal
of the advertisement in question did not survive strict
scrutiny, nor was it reasonable even if the forum were
nonpublic. Although SEPTA originally agreed to display the advertisement at issue, which stated that
“Women Who Choose Abortion Suffer More & Deadlier
Breast Cancer,” SEPTA removed the poster from
various stations and transit stops after receiving a
letter from the U.S. Department of Health and Human
Services calling its accuracy into question. Id. at 24546. In holding that the forum was a designated public
forum, the Third Circuit focused on SEPTA’s intent by
examining its policies and practices and the nature of
the property. Because SEPTA’s policies were aimed at
generating revenue and promoting awareness of
social issues, the forum was intended to be partly
commercial and partly expressive. Id. at 250. The fact
that SEPTA had discretion to reject advertisements
for any reason did not render the forum “not public”—
if anything, the government’s reserved right to control
speech without any particular standards or goals
called for closer scrutiny. Id. at 251. Moreover, the
record revealed no policy or practice demonstrating
that SEPTA intended the forum be closed to speech
on the issue of abortion. Id. at 253. Rather, “[i]n its
efforts to generate advertising revenues, SEPTA
permitted abortion-related and other controversial
advertisements concerning sexuality.” Id. at 254. Even
if the forum was closed, the Third Circuit held that
SEPTA’s actions were unreasonable because SEPTA
did not ask the advertiser to clarify the basis for its
contention after receiving the letter calling the poster
into question, could not explain how its decision was
related to preserving the advertising space for its
intended use, and failed to implement an official policy

159a
governing the display of advertisements making contested claims. Id. at 257.
More recently, in American Freedom Defense Initiative [“AFDI”] v. SEPTA, 92 F. Supp. 3d 314, 326, 331
(E.D. Pa. 2015), Judge Goldberg granted a motion for
a preliminary injunction because SEPTA had created
a designated public forum through its advertising
space on buses, and its restriction on certain “disparaging” advertisements was impermissibly contentbased, discriminatory as to viewpoint, and not necessary to serve a compelling state interest. SEPTA had
rejected a proposed advertisement about “Islamic
Jew–Hatred” because it violated the following antidisparagement standard: “Advertising that tends to
disparage or ridicule any person or group of person on
the basis of race, religious belief, age, sex, alienage,
national origin, sickness or disability.” Id. at 320.
Despite SEPTA’s testimony that it did not intend to
create a public forum, Judge Goldberg found that it
had done so through policies and practices that failed
to proscribe “political or public issue advertising” and
did not limit advertisements to “commercial or uncontroversial speech.” Id. at 326. Further, SEPTA’s policy
did not survive strict scrutiny because it was not
necessary to serve a compelling state interest—
indeed, it would have had the same “beneficial effect”
even if the prohibition was not limited to specific
enumerated groups. Id. at 328 (citation omitted).
The parties dispute the relevance of Christ’s Bride
Ministries and AFDI to this case, considering the fact
that SEPTA’s adoption of the 2015 Advertising
Standards was an express attempt at closing its
advertising forum.

160a
IV. Legal Standard
A preliminary injunction is “an extraordinary remedy never awarded as of right.” Groupe SEB USA, Inc.
v. Euro-Pro Operating LLC, 774 F.3d 192, 197 (3d Cir.
2014) (citing Winter v. Natural Res. Def. Council, Inc.,
555 U.S. 7, 24 (2008)). When determining whether
to grant injunctive relief, “the Court must consider
whether: (1) Plaintiffs have demonstrated a likelihood
of success on the merits; (2) Plaintiffs will be
irreparably harmed by the denial of injunctive relief;
(3) the balance of equities favors Plaintiffs; and (4) the
public interest favors granting the injunction.” Fulton
v. City of Philadelphia, No. 187-2075, 2018 WL
3416393, at *7 (E.D. Pa. July 13, 2018).
The first two of these factors—likelihood of success
on the merits and irreparable harm—are to act as
“gateway factors.” Id. at *8 (citing Reilly v. City of
Harrisburg, 858 F.3d 173, 180 (3d Cir. 2017)). “Accordingly, when confronted by a motion for preliminary
injunctive relief, a court must first determine whether
the movant has met these two gateway factors before
considering the remaining two factors—balance of
harms, and public interest.” Fulton, 2018 WL
3416393, at *8.
V. Discussion
a. Likelihood of success on the merits
i. Forum analysis
SEPTA begins its argument by asserting that the
advertising space on its buses is a nonpublic forum.
(Def.’s Resp. to Pl.’s Mot., ECF 21 at 21). CIR, on the
other hand, argues that the space is a designated
public forum. (Mot. at 45). At the September 14, 2018
hearing, CIR stipulated that it would accept that

161a
SEPTA’s advertising space is a nonpublic or limited
public forum, such that the proper guidelines for
evaluating the 2015 Advertising Standards are
whether SEPTA’s limitations are reasonable.8 (9/14/18
Hearing Tr. at 83:5-8). Accordingly, we proceed using
that standard.9
ii. Whether SEPTA’s 2015 Advertising
Standards are reasonable in light of the
purpose of the forum
CIR relies extensively on Minnesota Voters Alliance
v. Mansky, 138 S. Ct. 1876 (2018) to support its
proposition that the 2015 Advertising Standards “fail
to ‘articulate some sensible basis for distinguishing
what may come in from what must stay out’ . . . and
are ‘not capable of reasoned application.’” (Mot. at 21)
(citing Mansky, 138 S. Ct. at 1888, 1892). In Mansky,
the Supreme Court held that Minnesota’s statutory
prohibition on any person wearing a political badge,
8

CIR cites two cases where the Third Circuit struck down a
government actor’s advertising restrictions without requiring a
forum analysis. In Pittsburgh League of Young Voters Educ. Fund
v. Port Auth., 653 F.3d 290 (3d Cir. 2011), the Third Circuit
expressly refrained from undertaking a forum analysis because
there was sufficient evidence of viewpoint discrimination in the
defendant transit authority’s advertising restrictions. Id. at 296.
More recently, in Nat’l Ass’n for Advancement of Colored People
v. City of Philadelphia, 834 F.3d 435 (3d Cir. 2016) (“NAACP”),
the Third Circuit acknowledged the district court’s forum analysis but then decided such an analysis was irrelevant because the
plaintiff met its burden of showing that the City owned airport’s
advertising restrictions were unreasonable. In so deciding, the
Third Circuit explained that while “[s]ome types of forums
require more than reasonableness, [] none allow less.” Id. at 442.
9

We also note that although SEPTA is not a publicly owned
entity, no party has raised a concern that it should not be treated
as such within this analysis.

162a
button, or other form of insignia inside a polling place
on Election Day was not capable of reasoned
application and thus violated the First Amendment.
County officials distributed an “Election Day Policy” to
provide polling-place staffers guidance on the enforcement of the regulation, which specified that examples
of apparel falling within the ban should “include, but
[were] not limited to”:
x

Any item including the name of a political
party in Minnesota, such as the
Republican, [Democratic–Farmer–Labor],
Independence, Green or Libertarian
parties.

x

Any item including the name of a
candidate at any election.

x

Any item in support of or opposition to a
ballot question at any election.

x

Issue oriented material designed to influence or impact voting (including specifically the ‘Please I.D. Me’ buttons).

x

Material promoting a group with recognizable political views (such as the Tea
Party, MoveOn.org, and so on).

Mansky, 138 S. Ct. at 1884.
In striking down the policy, the Supreme Court first
held that a polling place is a nonpublic forum. Id. at
1886. Because Plaintiffs had made no argument that
the policy was viewpoint discriminatory, the Court
evaluated solely whether the state’s ban was “‘reasonable in light of the purpose served by the forum’:
voting.” Id. at 1886 (citing Cornelius v. NAACP, 473
U.S. 788, 806 (1985)). The first three examples
enumerated above constituted appropriate guidance

163a
on the policy, but the last two—issue oriented material
and material promoting a group with recognizable
political views—provided unreasonable discretion to
the state’s actors. Although “precise guidance has
never been required,” Ward v. Rock Against Racism,
491 U.S. 781, 794 (1989), an “indeterminate prohibition carries with it ‘the opportunity for abuse,
especially where it has received a virtually open-ended
interpretation.’” Mansky, 138 S. Ct. at 1891 (quoting
Bd. of Airport Comm’rs of City of Los Angeles v. Jews
for Jesus, Inc., 482 U.S. 569, 576 (1987)). The “discretion must be guided by objective, workable standards.”
Id.
In Mansky, the Court highlighted various questions
raised at oral argument that showed the final two
guidelines were unclear: Was a t-shirt with a rainbow
flag on it “issue oriented material designed to influence or impact voting?” Mansky, 138 S. Ct. at 1891.
Was insignia from the AARP or Ben & Jerry’s “material promoting a group with recognizable political
views?” Id. at 1890.
Plaintiff contends that Mansky has fundamentally
changed the law regarding analysis of content-based
restrictions in a nonpublic forum such that the 2015
Advertising Standards are facially unconstitutional.
SEPTA responds that the holding in Mansky is limited
to polling places and did not disrupt the holding of a
plurality of the Supreme Court in Lehman v. City of
Shaker Heights, 418 U.S. 298 (1974).
In Lehman, a plurality of the Supreme Court
affirmed the decision of the Ohio Supreme Court that
a city policy prohibiting political advertisements in
city bus advertising space did not violate the First
Amendment because there was no public forum. 418
U.S. at 304. Justice Douglas concurred in the judgment.

164a
The case involved a candidate for the Ohio General
Assembly who wanted to place campaign advertisements on the Shaker Heights Rapid Transit System
during the months leading up to an election. Id. at 299.
The company who managed the advertising space for
the City rejected the advertisement under the policy
prohibiting political advertisements, which was
imposed in order to “minimize chances of abuse, the
appearance of favoritism, and the risk of imposing
upon a captive audience.” Id. at 304. In the twenty six
years that the city had operated the transit company,
it had not accepted or permitted any “political or public
issue advertising” on its vehicles. Id. at 300-301.
However, the City had accepted advertisements from
“churches, and civic and public-service oriented
groups.” Id. at 300. The Supreme Court focused on
the nature of the contested forum—the advertising
space on a public bus—and noted that the “streetcar
audience is a captive audience. It is there as a matter
of necessity, not of choice.” Id. at 302 (citing Public
Utilities Comm’n v. Pollak, 343 U.S. 451, 468 (1952)
(Douglas, J., dissenting)). The plurality held that “a
city transit system has discretion to develop and make
reasonable choices concerning the type of advertising
that may be displayed in its vehicles.” Id. at 303.
Although Lehman was decided before the Supreme
Court articulated its current standard for forum
analysis in Perry Educ. Assn. v. Perry Local Educator’s
Assn., 46 U.S. 37, 46 (1983), this Court concludes that
Lehman is strong precedent for “reasonable” speech
restrictions in the context of public transit. SEPTA
notes Mansky’s citation to Lehman as support for its
statement that “our decisions have long recognized
that the government may impose some content-based
restrictions on speech in nonpublic forums, including
restrictions that exclude political advocates and forms

165a
of political advocacy.” 138 S. Ct. at 1885-86. CIR urges
us to limit our reading of Lehman, contending that
SEPTA has “overstated the significance of Mansky’s
citation to Lehman.” (Pl.’s Suppl. Br. at 4).
Even if the 2015 Advertising Standards are not
intended to censor controversial speech, CIR argues
that SEPTA bears the burden of proving that they are
“reasonable” in light of the purpose of its advertising
space. (Mot. at 41) (citing NAACP, 834 F.3d at 443). In
NAACP, the Third Circuit held that the City’s ban on
non-commercial ads at the Philadelphia Airport was
unreasonable, in violation of the First Amendment,
after the City rejected a proposed advertisement
regarding its high incarceration rates.10 The City could
satisfy its burden to show reasonableness using record
evidence or commonsense inferences, and had to
satisfy a two-step test:
1. Given that reasonableness “must be assessed in
the light of the purpose of the forum and all the
surrounding circumstances,” id. at 445 (citing
Cornelius, 473 U.S. at 809), the evidence or
inferences must allow the Court to grasp the
purpose to which the City has devoted the
forum; and
2. The evidence or inferences also must provide a
way of tying the limitation on speech to the
forum’s purpose. Id. at 445.
The City argued that the advertising space had two
objectives: revenue maximization and controversy
avoidance. Because the record contained no legitimate
10

As explained above, the Third Circuit noted that a forum
analysis was unnecessary, although it accepted the district
court’s conclusion that the airport advertising space was a limited
or nonpublic forum. Id. at 442.

166a
evidence that the ban was related to, or would further
the goals of, revenue maximization or controversy
avoidance,11 and because commonsense inferences
could not be drawn, the Third Circuit held the policy
unreasonable in violation of the First Amendment. Id.
at 448.
In light of the record evidence, in particular the lack
of clarity surrounding SEPTA’s reasons for and procedures in implementing the 2015 Advertising
Standards, we are unable to make a determination
about whether SEPTA can meet its burden. As
Lehman makes clear, SEPTA has the discretion to
develop and adopt reasonable choices concerning its
advertising spaces. Without more evidence, we cannot
say whether SEPTA’s 2015 Advertising Standards are
reasonable, and thus cannot say whether CIR has
shown a likelihood of success on the merits.12

11

Regarding the City’s purported purpose of using the airport’s advertising space for “controversy avoidance,” the Third
Circuit also noted that the Supreme Court “cautions against
readily drawing inferences, in the absence of evidence, that
controversy avoidance renders the ban constitutional.” Id. at 446.
12

SEPTA asserts that it adopted language from other transit
advertising policies when formulating its own in 2015. Notably,
the challenged portions of the 2015 Advertising Standards mirror
the language used in New York’s Metropolitan Transportation
Authority policy, which prohibits advertisements “directed or
addressed to the action, inaction, prospective action, or policies of
a governmental entity” and those that “[p]rominently or predominately advocate or express a political message, including but not
limited to an opinion, position, or viewpoint regarding disputed
economic, political, moral, religious or social issues or related
matters, or support for or opposition to disputed issues or causes.”
Vaguely Qualified Prods. LLC v. Metro. Transp. Auth., No. 15
CIV. 04952 CM, 2015 WL 5916699, at *3 (S.D.N.Y. Oct. 7, 2015)
(granting a preliminary injunction in favor of Plaintiff organiza-

167a
b. Irreparable Harm
CIR argues that ongoing loss of First Amendment
freedoms constitutes “irreparable injury” warranting
a preliminary injunction. (Mot. at 50) (citing Elrod v.
tion where MTA held that advertisement for a documentary
entitled “The Muslims Are Coming!” was in violation of its policy).
SEPTA’s policy is also similar to DC’s Washington Metropolitan Area Transit Authority policy which prohibited “advertisements intended to influence members of the public regarding an
issue on which there are varying opinions” and “advertisements
that are intended to influence public policy.” Am. Civil Liberties
Union Found. v. Washington Metro. Area Transit Auth., 303 F.
Supp. 3d 11, 19, 26 (D.D.C. 2018). In ACLU, the Court denied
plaintiff’s motion for a preliminary injunction, holding that the
WMATA’s decision to remove advertisements promoting Milo
Yiannopoulos’s new book was reasonable and not viewpoint
discriminatory, given that the advertisements were “intended to
advance a campaign of persuasion on ‘contemporary political and
social issues.’” Id. at 20. The Court also found that plaintiff had
not established a likelihood of success on the merits of his
vagueness claim because the “distinctions drawn between the
rejected advertisements and the accepted advertisements appear
to reflect reasonable and appropriate differentiation between
different kinds of advertisements.” Id. at 27.
The County of Lackawanna Transit System (COLTS) policy
also in relevant part mirrors SEPTA’s by stating that “COLTS
will not accept advertising . . . that [is] political in nature or
contain[s] political messages, including advertisements involving
political figures or candidates for public office, advertisements
involving political parties or political affiliations, and/or advertisements involving an issue reasonably deemed by COLTS to be
political in nature in that it directly or indirectly implicates the
action, inaction, prospective action, or policies of a governmental
entity.” Northeastern Pa. Freethought Soc’y v. County of
Lackawanna Transit System, 2018 WL 3344910 *4-5 (M.D. Pa.
2018)(appeal filed August 8, 2018, Docket 18-2743). This case
dealt with a challenge to the portion of the policy regarding
advertising speaking to the “existence or nonexistence of a
supreme deity, deities, being or beings.”

168a
Burns, 427 U.S. 347, 373 (1976) (“The loss of First
Amendment freedoms, for even minimal periods of
time, unquestionably constitutes irreparable injury.”).
CIR also asserts that it is harmed by not being able to
display the advertisement in anticipation of an
October 1, 2018 panel discussion where a Data
Reporter from CIR will serve as a panelist and discuss
its reporting. (Pl.’s Suppl. Br. at 3). In light of both of
these considerations, CIR has shown irreparable
harm, as monetary damages would not suffice to
correct its potential injury of a violation of its First
Amendment rights. See Reilly, 858 F.3d at 180, n.4.
c. Balance of Equities and the Public Interest
The public interest does not clearly cut exclusively
in favor of CIR in this case. There is an obvious and
great public interest in the free exchange of views on
political, social, and economic issues that CIR desires.
On the other hand, there is a strong public interest in
having a viable public transportation system in a large
metropolitan area, such as the greater Philadelphia
area, which SEPTA serves. As explained in Lehman,
advertising space within “public transportation is a
part of the commercial venture,” and attracting and
maintaining riders is a reasonable interest for a
transit agency such as SEPTA. 418 U.S. at 303.
Regarding the balance of equities, both sides have
presented valid arguments for this Court to consider.
Of considerable importance for this decision on the
preliminary injunction is the fact that, as illuminated
on the September 14, 2018 hearing and explained
herein, there remain a number of factual disputes and
issues in this case that should be explained, and
subjected to cross examination, at trial.

169a
Lastly, this complaint was filed on May 2, 2018, and
CIR did not seek a temporary restraining order. The
Motion for Preliminary Injunction was filed on August
17, 2018. This is not intended as any criticism, but
rather meant to highlight the fact that in moving for a
preliminary injunction, some delay was necessitated
in having discovery and briefing on the important
issues at stake here. We are in a position where the
final trial will begin in less than one week, and will be
completed promptly. The Court intends to prioritize
the final disposition of this case so the parties can, if
they so desire, submit the issues to the Third Circuit
on appeal.
3. Conclusion
For all of the reasons herein, the Court in its
discretion will deny the preliminary injunction
without prejudice. Neither CIR nor SEPTA should
make any conclusions or predictions as to the Court’s
final decision. The Court has not relaxed its intention
to expand the scope of its analysis with a full trial
record and a more detailed consideration of the issues.
An appropriate order follows.

170a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CIVIL ACTION NO. 18-1839
————
THE CENTER FOR INVESTIGATIVE REPORTING
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
ORDER
AND NOW, this 25th day of September, 2018, upon
review of Plaintiff’s Motion for Preliminary Injunction
(ECF 20), Defendant’s response thereto (ECF 21),
Plaintiff’s Reply thereto (ECF 24), and Supplemental
Memoranda (ECF 31 & 32), and for the reasons set out
in the accompanying Memorandum, it is hereby
ORDERED that Plaintiff’s Motion is DENIED without
prejudice.
BY THE COURT:
/s/ Michael M. Baylson
Michael M. Baylson, U.S.D.J

171a
APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
[Filed October 30, 2020]
————
No. 19-1170
————
THE CENTER FOR INVESTIGATIVE REPORTING,
Appellant
v.
SOUTHEASTERN PENNSYLVANIA
TRANSPORTATION AUTHORITY
————
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-18-cv-01839)
District Judge: Honorable Michael M. Baylson
————
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, RESTREPO, BIBAS, PORTER,
MATEY, and PHIPPS, Circuit Judges,
GREENBERG*, Senior Judge

*

Judge Greenberg’s vote is limited to panel rehearing only.

172a
The petition for rehearing filed by Appellee in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc is
denied.
BY THE COURT,
s/Joseph A. Greenaway, Jr.
Circuit Judge
Dated: October 30, 2020
dwb/cc:
Brian M. Hauss, Esq.
Rebecca S. Melley, Esq.
John S. Stapleton, Esq
Molly M. Tack-Hooper, Esq.
Robert A. Wiygul, Esq.
Kendra L. Baisinger, Esq.
Robert E. Day, III, Esq.
Maryellen Madden, Esq.
John J. Powell, Esq
Stephen G. Harvey, Esq.
Bruce D. Brown, Esq.
Gregory J. Krock, Esq.
James P. Davy, Esq.

